<html>
<title> - THE CURRENT STATUS OF U.S. GROUND FORCES</title>
<body><pre>[Senate Hearing 111-166]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-166
 
                THE CURRENT STATUS OF U.S. GROUND FORCES 

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON READINESS AND MANAGEMENT SUPPORT

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 22, 2009

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

53-693 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 














                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JEFF SESSIONS, Alabama
JACK REED, Rhode Island              SAXBY CHAMBLISS, Georgia
DANIEL K. AKAKA, Hawaii              LINDSEY GRAHAM, South Carolina
BILL NELSON, Florida                 JOHN THUNE, South Dakota
E. BENJAMIN NELSON, Nebraska         MEL MARTINEZ, Florida
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   RICHARD BURR, North Carolina
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
MARK UDALL, Colorado                 SUSAN M. COLLINS, Maine
KAY R. HAGAN, North Carolina
MARK BEGICH, Alaska
ROLAND W. BURRIS, Illinois

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                 ______

            Subcommittee on Readiness and Management Support

                      EVAN BAYH, Indiana, Chairman

ROBERT C. BYRD, West Virginia        RICHARD BURR, North Carolina
DANIEL K. AKAKA, Hawaii              JAMES M. INHOFE, Oklahoma
CLAIRE McCASKILL, Missouri           SAXBY CHAMBLISS, Georgia
MARK UDALL, Colorado                 JOHN THUNE, South Dakota
ROLAND W. BURRIS, Illinois

                                  (ii)

  











                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                The Current Status of U.S. Ground Forces

                             april 22, 2009

                                                                   Page

Chiarelli, GEN Peter W., USA, Vice Chief Of Staff, United States 
  Army...........................................................     5
Amos, Gen. James F., USMC, Assistant Commandant, United States 
  Marine Corps...................................................     8

                                 (iii)


                THE CURRENT STATUS OF U.S. GROUND FORCES

                              ----------                              


                       WEDNESDAY, APRIL 22, 2009

                           U.S. Senate,    
              Subcommittee on Readiness and
                                Management Support,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m. in 
room SR-232A, Russell Senate Office Building, Senator Evan Bayh 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Bayh, Udall, Burris, 
Inhofe, Thune, and Burr.
    Committee staff members present: Leah C. Brewer, 
nominations and hearings clerk; and Jennifer L. Stoker, 
security clerk.
    Majority staff members present: Peter K. Levine, general 
counsel; John H. Quirk V, professional staff member; and 
William K. Sutey, professional staff member.
    Minority staff members present: Adam J. Barker, research 
assistant; Paul C. Hutton IV, professional staff member; David 
M. Morriss, minority counsel; and Lucian L. Niemeyer, 
professional staff member.
    Staff assistants present: Christine G. Lang and Breon N. 
Wells.
    Committee members' assistants present: Jon Davey, assistant 
to Senator Bayh; Jennifer Barrett, assistant to Senator Udall; 
Anthony J. Lazarski, assistant to Senator Inhofe; and Chris 
Joyner, assistant to Senator Burr.

        OPENING STATEMENT OF SENATOR EVAN BAYH, CHAIRMAN

    Senator Bayh. Good morning, everybody. The hearing will 
please come to order. I'm going to have a brief opening 
statement, Senator Burr; then I'll turn to you; and, Senator 
Burris, then to you. I understand Senator Udall may be on the 
way, and we'll then turn to him.
    Gentlemen, I know you have prepared statements, but we'd 
love to hear you summarize them in some oral testimony, and 
then we'll get to some questions and some answers.
    The purpose of today's hearing is to address the growing 
strain placed upon our Army and Marine Corps. We will receive 
testimony on the current readiness of ground forces with 
respect to deployed, deploying, and nondeployed units. We will 
also discuss the Army and the Marine Corps' ability to meet the 
combatant commander's requirements and to respond to unforeseen 
contingencies.
    We are particularly interested in your assessment of the 
risks resulting from the continued commitment of combat forces 
to Iraq and Afghanistan. Additionally, the subcommittee will be 
interested to know your views of the current and projected 
readiness reporting system used by the Department of Defense 
(DOD).
    Over the last several years, we have observed total force 
readiness decline as a result of combat operations in Iraq, 
Afghanistan, and elsewhere around the globe. While our soldiers 
and marines continue to showcase their training and valor, the 
overall readiness of the Army and Marine Corps has steadily 
decreased. Generally, this comes at the expense of our 
nondeployed units.
    My concern is that in order to fully resource deploying 
units, we have chosen to cannibalize our forces at home and 
thus face an increased risk of being unable to respond to the 
full spectrum of global challenges, including potential 
domestic crises. Our current strategy is unsustainable and, if 
not properly addressed, we face added risks and serious long-
term implications for our Army and Marine Corps.
    Additionally, we must shift away from a strategy that 
prioritizes reset only with supplemental funding. It is our 
shared responsibility to restore our Army and Marine Corps so 
that they can effectively and efficiently meet current and 
future threats.
    This morning we welcome General Peter W. Chiarelli, Vice 
Chief of Staff of the Army, and General James F. Amos, 
Assistant Commandant of the Marine Corps.
    Gentlemen, I sincerely thank you both for your dedicated 
service to our country. I thank you for your time in attending 
our hearing today. I know that it took some time and 
preparation on both your parts and your staffs' parts, so I 
want to thank you for that. We look forward to receiving your 
testimony. I also want to thank you both for your courtesy in 
meeting with me and offering to meet with me before the 
hearing, and I look forward to having a very productive 
relationship with both of you.
    Having said that, Senator Burr, I'll turn the mike over to 
you.

               STATEMENT OF SENATOR RICHARD BURR

    Senator Burr. Mr. Chairman, thank you. Let me express how I 
look forward to working with you on this subcommittee and on 
the Armed Services Committee, as do the other members. I thank 
you for your hospitality and generosity so far. I think we'll 
carry this show on the road some and maybe get out across the 
country, and maybe to some of the North Carolina installations 
that we take great pride in.
    Let me welcome both Generals today.
    Senator Bayh. If you feed us, Senator, we will come.
    Senator Burr. We will feed you to where you probably won't 
be able to leave.
    Senator Bayh. Very good. You're going to test our lift 
capacity, is that right?
    Senator Burr. I do want to thank our witnesses for not only 
being here today, but for their dedication and, more 
importantly, their service to their country.
    Mr. Chairman, this subcommittee held a hearing last year on 
the same subject of current unit readiness. At the time, we had 
a full range of combat units and support personnel totaling 
165,000 engaged throughout Iraq. We had committed to a strategy 
of a surge of forces to clear, hold, and build in cities and 
towns, to restore a safe environment and prevent a civil war. 
At the same time, we were training Iraqi security forces so 
they could assume responsibility for the protection and 
security of their countrymen against terrorists.
    During that time we were working with our North Atlantic 
Treaty Organization partners in Afghanistan to bring security 
to the eastern provinces and increasing U.S. forces to over 
32,000 to respond to an increasingly violent insurgency that 
was spreading to other parts of the country. At the time, the 
senior American commander in Afghanistan was requesting 
additional forces within a year to meet the emerging threats 
and Congress was asking military leaders if they had the 
available combat units to meet that request. General Cody, then 
the Vice Chief of Staff of the Army, testified before this 
subcommittee: ``The current demand for forces in Iraq and 
Afghanistan exceeds our sustainable supply.''
    Since then much has changed and yet certain factors remain 
the same. The most positive change has been the vastly improved 
security environment in Iraq, as a result of the success of the 
surge and the rising competency of Iraqi security forces. This 
success has given our leaders the ability and flexibility to 
begin to responsibly draw down U.S. forces in Iraq, turning 
over security responsibilities to the Iraqi security forces 
under the terms of a new agreement with Iraq that seeks a 
peaceful transition without threat to stability to the country.
    Because of the security and stability in Iraq, we have 
decided to commit additional resources in Afghanistan. The 
President recently announced an additional deployment of 21,000 
Army soldiers and U.S. marines within the next 8 months. As we 
speak, the 82nd Airborne Division out of Fort Bragg, NC, is 
assuming command at Bagram Air Base in Afghanistan for the next 
year, and in the southern part of the country elements of North 
Carolina's U.S. marines out of Camp Lejeune will be taking up 
the point to conduct operations against the Taliban.
    Congress faces critical decisions in the coming months on 
emergency supplemental appropriations and fiscal year 2010 
defense spending. We cannot afford to delay emergency 
supplemental appropriations needed to support that expanded 
operation in Afghanistan, the drawdown of forces in Iraq, and 
the reset of combat units back home.
    Furthermore, we cannot afford to cash our check on success 
prematurely by reducing the funds available in the readiness of 
our forces. We must remember that our military forces continue 
to struggle to restore the balance in long-term readiness 
across a full spectrum of threats. In order to respond to their 
mission requirements, they need personnel who are ready, with 
adequate training, and have combat-ready equipment. They also 
need a robust investment in new equipment over the next 5 years 
to fully reset combat units with the best available technology 
and systems.
    I look forward to an update from our witnesses on efforts 
initiated last year to improve the readiness of our nondeployed 
forces, including the decision in January 2007 to increase the 
number of combat ground forces in the Army and the Marine 
Corps. In the next 3 years the availability of additional 
forces will add time between deployments to allow for full 
spectrum training for mission-essential tasks and more time 
spent with families, which we all know is lacking.
    Another area of interest is our witnesses' plans for the 
transfer of units directly from Iraq to Afghanistan, especially 
what's being done to ensure that personnel receive adequate 
training, intelligence, and equipment for their new area of 
responsibility. Given the strain on equipment in recent years, 
I'm also interested to know their services' investment strategy 
to re-equip forces and to restore prepositioned stocks to 
levels required by our operational plans.
    Mr. Chairman, I once again thank you for this hearing, and 
I thank our witnesses for being here.
    Senator Bayh. Senator Burr, thanks to you and to your staff 
members. I look forward to working with you to ensure that our 
Armed Forces have the equipment, the training, and the troop 
strength to carry out the important mission of protecting 
America's national security interests. I'm grateful for your 
devotion to achieving that result.
    Senator Burris, we would welcome any opening comments you 
might have.
    Senator Burris. Thank you, Mr. Chairman. I have very 
limited opening comments. I want to thank you and Senator Burr 
as ranking member for being a part of this subcommittee. I just 
want to thank our military personnel for all that they do for 
us. I will have a few questions.
    I want all the military personnel to hear this statement: 
We are able to do what we do in America because of what you do 
across the world for our protection. Just keep that in mind. We 
appreciate your commitment and your effort and your dedication 
to making us the strongest country in the world.
    Every time I see one of you guys, whether you're a private 
or a four-star general, I salute each and every one of you. God 
bless you, and I'll have some questions for the witnesses 
during the question period, Mr. Chairman.
    Thank you very much.
    Senator Bayh. Thank you, Senator Burris. I believe we all 
embrace your sentiments of pride in our Armed Forces. I think 
you have someone who's a native of Illinois on General 
Chiarelli's staff, so he has very capable staff with him here 
today.
    Gentlemen, thank you. We look forward to hearing from you. 
I think, just to recap, we all recognize the strain that's been 
placed upon your brave soldiers by the duration and the pace of 
operations in Iraq and Afghanistan, and perhaps the changing 
nature of the threats that face our Armed Forces. We're here to 
make sure you have the tools to get the job done.
    So we look forward to hearing from both of you. We will 
enter your written statements in the record, so feel free, if 
you so desire, to summarize. We are interested in what you have 
to say.
    General Chiarelli, we'll start with you.

STATEMENT OF GEN PETER W. CHIARELLI, USA, VICE CHIEF OF STAFF, 
                       UNITED STATES ARMY

    General Chiarelli. Mr. Chairman, Ranking Member Burr, and 
distinguished members of the subcommittee: I thank you for the 
opportunity to appear here today to discuss the current 
readiness of U.S. ground forces. This is my first occasion to 
appear before this esteemed subcommittee and I pledge to always 
provide you with an honest and forthright assessment and my 
best military advice as requested.
    I've submitted a statement for the record and I look 
forward to answering your questions at the conclusion of my 
opening remarks. As you are aware, President Obama is preparing 
to submit his fiscal year 2010 defense budget to Congress. 
Earlier this month, Secretary Gates outlined key 
recommendations and projected changes specific to Army programs 
and organizational structure, and I expect you have related 
questions. However, I believe it would be premature for me to 
provide much of the details ahead of our President, our 
Secretary, the Honorable Pete Geren, and Chief of Staff of the 
Army General George Casey. It would also be inappropriate for 
me to speculate on past or future decisions. Given these 
constraints, I will respond to your inquiries to the best of my 
ability and take the remaining questions for the record.
    As all of you know, it's been a busy time for our Nation's 
military. We are at war, and we've been at war for the past 7-
plus years. During this period, demand has continued to grow 
and the Army's level of responsibility has expanded 
considerably. At the same time, our forces became smaller in 
terms of the number of available personnel. The combined effect 
has been increased deployments, shorter dwell-time, and 
insufficient recovery times for our soldiers, their families, 
and our equipment.
    Today, as has been previously reported to this 
subcommittee, the Army remains out of balance. We continue to 
be consumed with meeting the demands of the current fight and 
overall we are consuming our readiness as fast as we are 
building it. Unfortunately, the Army cannot influence demand 
and the current level does not appear likely to improve 
significantly for the foreseeable future.
    In order to meet the demand, we are currently staffing many 
of the critical functions by reassigning authorizations and 
personnel from within our ranks. My concern is we cannot fully 
predict what the derivative effects of these decisions will be 
in the future.
    These are challenging times for our Nation and for our 
military, and although, with the support of Congress, we have 
deployed the best manned, best equipped, best trained and led 
forces in the history of the United States Army, it is my 
personal opinion that we simply cannot continue to meet the 
current demand, expand our agility and focus, and sustain the 
force, including soldiers and equipment, without making some 
corresponding adjustments.
    I assure the members of this subcommittee that is what the 
Army's senior leaders are focused on right now. We are working 
these issues and determining the needs of our Army for the 
future, and we will continue to coordinate with senior DOD 
officials and Congress to identify both short- and long-term 
solutions.
    Chairman, members of the subcommittee, thank you again for 
your continued generous support and demonstrated commitment to 
the outstanding men and women of the United States Army and 
their families. I look forward to your questions.
    [The prepared statement of General Chiarelli follows:]
           Prepared Statement by GEN Peter W. Chiarelli, USA
    Chairman Bayh, Ranking Member Burr, distinguished members of the 
Senate Committee on Armed Services. I thank you for the opportunity to 
appear here today to provide a status on the current readiness of U.S. 
ground forces. This is my first occasion to appear before this esteemed 
committee, and I pledge to always provide you with an honest and 
forthright assessment.
    On behalf of our Secretary, the Honorable Pete Geren and our Chief 
of Staff, General George Casey, I would also like to take this 
opportunity to thank you for your continued, strong support and 
demonstrated commitment to our soldiers, Army civilians, and family 
members.
    Recently, Secretary Gates publicly presented key decisions that he 
will recommend to President Obama with respect to the fiscal year 2010 
defense budget. Many of these recommendations concern programs that 
have a direct impact on readiness; and, I'm sure you have many relevant 
questions. Once the President's budget is released, the Army's senior 
leaders will address all of these issues. In the meantime, I will do my 
best to answer your questions on the current state of Army readiness 
within the limitations imposed by the current budget process. I 
apologize in advance for any inconvenience.
    As all of you know, it has been a busy time for our Nation's 
military. We have been at war for the past 7-plus years, which has 
undeniably put a strain on our people and equipment. We have had our 
share of good and bad experiences; and, we are continually making 
adjustments and improvements to our tactics, training, and equipment 
based upon lessons learned.
    However, since the very beginning, this war has been in many ways 
different and more complex than past wars. We are dealing with less 
clearly defined and highly savvy adversaries in two theaters. In order 
to remain dominant, we have had to simultaneously and swiftly adapt our 
doctrine and organizational structure to effectively span the breadth 
of operational environments. It's all part of a changing strategy we 
refer to in the Army as ``Full Spectrum Operations.''
    Unlike the Army of previous generations--that had essentially a 
single mission focus of ground warfare--today's Force has many more 
specialized capabilities and a much broader mission span. The 
centerpiece of our efforts is a shift to a modular construct focused at 
the brigade level. We have also expanded our capability by adding Civil 
Affairs, MPs, Special Forces, and other enablers.
    This ongoing transformation has greatly enhanced the Army's ability 
to respond to any situation, quickly and effectively. However, reaching 
this point has not been easy, particularly for a tired and stretched 
force. The degree of impact continues to vary, for example, between 
Brigade Combat Teams (BCTs), ``enablers,'' the Reserve components, and 
individual soldiers.
    The 15 combat brigades in theater understandably get the bulk of 
the attention, but when you look across the total Army today, the 
number of brigades committed is actually much higher. We have six 
National Guard brigades assigned to security forces; one brigade in 
Korea; one in Kosovo Force; one committed to the Transition Team 
Mission; one serving as the Global Response Force; one tied up as the 
chemical, biological, radiological, nuclear or high-yield explosive 
(CBRNE) Consequence Management Response Force (CCMRF); two tied up in 
Relief in Place/Transition of Authority, the approximately 40-day 
period when the incoming/outgoing units are either enroute to/from 
theater or onsite conducting battle hand-off; and, one battalion 
serving in the Sinai.
    Additionally, among all the components, there are approximately 
30,000+ soldiers that are currently unavailable (9,500 are assigned to 
Warrior Transition Units (WTUs); 2,300 are assigned as cadre or health 
care providers at WTUs; 10,000 are nondeployable (i.e., dwell, injury, 
pregnancy); and 10,000 are assigned as individual augmentees).
    Also, while we built BCTs to be self-sufficient, in reality there 
is still a relatively robust support system that augments them--as well 
as other Services, our coalition partners, and host nation forces--in 
the environments we fight in today. These ``enablers'' include 
engineer, intelligence, fires, logistics, military police, civil 
affairs, and aviation. The demand on ``enablers'' is expected to grow 
even larger in Afghanistan, a country without the infrastructure and 
logistical capability that already existed in Iraq in 2003. The overall 
demand will also be further exacerbated by the continued necessity for 
a large number of ``enablers'' in Iraq, even as units drawdown to meet 
the President's guidance from 27 February 2009.
    Other capabilities have also been created out of hide in response 
to new requirements or because the appropriate government agencies have 
either been unable or unwilling to provide these critical functions--
civil affairs officers, contract specialists, and health advisors are 
good examples. A case in point is Afghanistan, where National Guard 
AgriBusiness Development teams--made up of farmer-soldiers from eight 
States in Middle America--are teaching Afghans how to improve their 
farming methods in order to yield more crops and livestock. Agriculture 
accounts for 60-70 percent of that country's economy; however, the 
``how-to'' knowledge that historically was passed down from generation 
to generation has been lost after years of civil war and tribal 
fighting.
    This nonkinetic piece is critically important, and these farmer-
soldiers are doing an outstanding job. However, the fact is they do not 
exist on the National Guard's Table of Organization and Equipment, and 
the manning shortfalls they create must then be backfilled from 
somewhere else.
    Ideally, teams of agronomists from land grant universities 
sponsored by the United States Agency for International Development 
would take on this particular mission. In their absence, the Army has 
had to provide these and other specialized teams.
    Over the past 7-plus years, demand has continued to grow and the 
Army's level of responsibility has expanded considerably. At the same 
time our available Force structure has become smaller as the number of 
nondeployables has increased. The combined effect has been increased 
deployments and shorter dwell times for our soldiers. The Army is 
currently averaging a 1:1.3 ratio (12 months deployed and 16 months 
dwell) for our Active component and less than a 1:3 ratio for Reserve 
component forces.
    People tend to focus on unit dwell time, while failing to 
appreciate that frequently a soldier will redeploy with one unit, go to 
school enroute to his next assignment, then have to deploy with the new 
unit in less than 12 months. The United States Military Academy's 
Operations Research Center and the Army G-1 recently completed a very 
detailed analysis of unit and individual `Boots on the Ground' (BOG)/
dwell times. They concluded that for every military occupational 
specialty (MOS) and grade (rank), more than 50 percent of the soldiers 
experience shorter dwell time compared to the BCTs.
    The current pace of operations is impacting every segment of our 
Force--Active, Guard, and Reserve. While our Reserve components are 
continuing to perform magnificently, many of these units have been 
assigned missions as an operational force, when they had been resourced 
and utilized as a Strategic Reserve for decades. Another challenge we 
are still dealing with is the impact of the surge. We are not scheduled 
to get our last combat brigade off of a 15-month deployment until June 
2009 and our last CS/CSS unit off of 15-month deployment until 
September 2009.
    As we have previously reported to this committee, the Army remains 
out of balance. We continue to be consumed by the demands of the 
current fight. Overall, we are consuming our readiness as fast as we 
are building it. Soldiers, families, support systems, and equipment are 
stretched and stressed by the demands of multiple, lengthy deployments, 
and with insufficient recovery time. Equipment used repeatedly in harsh 
environments is wearing out more rapidly than programmed. This lack of 
balance poses a significant risk to the All-Volunteer Force, and it 
affects our ability to provide ready forces as rapidly as we would like 
for other contingencies.
    Two years ago, the Chief, General Casey outlined a plan to restore 
balance to the Force by 2011; it included four imperatives: sustain, 
prepare, reset, and transform. Since then, we have made definitive 
progress in each of these areas, but there is still much work to be 
done. The challenge continues to be complicated by changing 
circumstances and increased demand on the force. We simply cannot 
achieve desired ``BOG''/dwell ratios until demand is reduced to a 
sustainable level. Unfortunately, the Army cannot influence demand, and 
the current level does not appear likely to improve significantly for 
the foreseeable future. So, the choice we are faced with is to continue 
to over-extend some of the lower-density MOSs or create additional 
capability. We are currently staffing many of the critical functions by 
reassigning authorizations and personnel from within our ranks. My 
concern is that we cannot fully predict what the derivative effects of 
this will be in the future.
    These continue to be challenging times for our Nation and for our 
military. With the support of Congress, we have deployed the best 
manned, equipped, trained, and led forces in the history of the United 
States Army over the past 7-plus years. However, the fact remains that 
we have asked a great deal from our soldiers and their families.
    Unfortunately, the prolonged strain is already manifesting itself 
in an increased number of soldiers struggling with substance abuse and 
mental or behavioral health issues, such as depression, post-traumatic 
stress, and other types of anxiety disorders, as well as an increase in 
the number of suicides across the force.
    We must continue to address these and other urgent problems, and 
find ways to relieve some of the stress on the force by increasing the 
time between deployments.
    I assure the members of this committee--the Army's senior leaders 
are focused and working hard to address these challenges and determine 
the needs of the Force for the future. As we continue this process, we 
will coordinate with senior DOD officials and Congress to identify both 
short- and long-term solutions. Your input will continue to be very 
valuable to us.
    Chairman, members of the committee, I thank you again for your 
continued and generous support of the outstanding men and women of the 
United States Army and their families. I look forward to your 
questions.

    Senator Bayh. Thank you very much, General.
    General Amos.

 STATEMENT OF GEN. JAMES F. AMOS, USMC, ASSISTANT COMMANDANT, 
                   UNITED STATES MARINE CORPS

    General Amos. Sir, good morning, Chairman Bayh, Senator 
Burr, and distinguished members of the committee. Thank you for 
this opportunity to report on the readiness of your United 
States Marine Corps.
    On behalf of the more than 239,000 active and Reserve 
marines and their families, I'd like to extend my warm 
appreciation for the sustained support Congress has faithfully 
provided its Corps of Marines. I would like to begin by 
highlighting a few points from my written statement.
    As we sit in this hearing room today, we have over 31,000 
marines forward deployed across the globe. Despite high 
operational tempo, your marines are resilient, motivated, and 
performing superbly in missions around the globe. For the past 
7 years, they have been fully engaged in winning in combat 
operations as part of a generational struggle against global 
extremism.
    This sustained effort and performance has not come without 
costs to the institution, to our equipment, to our strategic 
programs, and most importantly to our marines and their 
families. Our forward deployed units are manned, trained, and 
equipped to accomplish their assigned missions and these units 
continue to report the highest levels of readiness for those 
missions.
    To ensure our deployed and next to deploy forces maintain 
this high state of readiness, we have taxed our nondeployed 
forces and strategic programs for equipment and personnel. As a 
result, the majority of our nondeployed forces are reporting 
degraded readiness levels.
    Our equipment availability challenge was recently 
highlighted with the equipment sourcing effort for the Second 
Marine Expeditionary Brigade (2nd MEB) that is currently 
deploying to Afghanistan. To resource the 2nd MEB with the 
required and most capable equipment, we drew equipment assets 
from across the Corps. Although a concerted effort was made to 
minimize the impact on home stationed unit readiness, we still 
needed to draw 14 percent of the necessary equipment from our 
home stationed operating forces.
    This degraded state of readiness within our nondeployed 
forces presents risks to our ability to rapidly respond to 
other unexpected contingencies around the globe. To mitigate 
this risk posed by our current state of equipment availability, 
we have developed a plan for the reset of equipment being 
redeployed from Iraq. The Operation Iraqi Freedom reset plan 
synchronizes Marine Corps reset efforts to ensure we 
effectively and efficiently provide equipment to support 
follow-on operations. Equipment being redeployed is inspected 
and a decision is then made on whether it will be sorted and 
redistributed in theater or redeployed to the continental 
United States for rework. Redeployed assets will then be 
repaired at maintenance facilities and distributed to fill 
shortfalls for established priorities. Equipment determined to 
be beyond economical repair will be disposed of and 
replacements procured.
    Because our equipment, personnel, and training priorities 
have been necessarily focused on counterinsurgency operations, 
we have experienced degradation in some of our traditional core 
competencies, such as integrated combined arms, fire and 
maneuver, and large-scale operations from the sea. These skills 
are critical to maintaining the Marine Corps' full spectrum 
capabilities and primacy in forcible entry operations. Although 
the current security environment has justified the tradeoffs we 
have made to support overseas contingency operations (OCO), we 
must maintain a balanced force capable of responding to crises 
around the globe and across the full spectrum of conflict.
    With your continued and consistent backing, we will no 
doubt succeed in current operations, we will take care of our 
marines and their family members, reset and modernize our 
equipment, and train the Marine Air-Fround Task Forces for the 
future security environment. Your support will ensure the 
Marine Corps' success as the Nation's expeditionary force in 
readiness.
    I thank each of your for your faithfulness to this Nation, 
your faithfulness to our Corps, and I look forward to your 
questions.
    [The prepared statement of General Amos follows:]
             Prepared Statement by Gen. James F. Amos, USMC
                              introduction
    Chairman Bayh, Senator Burr, and distinguished members of the 
subcommittee, on behalf of your Marine Corps, I want to thank you for 
your generous support and for the opportunity to speak to you today 
about the readiness of the United States Marines. Recently, the 
Secretary of Defense outlined a strategy to return the Department to a 
balanced force capable of prevailing in current conflicts while 
preparing for other contingencies.\1\ Consistent with Secretary Gates' 
strategy, my statement will address our efforts to achieve that 
balance, the readiness challenges facing marines today, and the 
critical steps needed to reset and reconstitute our Corps for today's 
complex challenges and tomorrow's uncertain security environment.
---------------------------------------------------------------------------
    \1\ Gates, Robert M. ``A Balanced Strategy: Reprogramming the 
Pentagon for a New Age.'' Foreign Affairs, Volume 88, No. 1, January/
February 2009.
---------------------------------------------------------------------------
    Despite high operational tempo, your marines are resilient, 
motivated, and performing superbly in missions around the globe. They 
are fully engaged and winning in combat operations in Iraq and 
Afghanistan as part of a generational struggle against global 
extremism. This sustained effort and performance does not come without 
costs--to the institution, to our equipment, to our strategic programs, 
and most importantly to our marines and their families. Continued 
congressional investment in our marines and families, resetting and 
modernizing our equipment, and training Marine Air Ground Task Forces 
for the future security environment are critical to the Marine Corps' 
success as the ``Nation's Force-in-Readiness.''
                          readiness assessment
    The Marine Corps is meeting all Operation Iraqi Freedom (OIF) and 
Operation Enduring Freedom (OEF) requirements. In the course of the 
last 7 years, your Marine Corps has been battle-tested, combat 
hardened, and has accumulated tremendous experience in irregular 
warfare and counterinsurgency operations. Forward deployed units are 
manned, trained, and equipped to accomplish their assigned missions, 
and these units are reporting the highest levels of readiness for those 
missions. However, resources are limited and nondeployed units incur 
the costs of ensuring deployed and next-to-deploy units have sufficient 
personnel, equipment, and training. As a result, our nondeployed forces 
are currently reporting degraded readiness levels. This degraded state 
of readiness within our nondeployed forces presents risk in our ability 
to rapidly respond to other unexpected contingencies.
    Because our equipment, personnel, and training priorities are 
focused on counterinsurgency operations, we have experienced 
degradation in some of our traditional, full spectrum, core 
competencies such as integrated combined arms operations and large-
scale amphibious operations. These skills are critical to maintaining 
the Marine Corps' primacy in forcible entry operations that enable 
follow-on joint forces. The OIF/OEF demand for units has also limited 
our ability to fully meet combatant commander requests for theater 
engagement activities. The current security environment has clearly 
justified the tradeoffs we've made to support the Long War, but the 
uncertainty of the future makes it prudent to regain our capabilities 
to operate across the full range of military operations--to be that 
``balanced force'' that Secretary Gates speaks of.
    In addressing the challenges facing the Marine Corps, I have 
structured my statement along the lines of our key readiness concerns--
personnel and military construction, equipment, training, amphibious 
shipbuilding, and caring for our warriors and their families. I will 
discuss the positive steps and proactive initiatives we are 
undertaking, with your support, to reset, modernize, and reconstitute 
the Marine Corps for an uncertain future. Finally, I will conclude with 
some of our ongoing initiatives and programs that address the care and 
welfare of our marines and their families.
     stress on the force: personnel challenges and operations tempo
    The pace of operations for your marines remains high, with over 
31,000 marines forward-deployed across the globe. In the U.S. Central 
Command area of operations, there are over 27,000 marines deployed in 
support of Operation Iraqi Freedom and Operation Enduring Freedom. 
Despite the recently concluded Status of Forces Agreement with Iraq and 
the plans for a drawdown of forces there, the demand and associated 
operational tempo for marines will remain high as we transition 
requested forces to Afghanistan. Meeting this global demand resulted in 
short deployment-to-dwell ratios for many units, with some deployed for 
as many months as they spend at home. Some of our low-density/high-
demand units such as Intelligence, Communications, Explosive Ordnance 
Disposal, and certain aviation units, remain at or below a 1:1 dwell, 
with only moderate relief in sight for the near future. Insufficient 
dwell negatively impacts our total force readiness because it leaves 
inadequate time to conduct full spectrum training and reconnect with 
families.
    Another readiness detractor has been the need to task combat arms 
units, such as artillery, air defense, and mechanized maneuver to 
perform ``in-lieu-of'' (ILO) missions such as security, civil affairs, 
and military policing. Shortages of those skill sets created the need 
for ILO missions to meet the requirements for counterinsurgency 
operations in Iraq and Afghanistan. Although these mission assignments 
are necessary, they have degraded our readiness because these combat 
units are unable to train to and maintain proficiency in their primary 
skill sets.
    In addition to unit rotations and ILO missions, the Marine Corps is 
tasked to fill a variety of assignments for forward-deployed staffs, 
training teams, and joint/coalition assignments that exceed our normal 
manning structures. The manning requirements for these Individual 
Augments (IAs), Training Teams (TTs) and Joint Manning Documents (JMDs) 
seek seasoned officers and staff noncommissioned officers because of 
their leadership, experience, and training. We understand that these 
augmentees and staff personnel are critical to success in Iraq and 
Afghanistan, but their extended absence has degraded home station 
readiness, full spectrum training, and unit cohesion.
Personnel Initiatives
    In order to better meet the needs of a nation at war, the Corps has 
been authorized to grow to an active duty end strength of 202,000 
marines. This increase in manpower will ultimately result in a Marine 
Corps with three balanced Marine Expeditionary Forces (MEFs) and will 
help mitigate many of the operational tempo challenges described in the 
previous section. A balanced Marine Corps will provide combatant 
commanders with fully manned, trained, and equipped Marine Air Ground 
Task Forces (MAGTFs) that are multi-capable, responsive, and 
expeditionary. Additionally, the end strength growth will increase our 
capacity to deploy forces in response to contingencies and to 
participate in exercises and operations with our international partners 
in support of the Nation's broader security objectives. It will also 
allow more time at home for our marines to be with their families, to 
recover from long deployments, regain proficiency in core skills, and 
prepare for their next mission.
    The 202,000 growth plan is progressing well. The Marine Corps grew 
by over 12,000 marines in fiscal year 2008 and is on pace to reach an 
active duty end strength of 202,000 by the end of fiscal year 2009--2 
years ahead of schedule. Thanks to the continued support of Congress, 
we have increased our infantry, reconnaissance, intelligence, combat 
engineer, unmanned aerial vehicle, military police, civil affairs, and 
explosives ordnance disposal communities. Several of these units have 
already deployed to Iraq, mitigating the need for additional ILO 
missions. We have realized improvements in dwell time for a number of 
stressed communities. Although the plan is progressing well, the growth 
in end strength will not result in an immediate improvement in reported 
readiness because it takes time to train and mature our newly recruited 
marines and units.
    In addition to our end strength increase, the Marine Corps is 
examining other options to keep marines in the fight. For example, we 
are hiring over 1,700 civilian police officers and security support 
personnel to meet home station policing and security requirements at 
our bases and stations. After our first year of implementing this 
program, we are successfully blending traditional military police with 
Federal civilian police officers at the majority of our installations. 
This initiative enables us to free active duty military police for 
deployments in support of the MAGTF, further reducing the need for ILO 
assignments.
                         military construction
    As the Marine Corps grows to 202,000, military construction is 
critical to supporting and sustaining the new force structure and 
maintaining the individual readiness and quality of life for our 
marines. Thanks to your support, we recently expanded our construction 
efforts and established a program that will provide adequate bachelor 
housing for our entire force by 2014. In fiscal year 2009 alone, 
Congress funded over 12,000 barracks spaces for our marines. 
Congressional support is still required to provide additional new 
barracks spaces to meet our 2014 goal. Concurrent with our new 
construction efforts is our commitment for the repair and maintenance 
of existing barracks to improve morale and quality of life.
                          equipment readiness
    Ensuring that our marines are equipped with the most modern and 
reliable combat gear is a necessity. However, the requirement to fully 
resource deployed forces, often in excess of our tables of equipment, 
has reduced the availability of materiel essential to outfit and train 
our nondeployed units. Approximately 25 percent of all Marine Corps 
ground equipment and 40 percent of our active duty aviation squadrons 
are deployed overseas. Most of this equipment is not rotating out of 
theater at the conclusion of each force rotation; it remains in combat, 
to be used by the relieving unit.
Ground Equipment Readiness
    After 7 years of sustained combat operations, our deployed 
equipment has been subject to significant wear and tear, harsh 
environmental conditions, and increased operating hours and mileage. 
Additionally, the weight associated with armor plating further 
increases the wear on our deployed vehicle fleet and accelerates the 
need for repair and replacement of these assets. Despite these 
challenges and higher utilization on already aging equipment, our young 
marines are keeping this equipment mission-ready every single day. The 
high equipment maintenance readiness rates throughout the Marine Corps 
are a testament to their dedication and hard work.
    The policy to retain equipment in theater as forces rotate in and 
out was accompanied by increased in-theater maintenance presence; this 
infusion of maintenance support has paid great dividends, with deployed 
ground equipment maintenance readiness above 90 percent. However, the 
Marine Corps is experiencing challenges with the supply availability of 
a number of critical equipment items. Equipment supply availability 
varies depending on whether units are forward deployed or in dwell at 
home station. Supply readiness rates have decreased for home station 
units, while we work to meet the demand of deployed forces, and those 
next-to-deploy. Shortages of critical equipment limit home station 
units' ability to prepare and train to their full core competencies and 
present additional risk in availability of equipment necessary to 
respond swiftly to unexpected contingencies.
    The recent sourcing of equipment for the 2nd Marine Expeditionary 
Brigade (MEB) deploying into Afghanistan illustrates our equipment 
availability challenge. Equipment assets were pulled from across the 
enterprise to accomplish this task. To ensure the 2nd MEB is provided 
the newest and most capable equipment, over 55 percent of their 
equipment came via new procurement provided by Marine Corps Systems 
Command. Approximately 27 percent of the equipment came from within the 
Central Command area of operations, including items made available from 
units retrograding from Iraq; and about 4 percent of the required 
assets were sourced from our Logistics Command and the Marine Corps 
Prepositioned Program in Norway. Although a concerted effort was made 
to minimize the impact on home station unit readiness, 14 percent of 
2nd MEB's equipment needed to be drawn from our nondeployed operating 
forces.
    Ground equipment age continues to be a top readiness challenge as 
well. As equipment ages, more time, money, and effort are expended 
repairing it. Ultimately, the answer to achieving sustained 
improvements in ground-equipment readiness is to improve logistics 
processes and to modernize with highly reliable and maintainable 
equipment. The Corps is achieving efficiencies by improving supply-
chain processes, adopting best practices, and by leveraging proven 
technological advances to facilitate responsive and reliable support to 
the Operating Forces.
Aviation Equipment
    Our aviation capability is a critical part of the MAGTF. Just like 
our ground forces, deployed Marine aviation units receive the priority 
for aircraft, repair parts, and mission essential subsystems such as 
forward looking infrared (FLIR) pods. Nondeployed forces, on the other 
hand, face significant challenges for available airframes and supply 
parts. Exacerbating the readiness challenges in our aviation fleet, 
most Marine aviation platforms are ``legacy'' platforms which are no 
longer in production, placing an even greater strain on our logistics 
chain and maintenance systems.
    Our Marine Corps aviation platforms are supporting ground forces in 
some of the world's harshest environments: the deserts of Iraq, 
Afghanistan, and the Horn of Africa. Our aircraft are flying at 
utilization rates far beyond those for which they were designed. We are 
nearly tripling the utilization rates of our workhorses--the F/A-18 C 
and D; the KC-130 cargo and aerial refueling platform; our EA-6B 
electronic warfare aircraft; and even the new MV-22 Osprey. Increased 
utilization causes aircraft to structurally age faster than programmed. 
As our legacy aircraft are lost or damaged in combat, the Marine Corps 
is faced with a shortage of available aircraft for training and future 
employment. To maintain sufficient numbers of aircraft in deployed 
squadrons, nondeployed squadrons have taken cuts in aircraft and parts. 
With our current force structure, our aircraft requirement, termed 
Primary Aircraft Authorization (PAA) is short 248 aircraft across all 
Type/Model/Series. These shortfalls include all modifications, 
intermediate maintenance events, depot maintenance, transition/
procurement aircraft, and aircraft damaged beyond repair.
    Maintaining the readiness of aviation assets while training aircrew 
is an enormous effort and an ongoing readiness challenge. Our aviation 
Fleet Readiness Centers have been able to mitigate degradation of our 
aircraft materiel readiness through modifications, proactive 
inspections, and additional maintenance actions. These efforts 
successfully bolstered aircraft reliability, sustainability, and 
survivability. Nevertheless, additional requirements for depot-level 
maintenance on airframes, engines, weapons, and support equipment will 
continue well beyond the conclusion of hostilities. Aircraft undergoing 
depot-level repairs are not available for training or combat. We are 
simply running short of aircraft on our flight lines due to age, 
attrition, and wartime losses.
Prepositioning Equipment and Stores
    Marine Corps Prepositioning Programs are comprised of the Maritime 
Prepositioning Force (MPF), with three Maritime Prepositioning Ships 
Squadrons (MPSRONs), and the Marine Corps Prepositioning Program-Norway 
(MCPP-N). Since 2002, we have drawn equipment from our strategic 
programs and stocks to support combat operations, growth of the Marine 
Corps, and other operational priorities. While the readiness of the 
strategic prepositioning programs continues to improve, equipment 
shortages in our strategic equipment prepositioned stores have forced 
the Marine Corps to accept necessary risk in our ability to rapidly 
respond to worldwide contingency operations. With Congress' support, 
our end item shortfalls in the MPF and MCCP-N programs will be reset, 
in accordance with operational priorities, as equipment becomes 
available.
In-Stores Equipment
    In-Stores Equipment refers to our pool of assets that serves as a 
source of equipment to replace damaged or destroyed equipment in the 
operating forces, and potentially fill shortfalls in the Active and 
Reserve components. This equipment was used heavily to source equipment 
requirements in Iraq and will be used to support our transition to 
operations in Afghanistan. The availability or supply rating for In-
Stores assets has been degraded over the past years and limits our 
ability to rapidly respond to unexpected contingencies and to replace 
damaged equipment in the operating forces.
Equipment Initiatives
    To counter the readiness impact of damaged, destroyed, or worn out 
equipment, the Marine Corps initiated a program to reset and modernize 
our force. The goals of our reset and modernization programs are: to 
sustain the current fight by repairing or replacing worn out or 
damaged/destroyed equipment while enhancing our support to the 
warfighter by reconstituting our force with newer, more capable, 
equipment. Over time, these initiatives will help to increase 
nondeployed unit readiness by enhancing home station equipment pools 
and predeployment unit training requirements.
Equipment Reset
    Reset consists of actions taken to restore units to a desired level 
of combat capability commensurate with the unit's mission. It 
encompasses maintenance and supply activities that restore and enhance 
combat capability to equipment that has been damaged, rendered 
obsolete, or worn out beyond economic repair due to combat operations 
by repairing, rebuilding, or procuring replacement equipment. Our cost 
estimate for resetting our force is over $20 billion. As we continue 
with Overseas Contingency Operations, we will update this estimate 
accordingly. We appreciate the generous support of Congress in 
appropriating over $12 billion to date to ensure that marines have the 
equipment and maintenance resources they need. We are committed to 
managing these resources wisely as we repair, reset, and modernize our 
force.
    We expect to see reset requirements increase as a result of force 
reductions in Iraq and to sustain a growing presence in Afghanistan. To 
prepare for the reset of equipment redeployed from Iraq, we have 
created an OIF Reset Plan. The plan synchronizes Marine Corps reset 
efforts to ensure we effectively and efficiently reset equipment to 
support follow on operations. Equipment being redeployed is inspected, 
sorted, and redistributed in theater, or redeployed to CONUS to 
maintenance facilities. These assets will then be repaired and 
distributed to fill shortfalls for established priorities. Equipment 
determined to be beyond economical repair will be disposed of and 
replacements procured.
Modernization
    As the Nation's expeditionary force-in-readiness, the Marine Corps 
is required to prepare for the unexpected. We are making progress in 
repairing and resetting existing equipment, but this effort must be 
augmented with continued investment to modernize our capabilities. 
Equipment modernization plans are a high priority within our Corps. Our 
commandant's recently published Marine Corps Vision and Strategy 2025 
will help guide our modernization efforts as we continue to be the 
agile and expeditionary force for the Nation.
Ground Modernization
    Prompted by a changing security environment and hard lessons 
learned from 7 years of combat, the Marine Corps recently completed an 
initial review of its Operating Force's ground equipment requirements. 
Recognizing that our unit Tables of Equipment (T/E) did not reflect the 
challenges and realities of the 21st century disbursed battlefield, the 
Corps adopted new T/Es for our operating units. This review was 
synchronized with our modernization plans and programs, and provides 
enhanced mobility, lethality, sustainment, and command and control 
across the MAGTF. The new equipment requirements reflect the 
capabilities necessary not only for the Corps' current mission, but for 
its future employment across the range of military operations, against 
a variety of threats, and in diverse terrain and conditions. The MAGTF 
T/E review is an integral part of the critical work being done to reset 
and reconstitute the Marine Corps.
Aviation Modernization
    We are modernizing the aircraft we fly; changing the way we think 
about aviation support to our ground forces; and changing our 
capabilities to conduct operations in any clime and place. To help meet 
the growing intelligence, surveillance, and reconnaissance requirements 
of our operating forces, the Marine Corps will field three levels, or 
``tiers,'' of unmanned aircraft systems (UAS). Furthermore, we are 
committed to an ``in-stride transition'' from 12 type/model/series 
aircraft to 6 new aircraft. Programs such as the F-35B Joint Strike 
Fighter, the MV-22 Osprey, the CH-53K, and the H-1 upgrades will vastly 
increase the Corps' aviation capability and ensure our warfighting 
advantage for decades to come. It is critical that these programs stay 
on track, and on timeline, with full funding support, due to the 
declining service life of our legacy tactical aviation platforms.
                       training marines to fight
    In preparing marines to fight in ``any clime and place,'' the 
perennial challenge to our Corps is to attain the proper balance 
between core warfighting capabilities and those unique to current 
operations. Decreased unit dwell times and shortages of equipment in 
our nondeployed forces translate to a limited ability to conduct 
training on tasks critical to our core competencies, such as integrated 
combined arms, large force maneuver, and amphibious operations. Short 
dwell times between deployments and the need for many units to perform 
``in lieu of missions'' have resulted in a singular focus on 
counterinsurgency training. Our marines continue to be well trained for 
current operations through a challenging pre-deployment training 
program that prepares them for all aspects of irregular warfare.
Predeployment Training Program
    In order to properly train our operating forces for the rigors and 
challenges they face in OIF and OEF, we have developed a very 
demanding, realistic and adaptive predeployment training program. The 
Predeployment Training Program (PTP) contains standards-based, 
progressive skills training which is evaluated by commanders and 
assessed by our Training and Education Command at the final Mission 
Rehearsal Exercise. The PTP includes counterinsurgency combat skills, 
as well as operational language and culture skills. Unit after-action 
reports and unit surveys conducted by the Marine Corps Center for 
Lessons Learned (MCCLL) are shared Corps-wide and have influenced 
training changes to keep PTP relevant. For example, the Afghanistan 
PTP, while similar in many facets to the PTP for Iraq, includes 
mountain warfare training and an increased emphasis on MAGTF combined 
arms training.
    During fiscal years 2007 and 2008, the PTP resulted in over 42,000 
marines receiving theater-specific combined arms and urban operations 
training at Exercise Mojave Viper at Twentynine Palms, CA. Over 2,800 
marines received mountain operations training at the Mountain Warfare 
Training Center in Bridgeport, CA. Over 12,000 marines participated in 
the aviation-focused Desert Talon Exercise in Yuma, AZ.
    While our PTP focuses on preparing Marine units for their next 
deployment, we are further enhancing our education and training 
programs to respond to ongoing changes in the security environment. 
Through the efforts of organizations such as the Marine Aviation 
Weapons and Tactics Squadron One, Marine Corps Tactics and Operations 
Group, the Center for Advanced Operational Culture Learning, the 
Advisor Training Group, and the Marine Corps University, we are 
providing a holistic education to our marines across the range of 
military operations. Based on a continuous lessons learned feedback 
process, supported by the MCCLL, we are building an Enhanced Company 
Operations capability which will make our smaller infantry units more 
lethal, agile, and survivable.
Preparing for Future Conflict
    As challenging as it is to prepare marines for the current fight, 
our forces must adapt to the ever-changing character and conduct of 
warfare to remain relevant. To meet the complex challenges in the 
emerging security environment, we are improving training and education 
for the fog, friction, and uncertainty of the 21st century battlefield. 
We are focusing efforts on our small unit leaders--the ``strategic 
noncommissioned officers'' and junior officers--who will operate more 
frequently in a decentralized manner and assume greater responsibility 
in operations against hybrid threats.
    To better prepare our Marine Air Ground Task Force to operate 
across the spectrum of conflict, we are developing an improved training 
and exercise program. When implemented, this program will increase our 
ability to maintain proficiency in core warfighting capabilities, such 
as combined arms maneuver and amphibious operations, while continuing 
to meet current commitments. Two important training concept exercises 
being developed are the Combined Arms Exercise-Next (CAX-Next), and the 
Marine Air Ground Task Force Large Scale Exercise (MAGTF-LSE). The CAX-
Next will be a live-fire training exercise aimed at developing combined 
arms maneuver capabilities from individual marine to regimental-sized 
units. It will incorporate lessons learned from today's conflicts, 
while training adaptable and flexible MAGTFs for the future. The MAGTF-
LSE will be a scenario-based, service-level training exercise, scalable 
from Marine Expeditionary Brigade to Marine Expeditionary Force levels. 
It will develop the Marine Air Ground Task Force's capability to 
conduct amphibious power projection and sustained operations ashore in 
a combined, joint, whole-of-government environment.
                        amphibious shipbuilding
    The Chief of Naval Operations and Commandant of the Marine Corps 
have determined that the force structure requirement to support a 2.0 
Marine Expeditionary Brigade lift is 38 total amphibious assault ships. 
Due to fiscal constraints, the Department of the Navy has agreed to 
maintain a minimum of 33 total amphibious ships in the assault echelon. 
The 33 ship force accepts risk in the arrival of combat support and 
combat service support elements of the Marine Expeditionary Brigade. Of 
that 33 ship Battle Force, 11 aviation-capable big deck ships (LHA/LHD) 
and 11 LPD class ships are required to accommodate the Marine 
Expeditionary Brigade's aviation combat element and part of the ground 
combat element.
                  caring for our warriors and families
    A critical part of our overall readiness is maintaining our solemn 
responsibility to take care of our marines and their families. While 
marines never waiver in the ideals of service to Corps and Country, the 
needs of our marines and their families are constantly evolving. 
Marines have reasonable expectations regarding housing, schools, and 
family support. It is incumbent upon us, with the generous support of 
Congress, to support them in these key areas. Marines make an enduring 
commitment to the Corps when they earn the title marine. The Corps in 
turn, makes an enduring commitment to every marine and his or her 
family.
Putting Family Readiness on a Wartime Footing
    Last year, the Marine Corps initiated a multi-year plan of action 
to place family support programs on a wartime footing. We significantly 
increased training and support staff at the installation level, 
expanded the depth and breadth of family readiness training programs, 
and authorized full-time Family Readiness Officers in more than 400 
units. We improved the command's ability to communicate with marines 
and their families with state-of-the-art information technology tools. 
We continue to assess the efficacy of our Marine Corps Community 
Services programs to ensure that we are empowering our marines and 
their families to maintain a state of readiness while caring for their 
immediate needs.
    These initiatives and others demonstrate the commitment of the 
Marine Corps to our families and highlight the connection between 
family readiness and mission readiness. We are grateful to Congress for 
providing additional funding that enabled the initial set-up of our 
improved family readiness program.
Improving Care for Our Wounded Warriors
    The Marine Corps is very proud of the positive and meaningful 
accomplishments of the Wounded Warrior Regiment in providing recovery 
and transition support to our wounded, ill, and injured marines and 
sailors and their families. Since the Regiment stood up in April 2007, 
we instituted a comprehensive and integrated approach to wounded 
warrior care, and unified it under one command. Our single process 
provides Active Duty, Reserve, and separated marines with nonmedical 
case management, benefit information and assistance, resources and 
referrals, and transition support. The Regiment strives to ensure 
programs and processes adequately meet or exceed the needs of our 
wounded, ill, or injured marines, while remaining flexible to preclude 
a ``one-size-fits-all'' approach to care. To ensure effective family 
advocacy, we added Family Readiness Officers at the Regiment and to its 
two battalions.
    While the Marine Corps is aggressively attacking the stigma and 
lack of information that prevent marines from asking for help, we are 
also being proactive in reaching out to those marines and Marine 
veterans who may need assistance. Our Wounded Warrior Call Center not 
only receives calls from active duty and veteran marines, but also 
initiates important outreach calls. Since November 2007, our call 
center has made over 44,000 calls and contacted over 8,800 wounded, 
ill, or injured marines and family members.
    Our Job Transition Cell, manned by marines and representatives of 
the Departments of Labor and Veterans Affairs, has proactively reached 
out to identify and coordinate with employers and job training programs 
to help our Wounded Warriors obtain positions where they are likely to 
succeed and enjoy promising careers. One example is our collaboration 
with the United States House of Representatives to establish a Wounded 
Warrior Fellowship Program to facilitate hiring disabled veterans to 
work in congressional offices.
    The Marine Corps' commitment to our wounded, ill, and injured is 
steadfast; we are grateful for the support and leadership of Congress 
on their behalf. I would also like to extend my personal thanks for 
congressional visits to our marines and sailors in the hospitals where 
they are being treated and convalescing.
                               conclusion
    This Nation has high expectations of her Corps--and marines know 
that. Your marines are answering the call around the globe while 
performing with distinction in the face of great danger and hardships. 
The Corps provides the Nation unrivaled speed, agility, and flexibility 
for deterring war and responding to crises; our ability to seize the 
initiative and dominate our adversaries across the range of military 
operations requires the right people, the right equipment, and 
sufficient time to train and prepare appropriately.
    As your marines continue to serve in combat, we must provide them 
all the resources required to complete the tasks we have given them. 
Now more than ever they need the sustained support of the American 
people and Congress to maintain our readiness, reset the force during 
an extended war, modernize to face the challenges of the future, and 
fulfill our commitment to marines, sailors, and their families.
    On behalf of your marines, I extend great appreciation for your 
faithful support to date and thank you in advance for your ongoing 
efforts to support our brave warriors. The Corps understands the value 
of each dollar provided by the American taxpayer, and will continue to 
provide maximum return for every dollar spent. Today over 200,000 
Active and 39,000 Reserve Force marines remain ready, relevant, and 
capable as the ``Nation's Force-in-Readiness''. . . and with your help, 
we will stay that way.

    Senator Bayh. General, thank you for your devotion to both 
your soldiers and to our country.
    We've been joined by Senator Inhofe. Jim, thank you for 
your presence. He's very graciously agreed to defer any 
comments to the question period, which we will now commence. 
We're going to have 8-minute rounds. Please let me know when my 
8 minutes have expired. I don't want to go on and on.
    General Chiarelli, I'll start with you. You mentioned that 
we're consuming our readiness as fast as we're rebuilding it. I 
think that's what you said. What must be done to change that, 
so that we're no longer just kind of treading water? What needs 
to be done specifically to actually improve our readiness, so 
that we're not in this constant state of tearing it down while 
building it up without really making long-term progress?
    General Chiarelli. Two things I'd point out, Senator, would 
be: first of all, we need to complete the grow-the-Army plan 
and, that growth to the 45 brigade mark. We are that.
    Senator Bayh. That would be at the top of your priority 
list?
    General Chiarelli. It is very, very important that we grow 
those 45 brigades because this is a question of supply and 
demand. I can't control the demand, and the demand right now 
shows that I have 26 combat brigades that are currently 
deployed. I have a total of 18 Active component brigades and 8 
Reserve component brigades. When I have that many brigades 
deployed, I have what's called friction, best explained by a 
Navy analogy, that when you have----
    Senator Bayh. This is a first, the Army referencing the 
Navy.
    General Chiarelli. I have a rough time explaining friction 
if I don't call on my other Services to help me out.
    When you have an aircraft carrier that's sitting in the 
middle of the Persian Gulf and you want to go ahead and relieve 
it, an aircraft carrier casts off from someplace in the United 
States and at that particular point in time you have two 
aircraft carriers doing the job of one. The same thing happens 
with Army brigades. When I have 26 deployed, I have normally 6 
that are also doing another job. So that total number goes up 
to 32 in a force right now of total brigades in that net 1.1 
million force Army of about 70.
    That is causing my dwell time to be at about 1 to 3, 1 year 
deployed, 12 months, and 1.3 years back at home. I would also 
point out to you that the surge for the United States Army is 
not over. We won't get our last combat brigade off a 15-month 
deployment until June of this year and I won't get my last 
combat service support or combat support unit back off a 15-
month deployment until September.
    So what has to change for us is the demand, the demand for 
forces. Right now it's as high as it has ever been, with our 
continued commitment to Iraq and the increase in Afghanistan.
    Senator Bayh. I understood your answer to be, General, that 
the demand has gone up. Unfortunately, the world has a way of 
determining the demand. It's somewhat beyond our control. But I 
understood your answer to be that we need to actually deal with 
the supply to meet the demand. You can't meet an increased 
demand with a constant supply. It's an increase in the force 
levels that will enable us to improve the situation.
    General Chiarelli. That's correct, Senator.
    Senator Bayh. General, you used the term corresponding 
adjustments were going to have to be made to reconcile the 
different demands that we face. I think that's the term that 
you used in your testimony. What did you mean by that? I took 
that in layman's terms to be some tough choices we're going to 
have to make. Is that a fair translation?
    General Chiarelli. That's a fair translation. We're making 
tough choices every day. I think you know we've had great 
success with retention and recruiting and, quite frankly, the 
Army has reached its goal of 547,400, and before we could put 
the brakes on we even went a little bit over. So we have met 
our grow-the-Army goal of 547,400.
    But when you look at that force, I have right now today 
9,500 soldiers that are in warrior transition units, soldiers 
who have been wounded in battle or in training to a degree 
where they are assigned to those units. I have another 10,000 
soldiers that are nondeployable in units trying to heal from 
past rotations. I have another 10,000 to 12,000 soldiers that 
are serving in joint manning documents that aren't necessarily 
the unit they were assigned to.
    Senator Bayh. That's a total of about 30,000 if you add it 
all together.
    General Chiarelli. That is, and that creates some real 
challenges for us. We're finding that our nondeployable numbers 
are going up as we get into successive rotations for 
individuals. All that creates a challenge for us. It is a 
stretched and sometimes tired force that is meeting all the 
requirements, but at the same time it is difficult to get our 
units up to the operating strength they need to before 
deployment.
    Senator Bayh. Thank you, General.
    General Amos, in your testimony you said that--and I'm not 
the best note taker in the world, but I tried--the majority of 
nondeployed forces are reporting degraded readiness levels. So 
a majority of the nondeployed forces. Then I think you cited a 
statistic, I think it was 14 percent of the equipment we've had 
to cannibalize away from the nondeployed forces; is that 
correct?
    General Amos. Sir, we took it from the nondeployed. These 
are whole cloth principal end items, but we outfitted the 2nd 
MEB with 14 percent of the equipment----
    Senator Bayh. My question again for the public that's 
interested in this, is to be sure we're giving you what you 
need to make sure our forces are prepared: Just how unready are 
the nondeployed forces? I know it's a subjective determination. 
It's hard to put an exact figure on it. But if we've taken 14 
percent of their equipment, is that about how unready they are? 
Or is it some sort of----
    General Amos. Sir, I would say I think the potential could 
be--it's 14 percent of the equipment--there were 41,000 what we 
call principal end items that we brought together and deployed 
to Afghanistan for the 2nd MEB. So 14 percent of that 41,000 
items came from home stationed units. 55 percent came right off 
the assembly line as a result of Congress' graciousness to help 
reset the force.
    Senator Bayh. Maybe I should restate my question. If an 
ordinary citizen wants our marines and soldiers to have what 
they need to be ready, and they hear a majority of the 
nondeployed forces are unready, then I think somebody might ask 
you, General, just how unprepared are they? If they were called 
upon today to deploy, just what would your response be? What 
would it take to get them ready?
    General Amos. Sir, I think it would take probably several 
months. I think it would take global sourcing for the Marine 
Corps. It would----
    Senator Bayh. By global sourcing, you mean?
    General Amos. I mean going to the western Pacific, bringing 
marines and equipment out of the western Pacific, going to 
Hawaii, taking them out of the Third Marine Regiment in Hawaii, 
coming to the west coast.
    Senator Bayh. So at least on a short-term basis, we'd have 
to continue to rob Peter to pay Paul?
    General Amos. We do, sir. We do. That's why the reset and 
the overseas contingency funds and your help to reset the 
force--and General Chiarelli talked about it in his statement. 
It is critical that we continue to feed the current operations 
with the generosity of Congress. You've given us over $12 
billion over the last several years and we're estimating today 
that our reset cost is probably right around $20 billion total, 
to include the $12 billion you've given us.
    But as we get these vehicles and equipment that we 
purchased last year to reset the force, we are sending those 
into Afghanistan, we're sending them into Iraq because they're 
being used. All those new up-armored high-mobility multipurpose 
wheeled vehicles (HMMWVs) that we bought last year to reset the 
force at home have been sent and expended and they're en route 
right now.
    Senator Bayh. It's like being on a treadmill. We're running 
faster and faster, but we're staying in place.
    General Amos. Sir, we are. But I think there are several 
positive notes here. First of all, Congress has been very good 
about supporting us. So thank you for that.
    But the forces that are deployed in Iraq and Afghanistan 
are at the very highest state of readiness. So what we do back 
at home in the Marine Corps is take those units that are about 
to deploy. We've identified them. We know who they are, and 
about 6 months out to 4 months out we get the people in there. 
We cobble together the equipment into kind of training pools, 
and we have enough to train them, but it's not without great 
pain.
    So when they deploy they fall in on equipment that we have 
left there or that we are maintaining in Iraq and Afghanistan.
    Senator Bayh. My time has expired, but in the second round 
I'd like to follow up on that, because I assume that you're 
both doing a great job of making sure the soldiers on the front 
line are getting what they need, but that's at the expense of 
our preparedness to meet some future unexpected contingency. So 
I'd just like to get to that in my next round of questions.
    Senator Burr, I'll turn the microphone over to you.
    Senator Burr. Thank you, Mr. Chairman.
    I have a question for both Generals about the impact on 
military readiness and operations of support provided by 
contractors, specifically in Iraq and Afghanistan. A few of my 
colleagues have pressed this administration to curtail the use 
by the military of service contracts for base operating 
services, security, supply, and other mission support 
requirements.
    Can you briefly describe the impact of service support 
contracts on readiness and mission capability for the Army and 
the Marine Corps? Let me go to General Amos first.
    General Amos. Sir, there's no question we have some 
contract support in Iraq right now. Too soon for me to tell you 
what we're going to have in Afghanistan. I don't think it's 
going to be a lot, but I suspect there will be some. We are 
just flowing forces in there now.
    But we have some in Iraq, and I'll give you a good example. 
Honeywell has 100 contractors at Al-Taqaddum, which is our main 
logistics hub in the western part of the Al-Anbar Province. All 
the equipment comes in to Al-Taqaddum and those 100 contractors 
from Honeywell do the triage. They do the preliminary 
maintenance on these things, and then they make the 
determination, is this something that we need to retrograde 
down to Kuwait to send back home or not?
    They are critical to our combat support in Iraq. We 
certainly have contracting support back home. We have it at our 
depot in Albany, GA. We not only have our regular Federal 
employees, but we have contract employees, temporary employees, 
and we have contracts available that we can call on to speed 
this up.
    To be honest with you, a little over 85 percent of our 
contracts have been competed competitively. So I don't think we 
are the target necessarily for perhaps what the President has 
talked about with regard to contracting. So I think we're 
actually in pretty good shape.
    Senator Burr. General, in the context of what you said 
about Honeywell and potentially other contractors, is it safe 
and correct for me to assume that as we go through the drawdown 
those contractors become even more crucial, those that are tied 
to the logistics side of it, for our need to assess what we're 
bringing home, what is repairable, that type of thing?
    General Amos. Sir, they absolutely are, because they will 
probably be some of the last folks who will actually retrograde 
out of Al-Anbar Province, because what we'd really like to be 
able to do is free up as many marines as we possibly can, reset 
their clocks so that they can flow through to the next 
deployment into Afghanistan.
    Senator Burr. General Chiarelli?
    General Chiarelli. I would have to totally agree with Jim. 
I will tell you the best example that I can give you from my 
time in Iraq was the aircraft maintenance contractors that we 
had helping to take care of our rotary wing aircraft. Those 
contractors just did a magnificent job. They've done a 
magnificent job for 7\1/2\ years in providing that kind of 
maintenance support and we and our fleet have had unprecedented 
high operational ready rates because of the great support that 
we've gotten in that one specific area.
    I think they're unheard of for equipment that's been flown 
as hard as our rotary wing aircraft has been flown, both in 
Iraq and Afghanistan. So I would argue that they are essential 
for much of what we do, and also provide the opportunity for 
our soldiers to get off the forward operating bases and do what 
soldiers need to do, and that's getting out among the people as 
part of the joint campaign plan in both Iraq and Afghanistan.
    Senator Burr. Is it safe for me to assume, from what both 
of you have said, that if for some reason we eliminated the 
ability for the Services to contract certain aspects of what we 
need, that we're then required to remove boots from the battle 
to handle the logistics and all of these other assessments, and 
we strain troop strength even that much more?
    General Amos. Sir, that's absolutely correct. They would 
then become what we classically call enablers. Those enablers 
would then come from marines wearing uniforms like this, 
soldiers wearing uniforms like that. A great example is the 
Mine Resistant Ambush Protected (MRAP) vehicle. It's been a 
huge success story and we enjoy over 90 percent up-ready or 
operationally ready MRAPs across the theater, I think for both 
our Services. That's done because contractors are there taking 
care of them.
    If they are not there, then marines wearing digital cammies 
are going to have to be trained and they are going to be out 
there turning wrenches, and our deployment to dwell will only 
increase.
    General Chiarelli. I might add, that's a great example that 
Jim just teed up here, and it's particularly important when you 
understand that many of those MRAPs have been assigned to units 
that aren't used to taking care of heavy equipment. Your light 
infantry forces aren't necessarily known for their ability to 
maintain heavy armor equipment like MRAPs, and those 
contractors who are able to provide that direct support and 
maintenance are critical to the high OR rates that General Amos 
just quoted.
    Senator Burr. Something very quick at this point. Do you 
see the MRAP as significant a piece of equipment for use in 
Afghanistan as it was used in Iraq, given the difference in 
terrains between the two?
    General Chiarelli. I would argue yes, sir. In the south for 
sure, some of the current variants of the MRAP that the theater 
has requested to be sent are doing yeoman's work. I think you 
know we're working on an MRAP all-terrain vehicle. That vehicle 
is currently in testing. The last I saw, that vehicle will be 
ready to begin moving into Afghanistan in the November time 
period. I think it's going to be a great leap forward.
    We're doing modifications on some of the current MRAPs to 
give them independent suspension. The early variants did not 
have them. I know the marines are doing this on one of their 
variants. But I see the MRAP as playing an important role in 
Afghanistan as well as in Iraq, and particularly so once we get 
the all-terrain vehicle available for those in the hilly east 
portion of that country.
    Senator Burr. General Chiarelli, USA Today ran a report in 
April titled ``Battalion Shifted to Afghanistan,'' that 
described how the Army's Fourth Engineering Battalion, that had 
just arrived in Iraq, was now being redeployed to Afghanistan 
to perform a vital mission of clearing roads of bombs and other 
obstacles.
    The article went on to assert that, ``The decision 
underscores how military commanders are scrambling to meet 
President Obama's order.''
    What is the extent to which the Army units currently 
deployed to Iraq are in training for deployment--or currently 
in training for deployment to Iraq, will be redirected to 
Afghanistan?
    General Chiarelli. Senator, we have a total of four of our 
combat units that have been redirected. We have the 173rd out 
of Italy, but it won't be going until January, so it will have 
time to do the necessary training for its new mission. We have 
the 5-2 Stryker Brigade out of Fort Lewis, Washington. I will 
tell you that was one of the most difficult ones, 5-2 was one 
of those units that had taken aboard all the cultural lessons 
we've had over these last 7\1/2\ years. I think they had the 
highest number of Arabic speakers of any unit.
    We were getting ready to deploy to theater and when we 
switched their mission to Afghanistan the Arabic was no longer 
needed. That was a hard one, but they'll be ready to go.
    We have 2-10 Mountain going in October, and the 82nd Cav, 
the aviation brigade, will be going in here in the next month. 
That was a difficult one because their dwell time was cut and 
we had to get them the high altitude training they needed. But 
we get all our units the training they need for the different 
conditions if they are redirected from Iraq to Afghanistan.
    Senator Burr. So you're fairly confident that the training 
that we provided is sufficient for these troops either to 
transition from Iraq to Afghanistan or to be redirected to 
Afghanistan?
    General Chiarelli. I am, and I know the commanders 
downrange, if they get a redirected unit and feel that 
additional training was needed before they put them out into 
actual operations, would ensure that in theater that training 
was conducted.
    Senator Burr. I thank you. My time has expired. Thank you, 
Mr. Chairman.
    Senator Bayh. Thank you, Senator Burr.
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman.
    Just for clarification, Generals--and both of you may be 
able to respond to this. I just heard General Amos say that the 
equipment is coming right out of the factory, being shipped or 
being used right as it's coming off. Now, this is really then 
going to the contractors to be inspected and they determine if 
this equipment is functional and that it will be military ready 
or combat ready when that equipment hits the battlefield. Is 
that the case?
    General Amos. Sir, 55 percent of the 41,000 end items that 
I was telling you about that came off the assembly line, that 
actually--those were brand new pieces of equipment, and of 
course it almost--probably I would assume at all of those 
plants we have military contracting officers, we have folks 
that are there to keep track of the quality assurance.
    So when these things come off, they don't actually just 
leave Oshkosh and then arrive into Kandahar. They actually pass 
through the Marine Corps. Most of them will end up going 
through Charleston, where we put all the electronic 
countermeasures (ECM) equipment on it. We will get our hands on 
this equipment and verify that everything is there. But it is 
brand spanking new equipment, and then we will through military 
transportation--Transportation Command (TRANSCOM), will send 
this stuff into Afghanistan.
    So I don't know if that answers your question.
    Senator Burris. So that means that when it hits the 
battlefield we don't have our warriors out there with equipment 
that's failing or misfunctioning or that hasn't really been 
tested, like you get the automobile and----
    General Amos. Sir, it's not. It would be if you pick your 
nicest car that you have the most confidence in when you buy 
it, that's the way the equipment's arriving in theater. That's 
my perception.
    Senator Burris. Okay, and that's your responsibility, to 
make sure that those boots on the ground out in those fields 
have the best equipment they can have to protect us.
    General Amos. Absolutely, sir.
    Senator Burris. Are they dealing with any inferior, broken-
down equipment? Are we sure they are up to date with the latest 
weaponry protection? The HMMWVs that you just mentioned, 
because you're in Afghanistan where all those Improvised 
Explosive Devices are being used there now, are those HMMWVs 
transferable to Afghanistan at all now?
    General Amos. They are, Senator. They're the ones--in fact, 
this has been an iterative--HMMWV is a great example. When we 
first crossed the border in March 2003, most of our HMMWVs 
weren't armored at all. So now we are doing what we call the 
enhanced capability vehicle, which is a HMMWV that has a bigger 
motor, bigger suspension, better air conditioning, better 
electric bus for all the ECM gear. That's the progression of 
the kind of vehicle now that is going into Afghanistan. So this 
is absolutely the very best that American money can pay for.
    Senator Burris. General Amos, I've been led to believe that 
a typical marine infantry battalion deployment is about 7 
months on average, as opposed to a marine headquarters unit 
whose deployment is about 12 months. General Amos, does this 
difference in deployment length between the units cause morale 
issues, and would it be realistic to make all deployments for 
12 months?
    General Amos. Sir, actually the opposite is true. What 
happens is----
    Senator Burris. Just the opposite is true?
    General Amos. Well, the opposite is true from the 
standpoint that the morale on the units that are deploying for 
7 months are very happy. They're very grateful that the 
Commandant of the Marine Corps has said, okay, you're an 
infantry battalion or a squadron and you're only going to go 
for 7 months. The headquarters, usually made up of older guys 
like General Chiarelli and I and colonels and whatever, those 
whom we call colonel-level commands, the regimental commands, 
they go for 13 months, somewhere between 12 and 13 months 
depending on how the rotation goes.
    They provide the stability and they provide the continuity 
of that operation for that period of time. The operational 
units, the ones that are really out there doing the heavy 
lifting, the fighting, the flying, the supplying, and the 
repairing, they're going on the 7-month rotation. So they're 
very happy. Their families are very appreciative of the 
Commandant's decision. All us old guys were in those units at 
one time, so now it's time for us to go--and to be honest with 
you, the 12 to 13 months for the higher headquarters has not 
caused a problem in the Marine Corps.
    Senator Burris. General Chiarelli, in your statement for 
the record you addressed the lack of participation by civilian 
agencies in assisting in the nation-building process with these 
various commands. You cited the example of the National Guard 
farmers teaching farmers. In other words, if you're in Africa 
you want farmers teaching farmers, rather than having the 
military personnel.
    Now, are you aware of any agency refusing a request to 
participate, and do you have recommendations regarding this 
participation involvement?
    General Chiarelli. I would argue that no one has refused to 
participate. It's a matter of capability. We took much of that 
capability down here in the last 10 to 12 years. A good example 
would be U.S. Aid for International Development (USAID). USAID 
used to be about 16,000 folks and it's down now to about 3,000 
or a little bit more than 3,000. It is really a contracting 
agency now that looks for other people to execute contracts.
    The specific example I gave you in my statement of our 
agricultural teams is a great success story. These are 60-man 
teams. I visited one at Camp Atterbury that had worked with 
Purdue University. Purdue University had brought these guys on 
board. These are National Guardsmen, brought together for this 
special agricultural team. They are farmers from Middle 
America, who know how to farm. They come to Purdue. Purdue 
teaches them the language, the dialect of Pashtun that they're 
going to have to learn.
    They dumbed down their farming techniques from the 
standpoint of, we're not going to go over there and teach them 
how we do it here, but what techniques can Purdue give them to 
take over to Afghanistan so that they can make use of limited 
water and the amount of mechanization they have in farming. 
These 60-man teams go over and they're strategic in nature, I 
would argue. They've been a great asset to the commanders on 
the ground.
    But when I take those 60 men out of the National Guard to 
form that team, I'm leaving 60 holes in National Guard units 
that I have to go ahead and fill. That creates issues for us.
    Senator Burris. So they're not drawing down on your numbers 
of servicemen because they have to deal with the local 
community as we try to do nation building, especially an Africa 
man? General William Ward just took over the command of Africa, 
and we are now trying to do nationbuilding in some of those 
countries over in Africa. I understand you have to use military 
personnel to do that rather than civilian personnel that would 
be in there contracting to help them do it.
    So that's not a problem in your eyes?
    General Chiarelli. It does create holes. It is an asset 
that I am happy to go ahead and deploy and use. It provides 
force protection for my soldiers. Where we do that kind of work 
we are safer, and we must do it, albeit it would be good for us 
if other people could come to the table and do some of that 
work.
    Senator Burris. Thank you, General.
    Mr. Chairman, I'm going to have to run. I have another 
committee. I have to go over to another meeting, so I won't be 
here in round two. Thank you, Mr. Chairman.
    Senator Bayh. Thank you for your line of questioning 
Senator Burr.
    Senator Burris. Thank you, Generals.
    Senator Bayh. Any time a line of questioning brings to 
light the contributions of the Indiana National Guard and 
Purdue University, the chairman is delighted. So thank you for 
that.
    Senator Inhofe.
    Senator Inhofe. Thank you very much, Mr. Chairman.
    I'm going to try to get everything in in this first round 
because we have our Environment and Public Works Committee 
hearing coinciding with this.
    General Chiarelli, I appreciate what you said about the 
agricultural efforts that are taking place up there on the 
border. It started out, I believe it was Nebraska, and then 
Oklahoma is actually en route right now. I was over there as 
they were making that movement up. They're just getting great 
responses.
    That's something that really is not out of the conventional 
book, but people are having good responses to that.
    Mr. Chairman, I chaired this subcommittee many years ago 
and I think the Readiness Subcommittee is so incredibly 
important. At that time, it was right after the drawdown of the 
1990s and I don't want to be overly critical of President 
Clinton, but as they were bringing down the forces and delaying 
our modernization programs, I was very critical during those 
times.
    Then, as we moved into the Bush administration, 
unfortunately September 11 came along. So we were in a position 
of trying to rebuild what should not have been torn down in the 
first place while prosecuting two wars at the same time. So 
that's why it is incredibly difficult.
    I happened to be over in Afghanistan when Secretary Gates 
made his announcement 2 weeks ago on Monday. I know I was 
overly critical, but when you stop and you think about the 
money that is being spent right now, $700 billion for the 
bailout and $789 billion on a stimulus program, then our 
omnibus of $410--that's $2 trillion. Yet what we really need in 
order to stop the things that appear to be true is maybe $25 
billion more for the military. I'm talking about things that 
are not directly involving you. The F-22, we have to keep that 
going. It's the only fifth generation thing that we have out 
there. We know both the Chinese and the Russians are making 
something that would put our kids at a handicap down the road. 
So our modernization has to continue there.
    The C-17s the lift capacity, you have to have that. The 
National Missile Defense System, and then of course the Future 
Combat System (FCS). The word that was used was recocking the 
FCS. Well, we've been recocking the FCS for 6 years now, and 
when General Shinseki started this thing he was right. It goes 
back--and I hate to even say that this happened, but my last 
year on the House Armed Services Committee was 1994. We had 
someone testify at that time that in 10 years we'd no longer 
need ground troops. Now look what happened since that time.
    So the ground forces in the marines and the Army have been 
neglected in terms of, in my opinion, the modernization 
program. We are faced right now, General Chiarelli, with some 
of the elements that would have been in the FCS. It wasn't real 
clear as to where the administration is going to go with this, 
but it is going to be delayed.
    You and I both know that one of the greatest weaknesses we 
have on the ground is in our artillery. We're working with the 
Paladin. That was World War II technology, where you have to 
get out and swab the breech after every shot. Now, we've had 
some upgrades. We had one scheduled. I hope we can continue 
with that, because it's unconscionable to me to think that our 
kids are out there on the battlefield against potential 
adversaries that have better artillery equipment than we do. 
Even South Africa is making a better piece than we have.
    So I am concerned about the modernization program. The 
first question I would ask you, General Chiarelli, is do you 
think we are going to be able to continue while they're 
deciding what to do with the FCS, with an increase in our 
capability with perhaps the Paladin Integrated Management (PIM) 
program?
    General Chiarelli. I do, Senator. I do. As you well know, 
the PIM program is an important Army program to improve the 
Paladin and to work off some of the issues with that older 
system. We are committed to that program.
    I would tell you that the Army is committed to a 
modernization program, and we are very pleased with statements 
made by the Secretary of Defense as he toured war colleges last 
week that indicated that he too is committed to an Army 
modernization program. We are going to move out as rapidly as 
we can to ensure that we put the pieces in place to use much of 
what has been developed over the last years into that 
modernization program as we look at it and design it right now.
    But we are totally committed to a modernization program.
    Senator Inhofe. Let me ask you. You brought up just a 
minute ago the 173rd. I've spent some time at Vicenza and I 
think we all remember in the early stages of the Iraq war when 
we found out we couldn't get across Turkey like we thought, and 
so at the last minute the 173rd came in, and did a great job.
    I was over there. At that time they didn't really have a 
staging area, and we put in the authorization bill money and 
resources to give them the staging area that they could have, 
where it's on concrete and all of that. Is that now at a point 
where it's functional?
    General Chiarelli. I'm going to have to take that one back 
and make sure I give you a correct answer. I do not have the 
specifics on that.
    [The information referred to follows:]

    The Army has completed the personnel alert holding area and heavy 
drop rigging facility for the 173rd in Aviano. These fiscal year 2004 
facilities became operational in November 2007 and March 2008 
respectively. They will be used by the 173rd's soldiers prior to 
loading on planes for deployment.

    Senator Inhofe. I think it is. But at that time they were 
getting ready in the rain out in the mud and all of that. So 
you might check on that. I want to be sure that that's right. 
There were some, I think Jim Jones and others, and I was among 
them, who felt that we're going to look at a time when our live 
ranges are going to have to be moved maybe to Eastern Europe, 
where they don't have all the environmental problems and the 
restrictions that we have. Perhaps the last thing remaining in 
that area might just be Vicenza, and I think that's a very 
valuable asset there.
    While we're talking about equipment, General Amos, try not 
to be a marine for just a minute, because you never complain. 
You guys, you're the only ones with retreads, and we know all 
that stuff. You're still using the Harrier, the V-22, the CH-
53. What do you think in terms of modernization, equipment, as 
you look out in the future, what you'll need?
    General Amos. Senator, you've flown on most of those 
airplanes, if not all of them, and been in all of our vehicles. 
Fortunately, we began a modernization program in aviation about 
5 or 6 years ago, and it began with the new Huey Cobra, the 
then V-22. We invested money early on, skipped over the F-18 E 
and F and decided we would go with the Joint Strike Fighter 
(JSF).
    So we have C-130Js that----
    Senator Inhofe. Yes, but still, that's out in the future.
    General Amos. Some of it is, sir. Certainly the V-22 is 
not.
    Senator Inhofe. No, I'm talking about the JSF. That is a 
great need you have now and you're still using the F-18s, I 
guess?
    General Amos. We are, sir. If you just look at service 
life, we have about 5 or 6 more years left on our single-seat 
F-18s and about the same amount on our F-18 two-seaters. So we 
began this thing, there is a plan in motion, and it's actually 
I think working pretty well for the Marine Corps.
    Senator Inhofe. Okay. I just want you to know that there 
are a lot of us here who are so appreciative of you two guys 
and what you're doing with the hand that's dealt you. Our job 
is to deal you a better hand.
    General Amos, I was fortunate to be in Fallujah for the 
first two elections that they had, and I watched your marines. 
I watched the door-to-door activity, and it made me very proud. 
I would say the same thing, General Chiarelli. I was a product 
of the draft and I never believed that an All-Volunteer Force 
could do what these guys are doing over there. We're just 
really, really proud that they are.
    One of you said--and I wrote this down, but I'm not sure 
which one of you said it--we can't continue to meet the 
demands; we have to make corresponding adjustments. Which one 
used that term?
    General Chiarelli. It was me, Senator.
    Senator Inhofe. Can you suggest a few corresponding 
adjustments?
    General Chiarelli. What we have to do is find a way to work 
the demand issue. I mean, the demand issue is critical for us, 
and if we see the savings in troops if the drawdown in Iraq 
occurs as scheduled, we see current demand lasting for the Army 
until the middle of fiscal year 2010 and into the fall of 2010. 
We can make that, and we should start to see about that time 
some corresponding decreases in the requirements in Iraq and 
increased dwell for forces back home.
    But if something were to happen that caused demand to 
remain the same as it is today or to increase in the upcoming 
months, it becomes very, very difficult for the United States 
Army to meet those requirements.
    I just toured six installations in 7 days, from Fort 
Jackson to Fort Bragg, Fort Campbell, Fort Lewis, Fort Hood, 
and Fort Drum. I met with spouses of soldiers who were deployed 
and returning. I met with junior noncommissioned officers 
(NCOs) and senior leaders. It is a resilient force. It is an 
amazing force. But I have to tell you, it's a tired and 
stretched force.
    To turn around and go back to either Iraq or Afghanistan 
just under 12 months or just over 12 months, and have it be 
your third or fourth long deployment, is difficult. It's 
difficult on soldiers and families. So the key to me as I see 
it is seeing demand come down as projected. But if it doesn't, 
we'll have some issues.
    Senator Inhofe. I know my time has expired. Just one last 
question, Mr. Chairman.
    On this idea of the brigade combat teams (BCTs), I haven't 
really heard specifically. I guess we have 43 now and we were 
going to go to 47. Now it's going to be 45. How is that going 
to work, and can we maintain our efforts with that change, and 
how is that going to work?
    General Chiarelli. As Secretary Gates indicated, stopping 
at 45 will allow us to thicken our forces. It will allow us to 
ensure that forces that are deploying are deploying at their 
prescribed strength. But the Secretary did indicate that if 
demand changed and went up, that there could be a reevaluation 
period down the road.
    Stopping at 45, if you just do the simple math, if demand 
were to remain the same would cut into dwell time. It's just 
simple mathematics. But allowing us to thicken our forces and 
use those soldiers to ensure that our units are going out close 
to their authorized strength I think is critical. It will also 
assist us in January coming off of stop-loss, which we will 
begin coming off stop-loss.
    Senator Inhofe. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Bayh. Thank you, Senator Inhofe.
    I'd like to pick up where Senator Inhofe left off with your 
last response, General Chiarelli. The term you used was very 
difficult in terms of managing demand. I understood your answer 
to say we can make it through the middle or the end of next 
year, it's tough but you can make it, but we're looking forward 
to the demand from Iraq decreasing even as there's a little bit 
of an increase in Afghanistan, but that's then going to give us 
an opportunity to really try and regenerate our force 
capabilities.
    You said that if something happened to keep demand constant 
or to increase demand, I think the words you used, it would be 
very difficult to meet those demands. You're a good soldier, 
you'll follow orders and you'll do your best, you'll try and 
get the job done. But the words you used, so the American 
public can understand, ``it will be very difficult.''
    So that if, God forbid, if there's a confrontation with 
North Korea or Iran that would require some commitment from our 
Army, or in some other spot that we can't even anticipate, it 
would be very difficult, to use your words, to meet those 
contingencies. Is that a fair summary of what you've said 
today?
    General Chiarelli. That's a fair summary. It would be very 
difficult on the force. It would be very difficult on families 
if we were to see dwell time, the time at home, remain at the 
levels it is now and not improve with folks coming off of 
three, four, and sometimes five deployments.
    Senator Bayh. That affects retention and recruitment, 
particularly for some of the NCOs, sergeants, and then even 
lieutenants, captains, people like that, does it not?
    General Chiarelli. It does. But it's a function also, 
Senator, of the economy. I will tell you our retention rates 
have never been better than they are right now. Our recruiting 
quality points are----
    Senator Bayh. We'd prefer that to not be because there are 
no good alternatives.
    General Chiarelli. We too prefer that to be that way.
    Senator Bayh. But the broader point, and one of the 
purposes from the hearing, you guys have been doing a great job 
under adverse circumstances, but I think the American public 
has a right to know that if something else comes along we're 
going to have a very difficult time meeting the national 
security threat that faces the country. We'll do our best, but 
it puts you folks in a very difficult situation. I would assume 
that the policymakers understand that, and so that our 
responses to some of these contingencies that are out there may 
be in some way shaped by our ability or lack thereof to deal 
with it.
    General Amos, anything you'd like to add to the discussion? 
Would you use similar terms, ``very difficult,'' from the 
Corps' standpoint?
    General Amos. Sir, I think it would be very challenging. 
Difficult, challenging, to me they mean the same thing. I don't 
think there's any question about it. This is not----
    Senator Bayh. It's not an abstract problem we're dealing 
with here.
    General Amos. It's not, sir, and I think it's a very 
worthwhile question. In the case of the Marine Corps, if 
something happened in Iran or North Korea, we would end up 
freezing the forces in place. You'd freeze the ones you have in 
Iraq and Afghanistan, hold them in there, and then, as we said 
earlier on in the testimony, you would bring together--you 
would build a fighting force that you could deploy. But you'd 
have to train it, you'd have to figure out how you're going to 
get the equipment.
    We in the case of the Marine Corps would emasculate all our 
strategic Reserves, which are in our maritime prepositioned 
squadrons, whatever is left up in the caves in Norway. We would 
pull all that together and deploy that force. But we'd have to 
train it, we'd have to figure out what we'd need to do in that 
environment that we're not training people for right now, 
because we're predominantly a counterinsurgency, irregular 
warfare focused Marine Corps right now. So all those other 
skills--combined arms, fire maneuver, forcible entry--those 
things would have to--we'd have to figure out, okay, what do we 
need to do for this new contingency? Is it possible?
    The answer is yes. Your military, both your Army and Marine 
Corps, Navy and Air Force, would come together and we'd make it 
happen, just like we did prior to the onset of Korea. We did 
exactly the same thing. But it would be painful.
    Senator Bayh. As I recall, in the beginning stages of Korea 
it also meant that our performance suffered because we were 
just trying to make the best of a bad situation. We shouldn't 
consciously put ourselves in that spot.
    General Amos. Sir, that's absolutely correct. In the case 
of--just instructive for me as I think about this, we went--
after the President and the Secretary of War, after World War 
II and the great successes of World War II, emasculated the 
Marine Corps--in fact, they even went public and said, we don't 
even--we're not even sure we need a Marine Corps any more, and 
for certain we'll never do an amphibious operation.
    Yet in 1949 we took a 5th Marine Regiment from the west 
coast which was down to about 15 to 20 percent of what it 
should have been, cobbled together marines from the east coast 
all across, brought them into 5th Marines, blew that balloon 
up, trained them, and then brought ships together and made the 
largest amphibious operation and probably the most difficult 
one we've ever done shortly thereafter.
    So sir, I think your concerns are very valid.
    Senator Bayh. When a marine uses a term like ``emasculate'' 
the situation must be fairly dire.
    General Amos. Well, yes, sir. I think it certainly was 
then. I think it was almost on the verge of----
    Senator Bayh. It puts you in a position of trying to cut 
and paste and make do, and that's certainly not an optimal 
situation for us to be in.
    I think that's the broader issue here today. Looking out, 
if there are threats to our Nation's security, unexpected 
contingencies or things that might happen, that we hope don't 
happen, that just puts you in a very difficult situation. 
You'll try and make do, but that's not really fair to your 
forces, and it really in some respects jeopardizes our national 
security.
    A couple other questions I have, gentlemen. I think, 
General Chiarelli, this would be in your territory. A few days 
ago, there was an article in the New York Times you're probably 
familiar with regarding new body armor that we had hoped would 
lighten the load for some of our combat folks. I think we've 
all been impressed by the load that our soldiers carry out 
there in combat. It might reduce the weight they have to carry 
by as much as 20 pounds, which is not insignificant when you're 
going up and down hills wearing your hot desert terrain gear.
    The article suggested that there were delays that were 
keeping that body armor from getting to our troops in the 
field. Are you familiar with this issue, and if so can you 
address what's going on with that and what we need to do if the 
equipment is actually going to be good to get it to the 
soldiers who need it?
    General Chiarelli. I had a meeting on that yesterday, 
Senator, and I will tell you that particular plate carrier--and 
that's what it is. The official name is MBAB, and I don't know 
what ``MBAB'' stands for. But it is a plate carrier, and it 
literally is a carrier made to carry those ceramic plates that 
we wear on the front and the back.
    It saves 3.77 pounds.
    Senator Bayh. 3.77 pounds?
    General Chiarelli. 3.77 pounds. It was part of a total 
package----
    Senator Bayh. So the 20 pounds that was reported was a 
little overstatement?
    General Chiarelli. It was part of a total package of 
equipment, to include lighter machine guns and individual 
equipment, that, depending on what position you had in the 
unit--from a machine gunner, it would save, this total package 
would save 23 pounds; for a rifleman it would save 14 pounds.
    Senator Bayh. What are the prospects for getting this done 
and how long will it take if we can't get it done?
    General Chiarelli. The machine guns have already gone 
downrange. They are already in Afghanistan, and more are going 
to be shipped to Afghanistan. But we already have the machine 
guns down.
    The M240 machine gun saved, the lighter model, saved a 
total of 9 of those 23 pounds, with 3.77 pounds in the body 
armor, and another approximately 10 pounds in individual 
equipment. Now, that individual equipment and body armor is 
pre-stationed at Fort Carson, CO, and will be distributed from 
May 11 to May 15 to the next unit to go into Afghanistan.
    This is civilian off-the-shelf individual equipment that we 
need to test. The Secretary of the Army directed yesterday we 
expand that test, given the 10 pounds of savings. But I think 
it was unfair to characterize this as it was characterized.
    Senator Bayh. How long do you think the testing process 
will take?
    General Chiarelli. It's done.
    Senator Bayh. Oh, it's done.
    General Chiarelli. The testing is done, and the unit has 
asked that the equipment be distributed May 11 to 15.
    Senator Bayh. So in a matter of weeks.
    General Chiarelli. We're meeting the unit's request. We 
could do it right now, but based on where they are in their 
training phase they've asked to wait until the 11th to the 
15th.
    But we had to test this integrated system to make sure that 
when we put our very good Small Arms Protective Insert (SAPI) 
plates in this carrier and when we tested that whole system, we 
got the levels of protection that we needed to ensure, to make 
sure our soldiers were as safe as possible.
    Senator Bayh. My time has expired. If I could just slip one 
more in, and then Senator Udall has joined us and we're 
grateful for his presence here today.
    There have been a number of published reports I'm sure 
you're both familiar with about some of the difficulties we're 
having getting equipment into Afghanistan through Pakistan, 
some of the challenges, security challenges that exist in that 
arena. Does this concern either of you? There are some 
alternative routes we've explored. Either of you have any 
thoughts about relying upon, for example, Russia as a place 
through which we can ship our equipment to Afghanistan?
    General Amos?
    General Amos. For the Marine Corps, the equipment will 
either fly into Kandahar for what we call sensitive type of 
things, things that we would not want to put on a commercial 
carrier, or it'll come up through Pakistan, through Karachi, 
it'll be offloaded down at the port of Karachi. All that 
equipment that flows up, that you see on the television every 
now and then when a convoy gets blown up, that's all by 
commercial carriers. In other words, there are no U.S. soldiers 
or U.S. marines involved in that. They offload it, put it on 
the commercial carriers, and they actually drive it up north.
    There are two main routes up from that direction coming up 
from Pakistan.
    Senator Bayh. Do you have concerns about the reliability of 
those routes, General, with some of the attacks that have taken 
place there, the increasing instability in some parts of 
Pakistan?
    General Amos. I think the bulk of the attacks have taken 
place up in the very northern part of the route. When you enter 
Afghanistan, you enter either the southern part, which is 
almost adjacent, just due east of Kandahar, and you come across 
the mountains that way. That's actually proven to be very safe 
thus far. I would suspect that it's only a matter of time when 
that starts becoming frisky as well, but right now the bulk of 
the stuff that's going up north into that part of Afghanistan, 
that's the more dangerous area. It goes across I believe the 
Khyber Pass and that area, and that's where the enemy is 
focusing its efforts.
    This is an open hearing, so I can't tell you, but I saw 
some numbers that TRANSCOM, who is responsible for all that 
stuff that moves, even when it goes into Afghanistan, and the 
numbers are, even though the pictures are dramatic on 
television and the papers, the numbers are actually almost 
insignificant. Nothing's insignificant when you lose several 
hundred million dollars worth of equipment, I understand that.
    Senator Bayh. So it's something to keep our eye on, but at 
this point not having a material impact on our operations?
    General Amos. Sir, it's not. Certainly in the Marine Corps 
it's not. I'll let Pete talk about in the Army. But I'll tell 
you that General McNabb at TRANSCOM and General McKiernan in 
Afghanistan have their eyes on this thing, and they're trying 
to work very carefully to try to mitigate that.
    Senator Bayh. General Chiarelli.
    General Chiarelli. From the dramatic pictures you saw in 
January, I think things have gotten better, particularly on the 
routes coming through Pakistan to Afghanistan. I think our 
logisticians have worked miracles to look for other lines of 
communication that they can use to continue to supply the 
force.
    I think that Army Material Command (AMC), TRANSCOM, are all 
over this. It is less a worry today than it was a few months 
ago.
    Senator Bayh. Good, good.
    Senator Burr, and then Senator Udall.
    Senator Burr. Generals, I thank you both for your comments 
on the ability to access Afghanistan for supply or resupply. I 
think one of the things that the chairman and I strongly are 
concerned with is, as you have this tremendous plus-up of U.S. 
presence, the requirements then on the resupply side are 
significantly more than what they currently are.
    I know there are some great minds working on alternative 
routes that come from north, that come from the south. At any 
point that you feel that our strategy does not accommodate our 
needs, please let us know. We truly look at this with a sense 
that we want to make sure that the right decisions are in fact 
made, and we believe the planning is in place.
    General Chiarelli, let me turn to also a press article, and 
I don't want to catch you off guard because it's one from 
today. If in fact you're not up to speed on this, you certainly 
don't have to comment. But it's an article in Politico that 
reports that the Chairman of the Joint Chiefs supports a 
proposal by his staff to change the method for selection and 
timing of Army units deployed to Afghanistan.
    The article notes a concern that the current rotation 
schedule requires Army units to redeploy back to home stations 
just as they're becoming familiar with the terrain and culture 
in Afghanistan. The proposed change would have the Army 
adopting a shorter deployment tour, similar to the Marines and 
Special Forces, but using the same units repeatedly to return 
to those familiar areas. This proposal seems to be a 
significant change from the Army's traditional generation 
process.
    Do you care to comment on it at all?
    General Chiarelli. Well, I would have to say that one of 
the things the Chief of Staff of the Army is trying to get the 
Army to is 27 months at home, 9 months deployed. We would like 
to go to the shorter deployment schedules that the marines 
have. But as I explained earlier today--I talked friction. 
Given our requirement for deployment right now, if we were to 
go to a 7-month deployment as the marines have now, as many 
people have asked, that would double the amount of friction 
that we had. Rather than have 31 brigades that are currently 
employed with 12-month deployments, I would be up between 35, 
36, and 37 brigades needed to maintain that shorter deployment.
    So if you're talking about large units with the current 
demand, if we were to make deployments shorter it would raise 
my friction and demand on the force, which could be an issue 
for us.
    Senator Burr. I think clearly this article alluded to the 
fact that the force size would be much smaller, but it would be 
repeated visits. I question, one, if that meets the target time 
back home. But two, this is quite a departure from the typical 
rotation that the Army's looked at.
    General Chiarelli. It would, Senator. I'd really have to 
have more details to be able to sit down and analyze it, to 
give you the kind of answer that I think would be the Army 
position. I'm sure we have people that are looking at it. I'm 
just not as familiar with this particular piece as I probably 
should be.
    Senator Burr. To both of you for a very brief response, if 
you will. The second portion of the President's request for 
emergency supplementals, which totals $83 billion plus for 
overseas contingency, was transmitted to Congress last week. 
Understanding that pay, operation and maintenance funding to 
support deployed forces are at the top of the priority list, 
what other crucial needs are funded in this supplemental?
    General Amos. Sir, I'll be able to tell you precisely. We 
asked for $4.9 billion. A small portion of that is what we call 
blue in support of green, which is Navy. It's money that we 
share kind of back and forth with the Navy with regards to 
aviation assets, because we share the aviation program with the 
Navy. But $4.9 billion.
    $1.5 billion of that was for military personnel. Those were 
just decremented, special pays, imminent danger pay, family 
separation allowance, that kind of thing. It also helps with 
the acceleration of our growth to 202,000, and we're just about 
there. We'll sustain that for the rest of the year.
    $1.1 billion in operation and maintenance (O&M) money to 
support those 29,000 marines that are forward deployed in 
Afghanistan and Iraq.
    An investment of $1.9 billion for equipment; these are 
things such as new lightweight 155 howitzers, electronic 
organic destruction systems, new HMMWVs, the enhanced 
capability variant that I talked about, LAV production 
improvement plan, physical security, add-on armor kits, 
rockets, and 7-ton Medium Tactical Vehicle Replacements.
    Finally, the last thing was we actually bought a few 
airplanes with this. So four brand new Hueys, which are the new 
upgraded four-bladed, two-engine Huey, because we've lost a lot 
of those in combat.
    So it's those kinds of things that fill out, flesh out that 
$4.9 billion.
    Senator Burr. Is it safe for us to assume, General, that 
any delay by Congress in approving this supplemental would have 
an impact on deployment?
    General Amos. Sir, well, here's what we would do for the 
deployment, and that's what you're specifically asking. We 
would end up reprogramming other moneys to pay for that moneys 
for those 29,000 forces. We would make that fit, and we would 
take that from other pieces of the budget if the OCO fund was 
not funded.
    Senator Burr. General Chiarelli?
    General Chiarelli. We currently project we can make it 
through payday July 1. We would like to see the supplemental 
approved weeks prior to that, which would ensure that we had 
continuity of operations. That's our current projection, payday 
July 1.
    A majority of that money is not only for operations 
downrange--and I totally agree with General Amos, we would make 
that happen. We would do whatever we had to to make that 
happen. But the supplemental is critical for us, as I know you 
know, Senator, for our reset of equipment, which is critical. 
When I have to turn around a combat aviation battalion in 11 
months 22 days, it's hard on the people, but it's also hard to 
turn that equipment, particularly high tech equipment like 
helicopters, rapidly through the reset requirements it must go 
through.
    Senator Burr. The last is not a question; it's an 
observation. When you represent the State that has the Pentagon 
and the Army, and I think the Pentagon and the Marine Corps, 
though California may challenge me on that one--the President's 
made it clear that this is the last emergency supplemental, 
this is the last war funding outside of the normal budget 
process. I think that's been clear.
    General Amos, you said in your written statement that the 
Marine Corps will need approximately $20 billion for replacing, 
repairing, rebuilding equipment to reset Marine Corps. General 
Chiarelli, you've been very open on what the needs are going to 
be.
    It concerns me greatly that at a time we have troops 
deployed in two theaters, we have hot spots around the world 
that on any given day could reach a heat hotter than where we 
currently have forces, that we would limit ourselves to what is 
projected to be a 4 percent increase in the normal DOD process 
for the foreseeable future. I purposely am not asking this in 
the form of a question because I don't think it's fair to ask 
you to respond, but there is a disconnect on my part to believe 
that we can accommodate all of the things that are outside of 
just readiness today, but having a force strength with the 
equipment to be able to be trained and respond anywhere they 
might be needed if in fact we're trying to do it with the 
limitations of an annual appropriations and limited to a 4 
percent increase.
    I think it is impossible for us to expect that any service 
will have the equipment that they need, with the sufficient 
training that's required, clearly anything in addition to the 
two theaters that we have active engagement in today. It makes 
me feel very questionable about just how much training on those 
potential other hot spots might be able to be accomplished, 
given the need to shepherd the funds and not necessarily devote 
them in a way that broadly places those assets there for the 
military.
    I want to once again thank both of you for your willingness 
to come in, but also for the great insight you've provided us. 
Thank you, Mr. Chairman.
    Senator Bayh. Thank you, Senator Burr.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    I was fortunate enough to serve on the Armed Services 
Committee on the House side and to serve on the equivalent 
subcommittee, the Readiness Subcommittee, on the House side. So 
I'm excited to be able to serve in the same capacity over here, 
and I look forward to adding hopefully a little bit of value to 
the committee's work with the ranking member and the chairman.
    Senator Bayh. I'm sure your experience in this area will 
prove to be invaluable.
    Senator Udall. I appreciate the confidence.
    If I might turn to General Amos and General Chiarelli. 
General Chiarelli, I think the last time I saw you, and I 
wouldn't expect you to remember, you were serving a de facto 
role as mayor of Baghdad. Thank you for your service in that 
situation. I hope we're, as a country and as a military 
institution, taking advantage of what you learned about 
counterinsurgencies and the nationbuilding, if you will, that 
attends the kinds of challenges we face in places like 
Afghanistan and Iraq.
    If I might, I'd like to begin with a comment and then throw 
some questions your way. I understand you're working on energy, 
that is the Army, and electricity grid security. I'm pleased to 
hear that because of the growing concerns over cyber and 
physical threats to the power grid and transformers. I don't 
have any questions right now, but I look forward to working 
with you and building on the Army's interest in energy 
security, and would like to offer my help in that regard.
    I know a number of Senators attended a closed briefing 
recently about cyber security, particularly when it comes to 
our grid. So thank you for that work.
    General Chiarelli. Thank you, Senator.
    Senator Udall. If I might, let me turn to an interview you 
gave to Defense News recently. In it you addressed the 
importance of evaluating lightweight equipment, weapons, and 
body armor for our soldiers in Afghanistan. Last week I was at 
Fort Carson in Colorado Springs, CO, and I heard specifically 
about the needs of our soldiers in Afghanistan when I met with 
Colonel Randy George, who is the Commander of the 4th BCT, the 
4th I.D.
    He's preparing to deploy to Afghanistan next month. One of 
the first topics we discussed was the need for lightweight 
equipment and body armor in Afghanistan. Colonel George and 
others with him that day agreed that speed is the best 
protection--I think that's exactly how he put it--in a 
mountainous environment like Afghanistan, and that we should do 
anything we can to lighten our soldiers' loads so the Taliban 
can't outmaneuver them.
    They noted this debate about light versus heavy vehicles 
and body armor can get political, because soldiers' families 
and the general public and those of us in Congress push for our 
soldiers, our marines, to have the strongest vehicles and body 
armor, even as that same equipment makes it more difficult in 
some settings for soldiers to get around.
    I think the Russians were at some points of that conflict 
in the 80s in Afghanistan called ``turtles'' by the Mujahedin 
because they were so burdened by their armor. If you could flip 
them on their backs, literally and figuratively, they were 
helpless.
    Could you share your views on how to strike that balance in 
Afghanistan, and as a follow-on do you believe the soldiers 
going to Afghanistan have all the lightweight equipment they 
need? Is the Rapid Equipping Force (REF) helping individual 
units deploying to Afghanistan?
    Forgive me for throwing three questions at you.
    General Chiarelli. I'll take the last one first. I think 
the REF has been absolutely critical in the Army's ability to 
get lightweight equipment and look for commercial off-the-shelf 
solutions to what we're doing. We're getting ready to issue 
equipment to Randy's brigade from May 11 to May 15 that will 
save anywhere from 13-plus pounds to 23-plus pounds, depending 
upon the position that the individual soldier has in the 
formation. A heavy machine gunner, 23-plus pounds; a rifleman, 
14-plus pounds.
    We've made great strides with body armor, and the MBAB 
carrier, or the plate carrier that will carry our standard SAPI 
accept enhanced small arms protective insert plates, will save 
3.77 pounds. Randy's will be the first Army unit that will have 
that ability. Now, he will go into Afghanistan with both sets 
of body armor. He will have his heavier improved outer tactical 
vest, which weighs 3.77 pounds more, and he will have the 
lightweight plate carrier.
    I would not pretend to try to make the call from 
Washington, DC, which he should wear. That'll be up to him 
based on the conditions, both friendly and enemy, that he sees 
on the ground to make that decision. Our goal is to provide him 
with that weight savings as rapidly as we possibly can.
    The savings of upwards of 23 pounds I think would not have 
been possible without great support from AMC and our REF in 
getting commercial off-the-shelf things that we could rapidly 
get to soldiers to save weight.
    Senator Udall. We talked at some length as well about where 
that responsibility lies and where the discretion lies when it 
comes to making those decisions. I hear you suggesting he would 
have a fair amount of discretion as to what kind of body armor 
and protective equipment he requires of his men and women in 
the field.
    General Chiarelli. That's exactly right. It's our job to 
point out to him what the risk factor is, and we've worked 
very, very hard to lay that out and show him exactly what it 
would mean to go to the lighter body armor. But at the same 
time, when you're at 8,000 to 11,000 feet working in the 
terrain that he's working in, I don't think any of us down here 
near sea level can understand what it means in a soldier's 
ability in the 10th month of a rotation to have almost 4 pounds 
less weight and agility to be able to fire his individual or 
crew-served weapon.
    That's what the MBAB with SAPI plates gives him, is an 
ability that we had not been able to give him before.
    Senator Udall. General, at the risk of sounding immodest, I 
would add to your comments. It also may be drawing into 
question my own personal judgment, but through the years I've 
participated in nine Himalayan climbing expeditions in that 
part of the world, and I went there for recreation and for 
other reasons. Some people think I killed so many brain cells I 
went into politics, at those high altitudes, but that's another 
discussion.
    But the idea of carrying, as I did, 45, 50, 55 pounds on 
your back in those high mountains and being shot at at the same 
time is something I don't want to really contemplate. But I 
know the effect of even an additional pound on your ability to 
maneuver, to stay fit, to stay healthy. So I commend you for 
what you're doing.
    There was also talk, by the way, about foot gear, and there 
are efforts under way to get the best possible foot gear for 
mountain environments, which weren't necessarily standard Army 
issue. So I would encourage that flexibility as well. The Army 
and the Corps move on their feet, and if your feet aren't 
healthy, you don't have the right foot gear, you're at a 
disadvantage.
    General Chiarelli. The boot we're going to be testing with 
Randy's unit will save just over 2 pounds. But again, we want 
to get some good data on the reliability of that boot and 
whether or not soldiers feel that it does the job at 2 pounds 
lighter. But again, we're not leaving any stone unturned to try 
to get at lighter gear.
    Senator Udall. The new materials and technologies in 
mountain boots have gone from in the old days of 10 to 12 
pounds a pair to a third of that. I think you can find an 
excellent pair of heavy duty boots for 4 pounds. They're not 
cheap, but I know the Army and the Marines have some elements 
to bring to the table, including an interest in volume. So I 
would think that we could find a way to provide that great foot 
gear.
    Colonel George, by the way, is a phenomenal leader. I think 
you know that, but I just wanted for the record to note how 
impressed I am with him and his grasp of all of what we're 
going to ask him to do over there.
    If I might, I'd like to turn to some testimony you gave 
earlier in the year about the alarming increases in suicides in 
the Army and how the Army is looking to address the crisis. 
Fort Carson has seen its rate increase and it's a big concern 
of mine. You talked in that testimony about comprehensive 
soldier fitness, and you mentioned the Battlemind training with 
its pre- and post-deployment modules. You said it's the only 
mental health and resilience program demonstrated to reduce 
symptoms of post-traumatic stress upon redeployment.
    I heard last week from General Graham, who by the way as 
well is just a phenomenal leader and American, and Colonel 
George and other leaders about the importance of this pre-
deployment training. The Fourth BCT as I understand it is the 
first major Army unit to get this mental toughness training. 
They've received very good feedback. They suggested that such 
training might be conducted all the way across the Army, 
perhaps expanding the Battlemind program and setting up 
traditional pilots all over the country.
    Would you care to comment on such training and where else 
we might apply it?
    General Chiarelli. Brigadier General Rhonda Cornum is 
running an effort for the Army, total soldier fitness 
resiliency training. Battlemind will be a key and critical 
piece of that. In fact, we currently have train the trainers 
being trained as we speak to go out throughout the Army to help 
provide this as part of her overall program, which we hope to 
roll out here in the next couple of months. It is a critical 
piece of suicide prevention, as are so many things, as I found 
out.
    I was not able to visit Fort Carson on my recent trip 
because the snow was so bad there that Mark asked me not to 
come in because we'd pull in additional soldiers, but I did 
meet Mark in Fort Lewis and he briefed me on some of the 
efforts that he has going on at Fort Carson. But it is a multi-
disciplinary approach that we have to go after this with.
    We just published our campaign plan this week. It's a lot 
of process, but it's process that I'm personally driving, 250 
taskers that we are driving through the service by 1 September, 
some of them very, very difficult things, to get at this 
problem. We are committed to driving the rate of suicide down 
throughout the Army.
    Senator Udall. General, I need to work with you on that. 
Thank you.
    Mr. Chairman, thank you.
    Senator Bayh. Thank you, Senator Udall.
    Senator Thune I understand is on a tight time line, so, 
John, if there are questions you want to submit for the record, 
we'd be happy to take those. I know you're multi-tasking here 
today.
    Senator Thune. Thank you, Mr. Chairman.
    Senator Bayh. A challenge we can all relate to.
    Senator Thune. I thank General Chiarelli and General Amos 
for your service to our country. Be sure you convey our 
appreciation to all of those that you work with.
    Just a couple of quick questions, if I might. It got 
touched on a little bit earlier by Senator Burr, but I want to 
come back to this whole process now of going away from 
supplementals and including everything in the annual defense 
budget. Does that create in your judgment concerns about areas 
that might suffer without the flexibility that supplemental 
funding provides?
    I'm sort of curious about your general view of how we have 
done this in the past and the way that we've responded to 
specific needs that come up, and the way that we have funded 
operations in Iraq and Afghanistan through supplemental budget 
requests, and now trying to absorb all of that in the annual 
general budget process. Do you anticipate any issues related to 
that in terms of the needs that you have?
    General Amos. Sir, I'll take the first stab at it and Pete 
can clean up the battlefield after I'm done.
    About 2 years ago, the Commandant made a purposeful 
decision to try to get as much what we would call things that 
would be above the line, things that we would not normally be 
able to pay for in what we call the baseline budget, things 
that would be in the supplementals--to try to force ourselves 
on a diet so that we could bring some of that supplemental kind 
of things into the baseline.
    We've been successful on things such as manpower. The 
typical cost of manpower in this fiscal year alone, when we 
finish the end of fiscal year 2009, the 202,000 marines that 
Congress has given us authorization to grow to and money to buy 
them and all that stuff will in 2010 and beyond be forced into 
the baseline. In other words, we will not be trying to pay 
manpower bills with supplementals.
    So that's what I'm talking about, forcing ourselves to get 
on a diet. You can only do that so much when you're wearing 
equipment out. If we were in static, if this was 1978 or 1985 
and our equipment and our people were static, then we could 
probably figure out how to keep everything within a baseline. 
But when you're getting it destroyed, you're wearing it out at 
seven times the rate that you paid, that you programmed for 
that equipment, and you have the extra O&M costs of combat in 
two theaters, or one theater but in two major areas of that 
theater, it will be difficult. It will be very difficult to do 
this and put it in the baseline, unless the baseline itself 
increased, if that makes sense.
    Senator Thune. It certainly does.
    General?
    General Chiarelli. I would echo those comments. We've been 
able to move our military personnel into the base, but two 
things that concern me: the first is one that we just talked 
Rapid Equipping Task Force. Their money that they use to go 
find these off-the-shelf solutions, to be able to go and 
lighten the soldiers' load from 14 to 23 pounds, is directly 
out of the supplemental or OCO funding, and I have to find a 
place for that in the base because I think they do such 
critical work and it moved us ahead so rapidly.
    I also worry about reset. So much of what we have in the 
supplemental is in fact reset. I think that General Cody and 
General Casey have testified long before me that we see that 
reset requirement going on for 2 to 3 years after we bring the 
last forces back. It just takes time to rebuild that equipment 
and get it back. I would only echo Jim's comments about how 
difficult that would be.
    Senator Thune. I appreciate the answer to that. What I hear 
you saying is it's going to be very difficult to do this in the 
annual baseline--a question that if I might have him answer for 
the record, having to do with the different terrain that you're 
seeing in Afghanistan, the way that the infrastructure needs, 
the poor roads and everything, unique requirements relative to 
Iraq. General Chiarelli, if you could identify additional 
equipment requirements that would better serve our forces in 
Afghanistan that are currently underfunded or unfunded, I'd be 
interested if you would at least furnish that for the record.
    Thank you, Mr. Chairman.
    Senator Bayh. We'll include your questions in the record, 
Senator. I would ask, gentlemen, if your staff could prepare 
some answers for Senator Thune.
    Thank you, Senator.
    Senator Udall, anything else from you?
    Senator Udall. No, thank you.
    Senator Bayh. Gentlemen, thank you very much. This is the 
first hearing that I've had the privilege of chairing as the 
subcommittee chairman, and I want this to be a very cooperative 
relationship. Consider us to be your partners, and I am well 
aware of the demands on your time that hearings like this 
present to both you and your staff, so we will attempt to make 
the times we have you up here modest and no more than 
necessary. That's number one.
    Number two, while there's much too much partisan 
divisiveness in Washington, I don't want that to be any part of 
this subcommittee. We're not really Democrats or Republicans 
here. We're American. We want to make sure that you and your 
soldiers have everything that you need to carry out the 
missions that our country is asking you to fulfill.
    I look forward to working with Senator Burr and members on 
both sides of the aisle in cooperation with you to accomplish 
that mission.
    I'd like to thank you for your and your staffs' time today, 
and look forward to working together. Thank you very much, 
gentlemen.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Evan Bayh
     advisory and assistance brigades and security force assistance
    1. Senator Bayh. General Amos and General Chiarelli, last month in 
his testimony before the Senate Armed Services Committee, General 
Petraeus spoke about Advisory and Assistance Brigades (AABs) which will 
train the Afghan National Army and Police forces. He specifically 
mentioned the 4th Brigade Combat Team (BCT) of the 82nd Airborne 
Division, and the marines deploying to Regional Command-South area. 
What is the additional end strength requirement for your forces as we 
see an increasing trend and operations tempo (OPTEMPO) with respect to 
AABs and Security Force Assistance (SFA)?
    General Amos. The Marine Corps' planned reduced footprint in Iraq 
will offset force sourcing stress even with the increasing requirement 
in Afghanistan. The authorized 202,000 active duty end strength will be 
sufficient to meet 1:2 Active Duty dwell and 1:5 Reserve Force dwell in 
the mid-term. The Marine Corps will be challenged to meet these goals 
in the near term because of residual Operation Iraqi Freedom (OIF) 
requirements concurrent with Operation Enduring Freedom (OEF) build-up. 
However, this would not be mitigated by even immediate additional end 
strength authorization because of the training pipeline.
    General Chiarelli. There is no impact on the Army's needed end 
strength, just some internal organizational changes to meet SFA mission 
requirements. Currently, the Army has not formally templated an AAB 
augmentation package for OEF. However, we do have a template for Iraq. 
Organizational changes needed to mission an Army BCT as an AAB is the 
augmentation of 48 field grade officers, the attachment of a 15-Soldier 
Facilities Engineer Detachment, and a 16-person interagency Civil 
Capacity Team. The specific ranks of the 48 field grade officers is 4 
colonels, 20 lieutenant colonels, and 24 majors; and the specifics of 
the Engineer Detachment and Civil Capacity Team is yet to be fully 
defined. These additions to the BCT will allow the brigade commander to 
internally task organize to meet SFA mission requirements. Even though 
the Iraq AAB package has not been formally adopted for OEF, the 
Afghanistan package will most likely look about the same.

    2. Senator Bayh. General Amos and General Chiarelli, where is the 
SFA or AAB doctrine with respect to specific mission requirements and 
characteristics?
    General Amos. The baseline of ``advise and assist'' strategy 
outlined by General Petraeus in the counterinsurgency (COIN) manual has 
been incorporated in the Marine Corps guidance to operational 
commanders and the supporting establishment to certify Blocks I-IV in 
preparation for deployment to Central Command (CENTCOM) area of 
responsibility (AOR). While ``train and assist'' is not and will not be 
a USMC core competency, it is a necessary skill for the current fight. 
The Marine Corps will continue to adapt predeployment training to 
prepare for the current fight based on lessons learned. Additionally, 
at no time in recent history have we had so many staff noncommissioned 
officers (NCOs) and officers that have first hand experience in this 
type of combat. After 8 years of war, clearly our training commands are 
filled with marines that understand these principles.
    General Chiarelli. Army Regulation 11-31, Army International 
Security Cooperation Policy, establishes policy and prescribes 
responsibilities and procedures for the planning, integration, 
programming, budgeting and execution of Army security cooperation 
activities.
    The Combined Arms Center (CAC), Fort Leavenworth, KS, is the Army 
proponent for all doctrine related to SFA and in May 2009 published 
Field Manual (FM) 3-07.1, Security forces Assistance to provide a 
conceptual framework for Army forces to conduct SFA within the context 
of full spectrum operations. It addresses the operational and tactical 
levels while focusing on the modular brigade in the conduct of SFA 
activities.
    The doctrine of FM 3-07.1 is nested within that of FM 3-07, 
Stability Operations, published by CAC in October 2008.
    CAC is also responsible for the Department of Defense (DOD) Joint 
Center for International SFA and, in July 2008, published the 
Commander's Handbook for SFA to distill and distribute best practices 
and lessons learned from current SFA operations in Afghanistan and 
Iraq.

    3. Senator Bayh. General Amos and General Chiareeli, is the SFA or 
AAB functions an additional duty or a core competency of ground forces 
today?
    General Amos. As outlined in question 2 above, ``advise and 
assist'' remains a necessary skill-set for both the current fight and 
the ``long war'' as outlined by the Secretary of Defense. However, the 
Marine Corps fundamentally remains a unique expeditionary force 
employable via amphibious shipping or committed in conjunction with a 
decision to employ the Maritime Prepositioned Force (MPF) assets. While 
the Marine Corps will always adapt to meet the Nations needs, SFA/AAB 
functions currently performed do not alter our Title 10 mission.
    General Chiarelli. Stability operations are a core competency of 
all Army formations and SFA is a component part of stability 
operations.
    Army FM 3-0, Operations, establishes full spectrum operations as 
the Army's fundamental operational concept that Army forces combine 
offensive, defensive, stability, or civil support operations 
simultaneously as part of an interdependent joint force to seize, 
retain, and exploit the initiative, accepting prudent risk to generate 
decisive results.
    Army organizations assigned to operational missions will, as part 
of their preparatory training in the Army Force Generation (ARFORGEN) 
model, be organized, trained, and equipped to perform these missions. 
Brigades assigned SFA missions will be fully prepared for that mission 
prior to deployment.

                              end strength
    4. Senator Bayh. General Amos and General Chiarelli, last month, 
both of you testified at a Personnel Subcommittee hearing on suicides. 
There, you both noted that one significant contributing factor to the 
rise in suicides in your Services is the stress on the force caused by 
lengthy and frequent deployments. That same day, the Secretary of 
Defense announced he had approved a plan to end the Army's practice of 
stop loss. I think we can all agree that mobilization and dwell time 
goals are very important to the overall health of the force--but we are 
still falling short of meeting those goals. In your statements today, 
you acknowledged that until the demand for forces decreases, these 
challenges will remain. General Chiarelli, the target end strength of 
547,400 by fiscal year 2011 is projected to be achieved 2 years earlier 
than expected, and some in Congress are even calling for an additional 
30,000 beyond the currently authorized 547,400. General Amos, similarly 
in your opening statement you spoke of the Marine Corps also achieving 
its end strength goal of 202,000 2 years ahead of schedule. What is the 
total number of troops necessary to reduce the operational demand upon 
the Army and Marine Corps, and what is the estimated cost of rebuilding 
and transforming both Services?
    General Amos. The Commandant continues to stress that the growth to 
202,000 active-duty marines will enable the Corps to meet current and 
future challenges in an increasingly demanding operational environment. 
As stated before, the Marine Corps is 2 years ahead of schedule with 
the aggregate increase in end strength growth to 202,000. This growth 
can be attributed to three factors: quality recruiting, exceptional 
retention levels, and reduced attrition. The accelerated growth in 
aggregate numbers has met the end strength requirement; however, time 
is still needed to implement the original 202,000 build plan. 
Specifically, time is required for procuring equipment, building 
permanent facilities and shaping the inventory of the force. A standing 
Doctrine, Organization, Training, Materiel, Leadership and Education, 
Personnel and Facilities Working Group is overseeing the implementation 
and synchronization of this plan. This working group which consists of 
a cross section of the Commandant's staff and Marine forces commanders 
continues to seek efficiencies in accelerating the build plan.
    The Marine Corps estimates that it will cost approximately $33 
billion between fiscal year 2007 and fiscal year 2013 to fund the 
incremental costs of growing the force.
    General Chiarelli. The Army does not have control over operational 
demand, but has improved our ability to meet the demand we are 
experiencing now and anticipating in the future. With national 
leadership support, our Army has achieved our manpower growth goals in 
all components during 2009, although we will not complete growing the 
number of brigade combat teams (BCTs) to 73 (45 Active component (AC) 
and 28 Reserve component (RC)) until 2011. This growth in the force, 
combined with reduced operational deployments from 15 months to 12 
months, has eased some of the strain on soldiers and families. The 
current AC BCT boots on the ground to dwell ratio is about 1 year 
deployed to 16 months at home or 1:1.3. This is based on an OIF/OEF 
demand for 15 BCTs (AC). Based on the Grow the Army objective of 45 
BCTs (AC) and a reduction in global demands, we anticipate reaching a 2 
year dwell in 2011. So long as we continue the trend of increasing 
dwell, stress on the Army will stabilize and diminish over time.
    To rebuild our force, we are providing additional support to 
soldiers and families; repairing, replacing, and recapitalizing 
equipment; and retraining soldiers. In the effort to transform our 
force, we have converted 83 percent of our units to modular formations, 
accelerated delivery of advanced technologies, kept Base Realignment 
and Closure and restationing on schedule, and developed relevant 
doctrine for leaders to operate effectively in joint, interagency, 
intergovernmental, and multinational environments. We are continuing 
efforts to build and sustain Reserve component readiness and to 
increase predictability of deployments for soldiers, their families, 
employers, and communities.
    The Army has sufficient support in the fiscal year 2010 President's 
budget to meet projected operational demand and to rebuild and 
transform the force--all while preserving our All-Volunteer Force.

    5. Senator Bayh. General Amos and General Chiarelli, how will the 
Army balance near-term operational risks with the need for prudent 
long-term investments?
    General Amos. The OPTEMPO of OIF and OEF has stressed the Marine 
Corps. The land-based nature and irregular warfare (IW) environment 
increased the operational risk that the Marine Corps had to accept in 
its core competencies of amphibious operations, high-end combined arms 
capability, and MPF operations in support of contingency operations. 
Those factors degraded our ability to source combatant commander 
requirements, particularly in shaping operations and contingency 
response outside the CENTCOM area of operations. To mitigate near-term 
risks of the current fight while developing the Marine Corps of the 
future, the Commandant is addressing three areas to ensure a Marine 
Corps which will engage in the full range of military operations 
whenever the Nation calls.
    First, we are successfully right-sizing the force with an 
authorized end-strength expansion to 202,000. A right-sized Marine 
Corps not only reduces the stress on the individual marine and sailor 
by increasing time between deployments, but it also reduces the stress 
on the Marine Corps as a whole and enables the second area: providing 
high-end unit and individual training.
    We are initiating the Combined Arms Exercise Next program at Marine 
Corps Air Ground Combat Center in Twentynine Palms, CA, which 
integrates COIN specific skills with intensive combined arms training, 
significantly enhancing core warfighting functions for all elements of 
the Marine Air-Ground Task Force (MAGTF). We are revitalizing our naval 
amphibious competency which will lead to full scale Marine 
Expeditionary Brigade (MEB)-level amphibious exercises. We are 
developing the capability to conduct large-scale MAGTF exercises within 
a joint, interagency, and coalition context. We are engaged in training 
and education programs to build the capacity of allied and partner 
nations, as well as developing the cultural and language ability of our 
own force, which allow us to shape the environment and execute our 
mission more effectively. The Marine Corps is enhancing training 
capabilities gained for the current fight in COIN Operations, Civil-
Military Operations, Advisor Training, Urban Operations, Intelligence 
Fusion, and Information Operations in order to better employ our forces 
across the full range of military operations.
    The third area, modernization of the force, speaks more directly to 
the question of prudent long-term investment. We are committed to 
providing marines and sailors with the very best warfighting equipment 
and capabilities with which to train and fight so that they are ready, 
relevant, and capable. Sustaining current operations requires the 
Marine Corps to ``modernize on the march'' by replacing gear consumed 
in combat while fielding next-generation technology. We are providing 
our warfighters with the best personal protective equipment--including 
light body armor, lightweight helmets, and flame-resistant 
organizational gear--and continue to procure Mine-Resistant Ambush 
Protected (MRAP) vehicles and up-armored High-Mobility Multi-Purpose 
Wheeled Vehicles (HMMWVs) for current operations while investigating 
lighter weight MRAPs and Light Tactical Vehicles (LTVs) to better 
support our expeditionary posture. We are moving ahead with programs to 
improve our fire support; intelligence, surveillance, and 
reconnaissance (ISR); and command and control capabilities. The 
majority of Marine Corps aviation assets are legacy airframes that are 
no longer in production, and aircraft procurement programs for the MV-
22, KC-130J, F-35B, UH-1Y, AH-1Z, and CH-53K are critical to the MAGTF 
of the future.
    Right-sizing, training, and modernization are mitigating our near-
term operational risks while providing for the long-term investment 
that will build the balanced MAGTF--America's 911 force--to meet the 
demands of the future security environment.
    General Chiarelli. The Army does not have control over operational 
demand, but has improved our ability to meet the demand we are 
experiencing now and anticipating in the future. With national 
leadership support, our Army has achieved our manpower growth goals in 
all components during 2009, although we will not complete growing the 
number of BCTs to 73 (45 Active component and 28 Reserve component) 
until 2011. This growth in the force, combined with reduced operational 
deployments from 15 months to 12 months, has eased some of the strain 
on soldiers and families.
    To rebuild our force, we are providing additional support to 
soldiers and families; repairing, replacing, and recapitalizing 
equipment; and retraining soldiers. In the effort to transform our 
force, we have converted 83 percent of our units to modular formations, 
accelerated delivery of advanced technologies, kept Base Realignment 
and Closure and restationing on schedule, and developed relevant 
doctrine for leaders to operate effectively in joint, interagency, 
intergovernmental, and multinational environments. We are continuing 
efforts to build and sustain Reserve component readiness and to 
increase predictability of deployments for soldiers, their families, 
employers, and communities.
    The Army has sufficient support in the fiscal year 2010 President's 
budget to meet projected operational demand and to rebuild and 
transform the force--all while preserving our All-Volunteer Force.

                            strategic depth
    6. Senator Bayh. General Chiarelli, General Schoomaker used to talk 
a lot about restoring the strategic depth of the Army. He first spoke 
of it several years ago and I wonder if we are any closer today than we 
were then. For example, a field artillery unit could feasibly report 
C4, yet then deploy to conduct convoy security operations. While they 
will likely perform that mission with success, it is a directed 
mission, not their core function. Is it possible to achieve given the 
current pace of deployments? If so, how?
    General Chiarelli. Strategic depth is the Army's ability to 
prosecute another contingency operation. This requires the force to be 
full spectrum capable. Currently, demand is exceeding the Army's supply 
and we are consuming readiness as quickly as we can provide it to the 
force. Additionally, unit dwell time has only permitted time for units 
to train on COIN or their directed mission. The Chief of Staff of the 
Army's guidance is that units with at least 18 months of dwell utilize 
90 days to focus on conventional tasks-combined with the COIN skill 
sets enable units to be full spectrum ready. Units with less than 18 
months of dwell remain focused on training to their COIN/directed 
mission. Rebalancing the Army, coupled with a decrease in global demand 
will provide units and soldiers more dwell time to train for full 
spectrum operations, thus restoring the Army's strategic depth-enabling 
the Army to meet the challenges of the uncertain future. In order to 
meet the dwell requirement that will allow us to rebuild strategic 
depth, boots on the ground (BOG) to dwell will need to be 1:3 for the 
Active component and 1:5 for the Reserve component.

    7. Senator Bayh. General Amos and General Chiarelli, if the 
preparedness of our forces has come at the expense of strategic depth 
for some potential future missions, how does this affect our National 
Military Strategy (NMS) and our ability to respond to various operation 
plans and unforeseen domestic disasters? What level of risk are we 
accepting by doing so?
    General Amos. The Marine Corps' ability to respond to other 
contingencies outside of the CENTCOM area of operations is facing 
increased risk due to degraded home station readiness and a limited 
ability to adequately train for the full spectrum of operations due to 
the demand for Marine forces. The military risk to our NMS is that the 
Marine Corps may not have the people, equipment, or training at the 
right place and time to meet combatant commanders' needs. The Marine 
Corps' ability to meet operational plan timelines could be delayed, 
possibly resulting in an increased loss of life to friendly forces.
    General Chiarelli. Preparedness or readiness for full spectrum 
operations provides our strategic depth. The Army ascribes to creating 
general purpose combat forces that can operate across the spectrum of 
conflict from disaster relief and peace keeping operations to general 
war. Currently, unit dwell time is only sufficient for units to train 
on COIN/directed mission and not conventional tasks. Although the 
required tasks we ask of our soldiers in irregular warfare and COIN 
operations are applicable across the spectrum of conflict, there is 
some conventional training not being conducted for other operational 
themes on the spectrum of conflict. The Chief of Staff of the Army 
guidance is that units with less than 18 months of dwell remain focused 
on training to their COIN/directed mission. Units with at least 18 
months of dwell utilize 90 days to focus on conventional tasks and 
remainder on the COIN/directed mission. The Army maintains a global 
reaction force that could be committed to an emerging contingency. 
Rebalancing the Army, coupled with a decrease in global demand will 
provide units and soldiers more dwell time to train for full spectrum 
operations, thus restoring the Army's strategic depth and increasing 
our ability to respond to an uncertain security environment. Until 
then, given the lower readiness of our next-to-deploy forces in full 
spectrum operations, it could take longer to execute contingency plans 
in accordance with planning timelines. In such cases, joint 
capabilities will mitigate those ground force capabilities delayed by 
force generation timelines. The Army can respond to domestic disasters 
and has designated units prepared to execute this mission.

    8. Senator Bayh. General Amos and General Chiarelli, given the 
current operating environment and focus of training on preparing for 
ongoing operations, how does the Army and Marine Corps plan to maintain 
the full spectrum of combat skills that could be needed if it was 
called upon to respond to a crisis outside of Iraq or Afghanistan?
    General Amos. Our Training and Education Continuum for both current 
and future operations begins with entry level training, ascends through 
formal schools, home station training, Professional Military Education, 
and culminates with a final unit Pre-Deployment Training Program 
assessment. This ascending-levels-of-competency approach allows marines 
of all ranks to be trained at the right level, at the right time, and 
the right place. To maintain the full spectrum of combat skills, the 
Marine Corps is developing a MAGTF Training Program that includes 
individual, unit and MAGTF component training, and integration with 
joint, interagency and multinational organizations in order to prepare 
multi-capable MAGTFs for expeditionary operations against hybrid 
threats in complex environments.
    General Chiarelli. The Army has adopted a warfighting doctrine (FM 
3-0, Operations) that recognizes contemporary operations require a 
balance of offense, defense, and stability operations, regardless of 
where they occur along the spectrum of conflict. At the same time, the 
Army has re-designed our approach to training so that units build 
general proficiency in the fundamental tasks required of full spectrum 
operations (i.e. offense, defense, and stability operations). 
Proficiency in full spectrum operations conducted in Iraq or 
Afghanistan provides a foundation from which units will be able to 
quickly prepare for full spectrum operations in another theater or for 
different points on the spectrum of conflict. Additionally, the Army 
has published training guidance which, as time between deployments 
increases, requires units to initially spend time training on 
fundamental tasks for full spectrum operations focused more broadly 
than the specific mission they have been given. Furthermore, the scope 
of Army professional military education continues to prepare leaders 
for operations anywhere along the spectrum of conflict. Finally, the 
Army has embraced adaptability as an important capability of our force 
generation process. Once a mission requirement is identified the Army 
works diligently to support unit preparations by using mobile training 
teams and distributed learning to fill any locally unavailable 
shortcomings.

    9. Senator Bayh. General Amos and General Chiarelli, have you 
analyzed the extent of skill degradation given the shift in focus and 
the time it will take to rebuild and retrain?
    General Amos. Yes, our Marine Forces Command (MARFORCOM) has 
conducted a study analyzing the extent of core skill degradation and 
time to retrain for several unit types. Currently, our Training and 
Education Command is sponsoring a Training Reset Study, which, when 
completed in February 2010, will provide a recommended training posture 
for the future.
    General Chiarelli. Yes; our analysis was based on interviews and 
feedback from officers and NCOs, and senior leaders in the field. It 
has been a number of years since our forces have had the time to train 
on the broader range of operations across the spectrum of conflict, 
rather than only on the current fight. force modularity has contributed 
to the broader capabilities of our units. As the Army continues to 
reduce forces in OIF, we eventually expect to realize a modest increase 
in time that units have for training between deployments with 
corresponding improvement in skill degradation. As units experience 
more time between deployments they can address skill degradation 
through reinvestment of our combat experienced soldiers and leaders, a 
doctrine that instills the broader focus associated with full spectrum 
operations, and a progressive combined arms training strategy that 
rapidly rebuilds and retrains our units following combat rotations.

                department of defense performance report
    10. Senator Bayh. General Amos and General Chiarelli, last month 
the Department released the Fiscal Year 2008 Performance Report where 
it assessed the strategic goals and objectives of the 2006 Quadrennial 
Defense Review. Of the five goals, goal #3, reshape the defense 
enterprise, evaluated the readiness of the Armed forces. The report 
rated Army land forces readiness as ``effective, last evaluated in 
2004'' while Marine Corps expeditionary warfare was rated as only 
``moderately effective, last evaluated in 2006''. Do you have any 
updates to this report and how it affects your overall readiness?
    General Amos. The Marine Corps is based on an expeditionary 
mindset--providing MAGTFs that are fast, austere, and lethal. The 
ability to deploy rapidly to any clime and place and commence 
operations with minimal existing infrastructure is one of the primary 
reasons the Marine Corps is ideally suited for the Afghan theater.
    Seven years of sustained land combat have degraded the Corps' 
critical core competencies. The Marine Corps expeditionary capability 
depends upon our amphibious nature and combined arms integration as 
much as our ability to deploy via strategic lift. Our readiness levels 
in our traditional core competencies have clearly decreased, primarily 
driven by the high OPTEMPO and demands of operations in Iraq and 
Afghanistan. It is accurate, then, to describe our expeditionary 
warfare capabilities as `moderately effective' since two key pillars of 
that capability have been severely limited.
    The Marine Corps maintains amphibious capability primarily through 
the regular deployment of Marine Expeditionary Units (MEUs). This 
trains one battalion, squadron, and logistics combat element at a time, 
but does not provide the same experience needed to coordinate a 
brigade, or larger, sized amphibious assault. We have attempted to 
maintain a core of trained leaders via professional military education, 
and through involvement with amphibious exercises and studies sponsored 
by the Expeditionary Warfare Training Group-Atlantic. With a decrease 
in demand in CENTCOM and an increase in dwell time, the Marine Corps 
will be able to provide amphibious operations training to those units 
and higher headquarters organizations that have not had those training 
opportunities in the recent years.
    As we accomplish the Corps' end strength growth, continue the reset 
and modernization initiatives, and achieve balance across our three 
Marine Expeditionary Forces, our ability to train and regain our core 
competencies will be enhanced. This in turn will improve the readiness 
of the Marine Corps.
    General Chiarelli. The 2004 Program Assessment Rating Tool (PART) 
evaluation of Army Land forces Readiness was the source for the fiscal 
year 2008 Performance Report effective rating. The PART was developed 
by the Office of Management and Budget (OMB) in 2002 to assess and 
improve program performance so that the Federal Government can achieve 
better results. A PART evaluation helps identify a program's management 
strengths and weaknesses to inform decisions to make the program more 
effective. The PART looks at all factors that affect and reflect 
program performance including purpose and design, strategic planning, 
program management, and program results.
    The 2004 assessment was the last full PART evaluation completed by 
OMB for Army Land forces Readiness. The Army provides semi-annual 
updates to the budget and performance results for this program. The 
semi-annual updates do not include updates on program purpose and 
design, strategic planning, and program management. OMB is currently 
revising guidance on performance measurement and the use of PART 
evaluations of Army programs.
    The Army Land forces Readiness program contributes to the live and 
virtual training that units complete at home station and combat 
training centers. The primary PART performance measure tracks the 
OPTEMPO program execution. Execution of OPTEMPO enables units to 
achieve a high level of readiness, sufficient to prepare them for COIN 
operations. OPTEMPO is measured using an annual mile metric for 
training performance and establishes the baseline metric (miles) units 
execute each year in order to maintain combat proficiency.
    The Army continues to train effectively to meet current operational 
requirements, as reflected in the fiscal year 2008 Performance Report 
rating as ``effective, last evaluated in 2004.''

                        funding reset operations
    11. Senator Bayh. General Amos and General Chiarelli, I believe our 
depots and arsenals are a national treasure and provide with a truly 
unique capability critical to our national security and the workers 
there continue to do a tremendous job. Since the wars in Iraq and 
Afghanistan have begun, reset operations have been funded mainly in the 
supplemental. This trend frankly disturbs me because for several years 
now the Services have underfunded their annual depot maintenance 
requirements and punted them to the supplemental. We will need to fully 
fund reset for years after we are out of Iraq and Afghanistan. When 
will the Army and Marine Corps fully fund reset operations into the 
base budget request?
    General Amos. Reset costs have not been in the baseline budget 
because both Congress and OSD have generally agreed that war related 
costs should be a part of supplementals. As part of that trend, our war 
related cost depot maintenance funding requirements for fiscal year 
2010 are included in our fiscal year 2010 Overseas Contingency 
Operations (OCO) request. Because we are resetting equipment to support 
current and future combat needs we're committed to fully funding our 
depot maintenance requirements to ensure that we Reset and Reconstitute 
the force as quick as possible. I would strongly advise against trying 
to fund both our Rest and Modernization effort within the current 
baseline budget funding levels, especially while we're still fighting. 
To do so would put at risk our ability to recover from this conflict at 
the expense of modernization necessary to meet future threats.
    General Chiarelli. The Army expects that our reset requirements 
will be in the range of $13 to $14 billion per year as long as we have 
forces deployed and for 2 to 3 years thereafter to ensure readiness for 
the future. Reset is a cost of war and therefore we expect that our 
reset requirements will not integrate into the base budget until 2 to 3 
years after the end of the war and forces redeploy. Beyond that 
timeframe, the extent to which reset will be funded in the base budget 
will be determined through future administration and congressional 
guidance.

    12. Senator Bayh. General Amos and General Chiarelli, are the Army 
depots and Marine Corps logistics bases operating a full capacity and 
are they experiencing any backlogs or constraints with respect to their 
throughput capability to repair equipment?
    General Amos. We're not operating at full capacity, but that's 
mostly because we don't have all our equipment back yet. We're prepared 
and committed to ensuring that the depots are funded to meet the 
increased demand caused by the coming retrograde of our equipment from 
Iraq.
    We do have several constraints that we've addressed in our fiscal 
year 2010 Unfunded Programs List. These include our capacity to offload 
equipment at Blount Island Command and process it for transportation to 
our depots. There are four projects worth $40 million that would help 
us increase capacity and speed this transition effort. In addition, 
we've highlighted one vehicle repair facility in need of improvements 
at Marine Corps Logistics Base, Barstow that could also expand our 
capacity to quickly repair combat vehicles.
    General Chiarelli. None of the Army's depots are operating at full 
capacity. The depots' current production rates are based on the rate of 
return of equipment from theater and the Army's need to equip units for 
training and deployment. The depots can increase production if the rate 
of equipment return accelerates.
    The only above normal depot maintenance backlog is approximately 
500 Medium Tactical Vehicles. This backlog is not due to depot 
capacity; it is due to repair parts shortages. The repair parts issues 
are being worked with the manufacturer and the backlog will begin to 
reduce starting in June 2009.

    13. Senator Bayh. General Amos and General Chiarelli, recently 
Congress received the fiscal year 2009 supplemental request which asks 
for $11.6 billion to reconstitute the force in addition to the $11.6 
billion from the fiscal year 2009 bridge appropriation. Are the amounts 
requested by the Army and Marine Corps sufficient and executable by the 
depots and logistics bases or do you require additional resources?
    General Amos. The Marine Corps' reset and reconstitution funding 
requests in the fiscal year 2009 and fiscal year 2010 OCO are 
sufficient and executable by our depots.
    General Chiarelli. The Army's fiscal year 2009 supplemental request 
of $13.3 billion is sufficient and executable. Our industrial base, 
depots and original equipment manufacturers have the capacity and 
resources to accomplish our Reset requirements.
    The Army requested $13.3 billion for Reset as a part of the fiscal 
year 2009 Supplemental Request. This is comprised of $7.9 billion for 
Operations and Sustainment funds as well as $5.4 billion for 
Procurement. As part of the fiscal year 2009 Bridge Supplemental, the 
Army received $9.8 billion for Reset; $7.9 billion for Operations and 
Sustainment, but only $1.9 billion for Procurement.
    The Army has requested the remaining $3.5 billion for Reset 
Procurement in the fiscal year 2009 Main Supplemental. This request 
funds the remaining procurement of battle losses/washouts.

                          reset pilot program
    14. Senator Bayh. General Chiarelli, last year the Army began the 
Reset Pilot program which aimed to validate the reset process and 
restore capabilities of eight Active component BCTs and five Reserve 
component BCTs returning from deployment. Last year, Daniel Egbert, the 
force Management Program Manager for G-3 and lead integrator for the 
reset pilot said, ``Standardizing the reset processes is key to 
restoring balance in the Army and maintaining the quality of 
capabilities the Army provides the Nation.'' Has the Reset Pilot 
program succeeded in this regard, and what is the standard for reset?
    General Chiarelli. The Reset Pilot has been a success. The Reset 
Pilot was established in order to implement a process Army-wide to 
restore deployed units to a level of personnel and equipment readiness 
that permits resumption of training for future missions and identify 
how the Army institution needed to adapt to support units in ARFORGEN. 
The Army developed a set of metrics to track execution of tasks while a 
unit is in Reset. The fiscal year 2008 and fiscal year 2009 pilot units 
have demonstrated that accomplishing reset tasks sets the conditions 
for unit manning and equipping and affords time for the soldiers to 
begin to focus on individual and collective training. The Reset Pilot 
efforts continue to focus on sustaining the supply of ready forces to 
the combatant commanders while the Army adapts our institutional 
systems and processes to make future reset efforts more effective and 
efficient.

    15. Senator Bayh. General Chiarelli, how will the Army plan and 
implement reset as a standard practice?
    General Chiarelli. Headquarters, Department of the Army (HQDA) 
established a Reset Pilot to implement a process Army-wide to restore 
deployed units to a level of personnel and equipment readiness that 
will permit resumption of training for future missions. The success of 
the 30 units in the fiscal year 2008 and fiscal year 2009 Reset Pilots 
has demonstrated that reset tasks can be accomplished, and that 
execution of those tasks facilitates the building of unit readiness. 
Many of the ``best business practices'' realized by the pilot units 
have already been applied to the rest of the Army through publication 
of follow on HQDA directives, effective on January 15, 2009. Soon the 
Army will publish its new Readiness regulation which will codify reset 
reporting requirements for all Army units.

    16. Senator Bayh. General Chiarelli, has the pilot program been 
independently certified or was this purely an Army decision?
    General Chiarelli. General Casey began his tenure as the Chief of 
Staff, Army by identifying four imperatives by which the Army will 
achieve balance by 2011. The Reset Imperative was independently 
developed by the Army Staff as a mechanism to prepare our soldiers, 
families, units, and equipment for future deployments and other 
contingencies. Reset Pilot efforts continue to focus on sustaining the 
supply of ready forces to combatant commanders while the Army adapts 
institutional systems and processes to make future force Generation 
efforts more effective and efficient.

    17. Senator Bayh. General Amos, as you know the Marine Corps takes 
almost an entirely opposite approach from the Army when it comes to 
reset, favoring approximately a 90 percent procurement and replacement 
strategy versus a 10 percent reset strategy. Does the Marine Corps 
intend to continue in this manner of procurement versus reset strategy?
    General Amos. The Marine Corps does have a different approach to 
reset (repair/replace) than the Army as a result of the service's 
employment of forces. When OIF began, the Marine Corps ground equipment 
inventory was not designed to equip or sustain the unique demands of a 
7-year land war. As a result, the Marine Corps efficiently managed 
inventory by maintaining unit sets of equipment in theater at the 
expense of home station units and strategic programs. There was not 
enough equipment to rotate 100 percent of the forward deployed 
inventory, therefore the service relied upon unit maintenance, 
contractor support, Army maintenance capabilities in theater, and 
selective rotation of equipment for depot maintenance. As a result, the 
bulk of equipment deployed to OIF has been in combat for an extended 
period of time.
    Initially, the Marine Corps relied more heavily on procurement for 
reset. Today, as the Marine Corps continues to execute reset, every 
piece of equipment redeploying from OIF is deliberately inspected to 
determine the appropriate reset action. Once inspected, equipment is 
repaired, replaced, or in some cases, receives no reset at all. The 
Marine Corps reset strategy remains flexible in order to maintain and 
sustain the demands for equipment and ensure that we are postured for 
the uncertainty of the future.

    18. Senator Bayh. General Amos, what is the strategy with respect 
to forces in Afghanistan?
    General Amos. The Marine Corps will continue to rotate our forces 
in Afghanistan and fall in on equipment sets maintained in theater. Our 
force deployment and equipping strategy is no different in Iraq, and 
will be even more appropriate in Afghanistan. The logistics of moving 
equipment in and out of Afghanistan is much more challenging than Iraq, 
since Afghanistan is a land locked country with a primitive 
infrastructure, extreme weather, and difficult terrain. Combined with a 
highly kinetic environment, we believe this strategy is the right 
approach to managing our forces and equipment.

          afghanistan agriculture and counter-drug operations
    19. Senator Bayh. General Amos and General Chiarelli, last month in 
his testimony before the Senate Armed Services Committee, General 
Petraeus commented on the importance of the National Guard agricultural 
teams operating out of Bagram Airbase in Afghanistan. Their mission to 
provide Afghan farmers with alternatives to poppy is critical to 
success there. How are these teams structured, trained, and supported 
in order to fulfill CENTCOM's requirements?
    General Amos. The Marine Corps does not have agricultural teams in 
its inventory.
    General Chiarelli. The primary mission of the Afghan Agri-business 
Development Teams (ADTs) is to bridge to future expanded interagency 
support, from the U.S. Department of Agriculture (USDA) and United 
States Agency for International Development (USAID). The teams partner 
with USDA, USAID, and other agencies to ensure maximum use of resources 
and deconfliction of projects. Teams are composed of 34 security forces 
soldiers, 10-person agriculture teams with specialties in marketing, 
soil, agronomy, horticulture, animal husbandry, and food processing. 
The rest of the team is a headquarters element with combat medics, 
mechanics, and engineers. The teams train in their home State then 
deploy to Camp Atterbury, IN, for more formal training prior to theater 
deployment. The ADTs are operationally-controlled by the brigade level 
task force with administrative control by the Provincial Reconstruction 
Team (PRT).

    20. Senator Bayh. General Amos and General Chiarelli, what is their 
operational footprint and how do they fit into CENTCOM's increase of 
forces and what resources do they require?
    General Amos. The 2nd MEB has requested a National Guard ADT in 
order to assist in the development of licit crops and a robust 
agribusiness in Helmand Province. The development of a robust and licit 
agriculture sector is essential to the long-term success of our efforts 
in Regional Command-South. MEB operational planning identified this 
need and articulated it in message (S) DTG 281442Z Apr 09.
    General Chiarelli. There are currently six operational teams 
deployed in Regional Command-East and Central with three in each 
command. Two additional teams will deploy and become operational this 
fall. One of the two new teams is designated for Regional Command-
South, while the other is slated for Regional Command-East. Each ADT is 
comprised of 58 soldiers and airmen from a particular State, and all 
are volunteers. The team is commanded by a Colonel. However, the ADT is 
operationally controlled by the BCT Task Force (TF) Headquarters in 
that region. Each ADT is assigned to a particular province to support 
the BCT TF's area of responsibility and works out of a designated 
Forward Operating Base (FOB). The ADT is usually collocated with a PRT 
and together these teams share in the day-to-day routine of securing 
the FOB, maintaining vehicles and equipment, and synchronizing their 
efforts to ensure mission success. The ADT requires similar resources 
as the PRT, to include various classes of military supply from food to 
fuel and ammo to medical and Close Air Support on call when required.

    21. Senator Bayh. General Amos and General Chiarelli, since poppy 
plants themselves are not illegal, would these teams ever consider 
buying them directly from Afghan farmers instead of the Taliban drug 
trade, thus cutting off their supply source?
    General Amos. We recommend that this answer be referred to the 
Joint Staff.
    General Chiarelli. A decision to directly purchase poppy plants 
from Afghan farmers should be addressed by other Federal agencies. The 
National Guard Afghan ADTs are not involved in the direct Poppy 
Eradication mission in Afghanistan. The mission of the ADT is to 
provide Afghan farmers with alternative livelihoods. The ADT 
operational objectives are: to improve access to technology, capital, 
market access, and to restore irrigation and crop land capacity. Other 
key objectives include food storage, food supply and conservation 
practices. It is imperative for the long term success of the teams that 
we focused on this mission.

    22. Senator Bayh. General Amos and General Chiarelli, what 
alternatives to poppy are they providing Afghan farmers?
    General Amos. USAID reports cumulative results from 2002-2008 as 
follows:

         Over 1,500 Metric tons of fruit and vegetable exports valued 
        at $6 million in sales
         Over 30,000 farmers under legal farming contracts
         Over 300 rural farm stores/Agricultural depots established
         National and regional market information system established
         Over 3.2 million forestry cuttings, saplings, and fruit trees 
        planted
         58 Kabul university students involved in masters degree 
        programs
         Over 240,000 Afghan farmers trained benefitting 90,000 
        families
         Almost 300,000 Afghans paid cash-for-work programs totaling 
        $37 million
         Over 5700km of irrigation and drainage canals rehabilitated 
        benefitting 250,000 hectares
         977km of rural roads constructed
         Over 414,000 farmers have received improved seeds and 
        fertilizer

    These are interesting statistics that show promise given security 
and stability but do not address the untamed Regional Command-South 
battlespace where the Marine MEB will operate. A good example is the 
2008 deployment of 24 MEU and 2d Bn 7th marines. While 2/7 was brought 
to Afghanistan to ``train and mentor,'' neither environmental 
conditions nor density of Afghan National Security Forces (ANSF)/Awami 
National Party (ANP) allowed them to execute this task; they conducted 
a combat mission. Twenty four MEUs were brought for combat and 
conducted combat until conditions allowed for community outreach at 
which time traditional COIN principles applied including a civil 
military operations center and opportunity for USAID engagement. This 
is how we see the next year in Regional Command-South. Security must 
come first concurrent with adequate numbers of partnered ANSF and 
mentored ANP, then relationships with local leaders, then we'll be able 
to address alternative crops. After action from 24 MEU, 2/7, and now 
Special Purpose MAGTF Afghanistan all point towards a willingness by 
the local Afghan population to accept alternative crops once the threat 
of retribution from autonomous Taliban and narco-traffickers subsides 
due to coalition operations and continued presence.
    General Chiarelli. The ADTs deploy out to provincial level to 
identify and promote access to local and regional markets. The ADTs 
successfully provide the Provincial Agri-business extension agents with 
structured agricultural technical advice establishing a functional 
extension based service to the local farmers, plan, build, and provide 
sanitary livestock slaughtering facilities. Additionally, the teams 
expand irrigation capacity and technology in the local river basins 
within assigned provincial areas. Each team establishes a demonstration 
farm showcasing advanced farming techniques, equipment and technology. 
Utilizing these methods provide Afghan farmers different livelihoods 
and the potential to increase efficiency and profit.

    23. Senator Bayh. General Amos and General Chiarelli, what about 
the possibility of introduced biofuel crops or establishing an industry 
that could grow and boost the Afghan economy?
    General Amos. We would support any viable crop program or industry, 
endorsed by the interagency, that could grow and boost the Afghan 
economy.
    General Chiarelli. The goal of producing bio-fuel crops or 
establishing a bio-fuel industry in Afghanistan is a worthwhile goal. 
The production of petroleum fuels from biomass from agricultural and 
forest resources have potential, but there are many obstacles must be 
overcome. The farmers of Afghanistan face incredible challenges: 
soaring or fluctuating prices for food, seeds and other supplies; 
outdated technology; unfavorable or limited access to markets and 
financial services; and poor soil and water resource management.
    The establishing of viable genomics platforms and conversion 
technologies for bio-fuel crops is now being done in the United States. 
However, essential elements needed for the large scale production of 
biomass from agriculture have yet to be addressed: the logistics of 
producing, harvesting, transporting, and storing this material require 
significant improvements in the infrastructure of Afghanistan. Issues 
such as electricity, road networks, land availability, equipment 
technologies, seed stocks availability, logistics, producer acceptance, 
and progress on cellulose conversion technologies will determine if 
bio-fuel crops are a viable alternative for agriculture in Afghanistan.
    In addition, dedicated energy crops compatible with sustainable 
agriculture practices must be identified. Research would be required to 
optimize production and logistics capabilities for dedicated nonfood 
bio-energy crops, as well as agricultural residues, forest products, 
municipal waste, and other sources. Small scale bio-fuel projects done 
as a cooperative effort between groups of agriculture producers might 
be a viable alternative at this time.

                        use of reserve component
    24. Senator Bayh. General Amos and General Chiarelli, as I 
understand, land and space for military training ranges remain at a 
premium. How will the Army and Marine Corps handle this constraint in 
the context of the growth of our ground component forces?
    General Amos. The Marine Corps relies on an extensive portfolio of 
range resources to meet its training needs. This portfolio includes our 
major training bases at its core. We also rely extensively on other-
Service ranges for training, and as appropriate make use of land 
managed by other Federal agencies such as the Bureau of Land Management 
(BLM). Increasing demands are, in fact, being placed on available 
training land. Over the last several decades, the operational 
capabilities and reach of our forces have evolved significantly with 
the introduction of new doctrine, weapons and systems, and associated 
tactics, techniques, and procedures. This has resulted in a steady 
expansion of the training footprint necessary to provide realistic 
training. At the same time, requirements to utilize Marine Corps 
installations land for infrastructure development such as housing and 
facilities, and external constraints on land uses due to encroachment, 
have continued to reduce available training land. Marine Corps 
installations are managed to maximize efficient use of training land 
and resources. In the past decade, the Marine Corps has made 
unprecedented investments in range sustainability programs, to ensure 
our lands remain available and accessible for training. We have also 
continued to invest in range modernization programs to ensure our 
marines are trained using state-of-the-art ranges and training 
technologies. However, deficits in available training land currently 
exist at many of the Marine Corps' operational ranges, as well as at 
ranges of other Services that are used by the Marine Corps. These 
shortfalls present important challenges that remain to be addressed. 
Many of our installations cannot be expanded, due to surrounding 
development. These geographical constraints, as well as fiscal 
constraints will prevent the Marine Corps from addressing shortfalls in 
training land. The Marine Corps will continue to rely on the resources 
it has and access to other Services' and allied nations' ranges to meet 
most of its training needs. We will also examine opportunities to 
acquire the additional resources needed to accommodate planned growth.
    General Chiarelli. The Army continuously evaluates its land 
requirements against doctrine, force structure, and unit stationing. 
Units at most Army installations are currently training across areas 
that are considerably smaller than the areas they might be assigned for 
operations based on doctrine, or that they are required to operate 
across in Iraq and Afghanistan. In an attempt to improve training 
capabilities, the Army seeks opportunities to acquire land where it 
appears feasible to do so. Feasibility is based on the availability of 
large, contiguous parcels adjacent to, or near, major Army training 
installations, low land costs, low population density, and few 
environmental issues. However, the Army's existing lands are 
increasingly encroached upon, further reducing the usefulness for 
training. External urban growth often comes up to installation 
boundaries. Internal environmental compliance reduces land available 
for training. Therefore, in addition to acquisition, the Army also 
implements other strategies to handle these constraints:
Focused management
    Land shortfalls can be addressed using internal Army or Federal 
Government mechanisms. An example of this approach can be seen at Fort 
Bliss, where the Army reassessed the traditional relationship between 
the Fort Bliss mission and the White Sands Test Range mission to enable 
more training activities on the White Sands Range, and thereby mitigate 
training burdens on Fort Bliss lands.
Buffering through Partnerships
    Army Compatible Use Buffers (ACUBs) allow the Army to preserve or 
enhance an installation's current training land capabilities by 
minimizing encroachment. This is accomplished through partnerships that 
secure off installation land-use agreements that are compatible with 
Army training mission. ACUBs serve to insulate Army training from 
encroachment and can be used to reduce environmental restrictions to 
training.
Utilization of other Federal lands
    The Army examines the land status of other Federal entities to 
mitigate land deficits at Army installations. Land that borders Army 
installations, and is held by the BLM, Department of Energy or Forest 
Service, may be transferred or made available to the Army after a 
comprehensive approval process that includes National Environmental 
Protection Act and other public reviews. Both Fort Carson and Fort Polk 
utilize U.S. Forest Service lands under a special use permit.

    25. Senator Bayh. General Amos and General Chiarelli, how has the 
Active component of the Army and Marine Corps leveraged training ranges 
in the Reserve component, especially for urban training?
    General Amos. The Reserve component of the Marine Corps does not 
have its own range inventory. Marine Corps Reserve units utilize the 
same Marine Corps installations used by their Active component 
counterparts to meet training requirement. Marine Corps units in both 
the Active and Reserve components also make extensive use of other-
Service training ranges (including training ranges of other Services' 
Reserve components). Reserve units also access training opportunities 
afforded by local law enforcement facilities, or allied nations' ranges 
in the course of major exercises. Many of these ranges provide 
facilities for training in Military Operations in Urban Terrain which 
are generally available to the Active component and Reserve component 
on the same basis.
    General Chiarelli. The Army's urban training strategy is focused on 
providing a home station capability that enables individual and 
collective skills. The term ``home station'' includes local training 
sites for Reserve component units as these units do not typically 
conduct maneuver training and live fire qualifications at home station 
armories. Along with home stations, the Army must modernize its Combat 
Training Centers and power projection/mobilization centers to provide 
critical urban training capabilities for the appropriate levels of unit 
readiness.
    Training ranges and urban facilities are critical to mission 
readiness as the Army transforms. Since 2000, the Army has embarked on 
a basic facility construction plan to create a minimum set of urban 
conditions at Army home stations that will prepare soldiers to conduct 
missions in urban environments. The Army provides three standard urban 
training facilities at home stations: Shoot Houses (SHs), Urban Assault 
Courses (UAC), and Combined Arms Collective Training Facilities 
(CACTF). These three types of facilities provide the necessary 
conditions to train soldiers individually and collectively on the 
fundamentals of operating in an urban environment. Since 2000, the Army 
has constructed 26 SHs, 24 UACs and 24 CACTFs at 30 installations.
    An example of a converted urban training facility in the Reserve 
component is the Muscatatuck Urban Training Center (MUTC). Muscatatuck 
was developed in conjunction with the State of Indiana as a large urban 
training site that leveraged existing buildings that were once a large 
hospital complex. The Muscatatuck site supports Camp Atterbury Reserve 
component urban training requirements while also providing a unique 
training venue for other Army units, joint exercises, and other Federal 
and local agencies. Using careful planning, Muscatatuck illustrates how 
Army can fulfill Reserve component home station and mobilization 
requirements while leveraging a unique infrastructure opportunity. The 
Army has nominated the MUTC as a DOD Regional Training Facility in 
accordance with OSD's Urban Operations Training Strategy.
                                 ______
                                 
               Questions Submitted by Senator Mark Udall
       afghanistan security force assistance and core capability
    26. Senator Udall. General Chiarelli, it is my understanding that 
General Casey has recently halted the Army's plan to replace the 
percent Effective (PCTEF) level with Directed Mission Level, or D-
Level, and Core function reporting, or C-Level. Additionally, 
Lieutenant General Caldwell recently announced eight Army brigades will 
be tapped to become AABs under the umbrella of SFA. Do you believe we 
have the right mission essential tasks lists (METLs) in keeping with 
full spectrum operations, and what is the SFA and AAB doctrine with 
respect to specific mission requirements and characteristics?
    General Chiarelli. Plans to implement Army unique D-level reporting 
requirements that would translate into the PCTEF levels required by the 
Joint Staff have been placed on hold until the relation and linkages 
between operational doctrine, training doctrine, and readiness 
reporting policy can be reexamined during a series of senior leader 
conferences this summer. Army doctrinal METLs enable units to perform 
fundamental tasks associated with full spectrum operations (offense, 
defense, and stability tasks) to provide the foundation for successful 
execution of any mission, to include BCTs that are to serve as AABs. 
Training doctrine requires unit commanders to adjust their doctrinal 
METL, if required, to zero in on specific requirements and conditions 
of an assigned operational mission. SFA/AAB units are no exception.
    Army Regulation 11-31, Army International Security Cooperation 
Policy, establishes policy and prescribes responsibilities and 
procedures for the planning, integration, programming, budgeting and 
execution of Army security cooperation activities.
    The CAC, Fort Leavenworth, KS, is the Army proponent for all 
doctrine related to SFA and in May 2009 published FM 3-07.1, Security 
Forces Assistance to provide a conceptual framework for Army forces to 
conduct SFA within the context of full spectrum operations. It 
addresses the operational and tactical levels while focusing on the 
modular brigade in the conduct of SFA activities.
    The doctrine of FM 3.07-1 is nested within that of FM 3-07, 
Stability Operations, published by CAC in October 2008.
    CAC is also responsible for the DOD Joint Center for International 
SFA and, in July 2008, published the Commander's Handbook for SFA to 
distill and distribute best practices and lessons learned from current 
SFA operations in Afghanistan and Iraq.

    27. Senator Udall. General Chiarelli, I am also concerned that we 
have not made any adjustments with respect to overall end strength to 
accommodate the new mission of SFA on by these AABs. For example, do 
you envision needing more than eight AABs?
    General Chiarelli. The combatant commander determines the 
appropriate number of Advise Assist Brigades (AABs) required for the 
theater. However, because the AAB is built using the modular BCT that 
is simply augmented for stability operations, the Army can create more 
with proper levels of augmentation and resourcing. The Army's BCTs are 
designed specifically to adapt to a changing security environment 
rather than specialized for a single point on the spectrum of conflict. 
Growing the Army for a specific mission limits the Army's ability to 
operate across the spectrum of possible operations. However, a BCT 
augmented for SFA retains the capability to conduct full spectrum 
operations--offense, defense, and stability operations. Any of the 
three modular BCTs--heavy, infantry, or Stryker, can support SFA. The 
Army's success in adapting BCTs for stability operations is evident in 
BCT employment in Afghanistan versus Iraq. In Afghanistan, with the 
high threat and nascent ability of the Afghan Security Forces (ASF), 
commanders employ the BCT widely throughout the southern provinces to 
train and mentor the ASF below the brigade-level together in combat 
operations. These BCTs with their organic leadership are sufficient 
(primarily company grade officers and NCOs) to meet mission 
requirements, train and conduct combat operations, with the ASF. In 
Iraq, commanders are employing six modular BCTs augmented for stability 
operations to continue training and mentoring the Iraqi Security Forces 
at brigade-level and above. The brigades in Iraq are augmented with 
additional field grade officers to provide greater flexibility for the 
BCT commander to mentor more Iraqi leaders at the more senior levels.

    28. Senator Udall. General Amos, how has the Marine Corps 
coordinated with the Army with respect to advisory units as our mission 
shifts from combat operations to an advisory role?
    General Amos. The U.S. Army has considerably more ``train and 
assist'' experience in Afghanistan as a whole than the Marine Corps. 
Marine Forces deployed in support of ``train and assist'' missions, to 
date, have operated under the mentorship if the Combined Security 
Transition Command-Afghanistan. The experience of 24 MEU and 2/7 led to 
the crafting of RFF920 for the MEB which includes both COIN and ``train 
and mentor'' in its mission statement and the MEB commander has planned 
for both these requirements accordingly. However, the U.S. Army 
experience and continued coordination serve as the baseline for Marine 
Corps planning in preparation for this part of the mission.

                          army brigade levels
    29. Senator Udall. General Chiarelli, last February General Casey 
testified before the Senate Armed Services Committee that ``15 deployed 
Active component brigades'' are required to stay at 12-month 
deployments. Does that statement still hold true given the changes in 
force levels as we withdraw from Iraq and increase in Afghanistan?
    General Chiarelli. Since General Casey's testimony in February 
2008, force demands in Iraq have decreased from unsustainable surge 
levels, which necessitated 15 month deployments, to a more sustainable 
surge level of 12 Active component BCTs. Therefore, the Army has 
returned to 12 month deployments, although the last BCT on a 15 month 
deployment will not return until June 2009 and the last enabling 
brigade will not return until October 2009.
    Presently, there are 3 Active component BCTs in Afghanistan; 
combined OIF/OEF Active component BCT totals equal 15 Active component 
BCTs that represent a BOG to dwell ratio of 1:1.3. Later this summer, 
the Army will deploy an additional BCT to OEF which pushes the Army 
above 15 BCTs deployed and drops the BOG to dwell ratio to 1:1.2 
reversing the positive trend of improving dwell for soldiers and 
families.
    Proactively, the Army has taken steps to mitigate a return to 
longer deployments, primarily by using in-lieu-of sourcing from other 
Services and selectively employing the Reserve component to fill Active 
component missions. These steps, buttressed by the Army completing our 
personnel growth, will maintain deployments of 12 months, provided 
global demand does not increase.

    30. Senator Udall. General Chiarelli, is 15 BCTs still the 
requirement?
    General Chiarelli. The current global requirement is 37 BCTs. The 
current global commitment of BCTs stands at 28 BCTs which includes both 
the Active component and Reserve component supporting COIN operations, 
security forces, Global Response Force/Rapid Response Force, Homeland 
Defense, Korea, Kosovo Forces/Multi-Force Observers, and training 
teams.
    Since General Casey's testimony in February 2008, force demands in 
Iraq have decreased from unsustainable surge levels, which necessitated 
15 month deployments, to a more sustainable surge level of 12 Active 
component BCTs. Therefore, the Army has returned to 12 month 
deployments, although the last BCT on a 15 month deployment will not 
return until June 2009 and last enabling brigade will not return until 
October 2009.
    Presently, there are 3 Active component BCTs in Afghanistan; 
combined OIF/OEF Active component BCT totals equal 15 Active component 
BCTs that represent a BOG to dwell ratio of 1:1.3. Later this summer, 
the Army will deploy an additional BCT to OEF which pushes the Army 
above 15 BCTs deployed and drops the BOG to dwell ratio to 1:1.2 
reversing the positive trend of improving dwell for soldiers and 
families.
    Proactively, the Army has taken steps to mitigate a return to 
longer deployments, primarily by using in-lieu-of sourcing from other 
Services and selectively employing the Reserve component to fill Active 
component missions. These steps, buttressed by the Army completing our 
personnel growth, will maintain deployments of 12 months, provided 
global demand does not increase.

    31. Senator Udall. General Chiarelli, does this account for the 
eight AABs?
    General Chiarelli. The combatant commanders will provide the 
required number of AABs needed for the operation, but yes, the Active 
component BCT demand in OIF and OEF includes the current requirement 
for AABs.

    32. Senator Udall. General Chiarelli, when will we allow our 
soldiers to maintain a 1:2 deployment to dwell ratio (2 years at home 
for every 1 year deployed)?
    General Chiarelli. The only way the Army can achieve this goal 
within the current force structure is the global demand must decrease. 
The deployment length versus home station time, or the BOG to dwell 
ratio, is driven by global demand versus the supply of available 
forces. The Army's long-term sustainable goal is to allow Active 
component units and soldiers three times the amount of time home as 
they are deployed (1:3 ratio), but demand and available forces 
ultimately drives dwell.
    On average, Army Active component BCTs currently deploy for a year 
and receive approximately 15 months at home, although dwell will 
slightly decrease due to an additional Army BCT deployment to 
Afghanistan prior to further reductions in Iraq in fiscal year 2010. By 
the end of fiscal year 2010, given projected demands, the Army 
anticipates average Active component BCT dwell improving to 
approximately 20 months at home, improving to 24 months early in fiscal 
year 2011. By the end of fiscal year 2011, the Army expects the average 
Active component BCT dwell to improve to about 29 months.

    33. Senator Udall. General Chiarelli, how long can we sustain these 
commitment levels for BCTs?
    General Chiarelli. The BOG to dwell ratio of 1:2 is sustainable 
over the short term, although the long term goal for the Army is to 
reach an Active component BCT BOG to dwell of 1:3 and Reserve component 
BCT BOG to dwell of 1:5. While 1:2 enables a more balanced Army, it 
still presents challenges to readiness. This high demand shortens dwell 
time for units, consumes equipment at a higher than programmed rate, 
and stresses all components of the All-Volunteer Force.

         Truncated dwell times negatively impact training of core 
        competencies to conduct missions across the spectrum of 
        conflict and shorten the time available to properly reset 
        personnel and equipment to be ready for the next deployment or 
        provide strategic depth.
         Transition Teams, unprogrammed Joint Headquarters positions, 
        security forces, and other nonstandard formations exacerbate 
        stresses on the All-Volunteer Force, particularly for the mid-
        grade officers and NCOs.
         Reserve component access within the context of current 12 
        month mobilization policy stresses the National Guard and 
        Reserve and creates uncertainty in sourcing to meet the high 
        rotational demand.
         The OPTEMPO in theater, coupled with the high demand for 
        forces, is stressing the Army's ability to equip the force by 
        accelerating the aging of material above programmed lifecycles, 
        lengthening reset, and incurring battle losses that must be 
        replaced.

                      readiness reporting systems
    34. Senator Udall. General Amos and General Chiarelli, the decision 
was made to switch from Status of Resources and Training Systems 
(SORTS) to the Defense Readiness Reporting System (DRRS) back in 2002, 
yet it still has not been fully integrated and implemented by the 
Services. What constraints and obstacles have you faced with DRRS and 
why do you believe it has taken so long to implement?
    General Amos. The Marine Corps supports the development and 
implementation of DRRS. In an effort to speed implementation of the 
DRRS Enterprise, we are working closely with the Army to develop a 
DRRS-Marine Corps (DRRS-MC) which will leverage the successful fielding 
of DRRS-Army--saving time and development dollars. DRRS-MC will 
expedite the implementation of the DRRS Enterprise and will meet the 
needs of the Service, and the readiness stakeholders throughout the 
Department. We anticipate our units and installations will be reporting 
in DRRS-MC before the end of 2009.
    Each readiness reporting system has its own advantages and 
disadvantages. The Global Status of Resources and Training System 
(GSORTS) remains the readiness reporting system of record. GSORTS does 
the better job, from the Service perspective, of reporting the Service 
Title 10 responsibilities for manning, training, and equipping ready 
forces for their designed missions in support of combatant commanders. 
However, GSORTS does not give us the degree of clarity we desire to 
assess a unit's capabilities for specific missions and mission 
essential tasks--particularly if the missions assigned are not the same 
as the units' designed missions-for example, an artillery battalion 
assigned a civil affairs mission.
    DRRS is still in development and we are working closely with the 
rest of DOD and the readiness community to help it meet its 
requirements to provide:

         Business tools that support data analysis for readiness 
        management, planning, Title 10 functions, data sharing, and the 
        integration of readiness information for resources and mission 
        essential tasks.
         Aggregated DRRS readiness data and easy access to archived 
        readiness information, which is retrievable via the business 
        tools identified above.
         Near real-time information data feeds from Service 
        authoritative data sources that have been tested and validated.
         The integration of GSORTS mission and resource information.

    General Chiarelli. The Army supports the DRRS. However, since the 
system is still under development and has not been fully implemented, 
the Army chose to refine and improve its existing readiness reporting 
system. It did this by developing an advanced web-enabled reporting 
system to meet the reporting requirements for the Chairman's Readiness 
System, as specified in DOD Directive 7730.65 ``Department of Defense 
Readiness Reporting System (DRRS)'' and all serial guidance 
requirements issued by OSD. This system is called DRRS-Army. Its 
development and implementation was accomplished through internal 
program management/funding and achieved full operational capability in 
October 2006. DRRS-Army ensures the Army is able to meet the Joint 
Staff and OSD requirements, yet preserves the capability to effectively 
measure and manage unique Army readiness equities. DRSS-Army meets the 
Army's readiness reporting needs; it feeds more data into DRRS than 
that system can absorb.
    With respect to how long it has taken to implement DRRS: we believe 
one major drawback is the absence of a Program Management Office to 
provide oversight. Currently, the program is internally managed by OSD 
Personnel & Readiness.
    Another issue is that the Joint Staff has not published a 
Chairman's Joint Chief of Staff Instruction or Manual for DRRS. The DOD 
instruction lacks detail for a project of this size and scope. DRRS is 
an emerging system and will require validation and testing for full 
integration into the Global Force Management processes. To date, most 
baseline assessment and performance milestones have not been achieved.

    35. Senator Udall. General Amos and General Chiarelli, is our 
visibility with respect to readiness reporting diminished in any way by 
reporting against directed mission readiness rather than core 
functions?
    General Amos. No. The Marine Corps reports on designed and assigned 
(directed) mission readiness per the Chairman of the Joint Chiefs' 
Instructions.
    General Chiarelli. Commanders of Army units continuously assess and 
report the readiness of their units to accomplish their core functions 
and also, when applicable, their directed missions. Hence, having units 
report directed mission readiness when operational requirements are 
formally assigned and while operational requirements are under 
execution does not diminish the visibility of the unit's readiness 
status to perform core functions, since both of these discrete 
assessments are reported concurrently. Army doctrine in FM 7-0, 
Training for Full Spectrum Operations, establishes that units train on 
only one mission essential level task at a time--the one for the unit's 
directed mission or, if none, the one for the unit's as-designed 
mission. While it is logical to presume that the readiness assessments 
reported by commanders will be most accurate for those missions on 
which their units currently are training or that currently are under 
execution, the readiness reporting requirements of Army units are 
established via Army Regulation 220-1, Unit Status Reporting, to comply 
with DOD and Joint Staff policies and to satisfy Congressional 
mandates. Army unit status reporting requirements that commanders 
continuously assess and report the status of their units to execute 
their core functions also facilitate effective assessments of strategic 
risk and strategic depth and provide the basis for various sourcing, 
resourcing and funding decisions.

    36. Senator Udall. General Amos and General Chiarelli, how has U.S. 
Joint Forces Command (JFCOM) responded to this change in readiness 
reporting?
    General Amos. We are confident that the policies and procedures 
established by U.S. JFCOM regarding readiness reporting will result in 
the most efficient and effective system possible.
    General Chiarelli. Senator, this question would be better addressed 
by U.S. JFCOM.

    37. Senator Udall. General Amos and General Chiarelli, commanders 
are allowed to subjectively upgrade their unit's overall readiness by 
one level and two with general officer approval. Are you concerned at 
all that this ability obfuscates a unit's true readiness status, 
specifically, if a unit operates with a limited amount of equipment or 
people?
    General Amos. No. To accurately assess the unit's level of 
readiness, the commander must consider both the measurable and 
intangible components of readiness. Commanders take into account 
morale, leadership, sustainability, and a variety of other factors, 
which are not always measurable by the metrics built into our readiness 
systems. Through the daily monitoring of SORTS reports and recurring 
education the Marine Corps is able to guard against capricious 
adjustments. Most Marine Corps commanders do not subjectively upgrade 
or downgrade their C-levels in the Global Status of Resources and 
Training System (GSORTS) or their mission and mission essential task 
assessments in the DRRS.
    General Chiarelli. No, I am not concerned that this ability 
obfuscates a unit's true readiness. The Army's readiness reporting 
system (DRRS-Army) combines the benefits of both quantitative 
measurements for people and equipment with the commander's best 
professional judgment and experience in determining training and other 
overall assessments.
    Army units report readiness in accordance with Joint Staff 
regulatory requirements as well as serial guidance from the Office of 
the Secretary of Defense (OSD). Included in the Joint Staff's guidance 
are procedures that allow commanders to provide their best military 
judgment during the monthly assessment of the unit.
    Current readiness metrics support both quantitative measurements--
i.e. the amount of people and equipment available to the unit, combined 
with training assessments; with qualitative and or subjective overall 
assessments. These policies and procedures are routinely updated and 
incorporate input from subordinate commands, units, as well as periodic 
reviews from outside agencies. Currently, we believe we have the 
optimum mixture of subjective and quantitative assessments in our unit 
status reporting system.
    The Army remains committed to providing detailed, accurate, and 
commander-centric assessment of unit capabilities. Our readiness 
reporting procedures will continue to measure the core functions of 
Army units to meet the wartime requirements. Additionally, Army units 
will report readiness assessments to complete assigned missions when 
directed by combatant commanders.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                usaid foreign service officers increases
    38. Senator Burris. General Chiarelli, in your testimony, you 
pointed to the success of the National Guard's AgriBusiness teams. At 
the same time, you note that ``teams of agronomists from land grant 
universities sponsored by the United States Agency for International 
Development'' are best suited to teach Afghans to improve their farming 
methods, thus contributing to stability operations in Afghanistan. You 
noted that your teams were successful, but stated that the use of 
soldiers for AgriBusiness teams caused holes in various units.
    The Senate is currently considering the Increasing America's Global 
Development Capacity Act of 2009, legislation that would increase 
significantly the number of Foreign Service Officers at USAID. In your 
opinion, if the USAID is increased, how would an increase in USAID 
Foreign Service Officers best be used to help the Army conduct its 
ongoing stability operations?
    General Chiarelli. An increase in USAID Foreign Service Officers 
could best assist in the conduct of stability operations thru 
assignment to teams whose principal mission is development of host 
nation government capability and capacity at national, provincial, and 
local levels. Examples of USAID competencies include advice and 
assistance to host nations in developing capacity for economic 
development, humanitarian response, agriculture, health and human 
services, democracy and governance, and conflict management and 
mitigation.

    39. Senator Burris. General Chiarelli, what other civilian agencies 
do you think have an appropriate role in stability operations?
    General Chiarelli. Any number of Federal agencies could contribute 
to stability operations but the determination of the best way to 
organize to provide that support should be determined by the Department 
of State including USAID, which has been assigned the lead role for 
coordinating reconstruction and stabilization efforts of the U.S. 
Government.
    There are broad range of capabilities required to enable these 
efforts--and a number of options for the State Department to execute 
this role. One option could be to rely on the full range of Cabinet-
level agencies for direct support. Another viable option would be for 
the State Department to develop internal capacity for that effort. A 
third option would be for the State Department to contract for that 
support.
                                 ______
                                 
              Questions Submitted by Senator Richard Burr
                               body armor
    40. Senator Burr. General Chiarelli, a recent New York Times 
article from April 18 reported on the Army's delay in testing a new, 
lightweight body armor that could reduce a soldier's load by nearly 20 
pounds, a potentially significant improvement for those serving in the 
harsh, mountainous terrain of Afghanistan, where mobility is at a 
premium. The Modular Body Armor Vest (MBAV), already in use by Special 
Operations Command, uses smaller bulletproof plates on the chest and 
back, making it significantly lighter than the current Army-issue 
Improved Outer Tactical Vest (IOTV). An Army research team was sent to 
eastern Afghanistan in early March to field test this new body armor 
with a unit of 500 soldiers, only to be ordered back to the United 
States shortly after their arrival, leaving nearly $3 million worth of 
this new body armor sitting in a warehouse in the United States. Can 
you please explain the decisionmaking process on field testing of the 
MBAV?
    General Chiarelli. The safety of our soldiers is paramount in our 
decision-making process to provide them with new equipment and this is 
especially true when it comes to Personal Protection Equipment such as 
body armor. Soldiers can focus on their mission because they are 
confident the body armor they depend on has been thoroughly tested and 
evaluated for safety, effectiveness and suitability.
    In the specific case of the MBAV, although it had been tested by 
Special Operations Command (SOCOM) to SOCOM requirements and standards 
and was in use by Special Operation Forces, it had not been tested to 
Army requirements and test standards. This is not to suggest that the 
SOCOM requirement and testing standard is worse or that the Army's is 
better, it is recognition that they are different. Having multiple test 
standards for body armor is an acknowledged problem that is being 
addressed by OSD DOT&E. We anticipate a DOD-wide standard will be 
issued for testing body armor by the end of this year. Until then, out 
of an abundance of caution, the prudent action for the Army is to 
adhere to its current testing standards, which to date, have produced 
body armor that has never failed to perform to required standards 
during the entire time of OIF and OEF.
    Subsequent to the hearing on April 22, 2009, Aberdeen Test Center 
has completed the ballistic testing of the MBAV. The Rapid Equipping 
Force (REF), in conjunction with Program Executive Office soldier, has 
begun conducting a limited fielding to an Army Infantry BCT selected to 
deploy to Afghanistan in support of OEF. The MBAV plate carrier is one 
of 14 equipment items that comprise the REF's Lightening the Soldier's 
Load Project.
    In parallel with the Lightening the Soldier's Load Project, the 
Army is assessing several ``plate carrier'' designs to include the 
MBAV. The results of the assessment will inform the Army's decision for 
a plate carrier design to be fielded on a larger scale that will 
provide commanders on the ground another option for tailoring Personal 
Protection Equipment.

    41. Senator Burr. General Chiarelli, how does the Army assess risk 
when fielding new technology, specifically body armor?
    General Chiarelli. Composite Risk Management (CRM) is the Army's 
primary process for identifying hazards and controlling risks across 
the full spectrum of army mission, functions, operations, and 
activities. The CRM is used to mitigate risks associated with all 
hazards that have the potential to injure or kill personnel, damage or 
destroy equipment, or otherwise impact mission effectiveness.
    Body Armor is the critical personal protective equipment for the 
soldier. Fielding of equipment designed to protect human life from 
injury or death is a deliberate process that is driven by requirements, 
understanding of the threats and emerging technology. At every decision 
point in the process to develop new technology and then field and 
sustain equipment, risks are identified and are mitigated to an 
acceptable level.
    For fielding of new technology relating to Body Armor, the primary 
risk mitigation tool is live fire ballistic testing. This is conducted 
prior to production as part of First Article Testing and also at Lot 
Acceptance Testing during production. This constant vigilance is the 
primary means to maintain high confidence in the body armor fielded and 
is the main reason the body armor fielded in OIF and OEF to date has 
never failed to perform 100 percent of the time and has on many 
occasions exceeded the approved requirements.

    42. Senator Burr. General Chiarelli, how does the Army weigh the 
tradeoffs between the need for greater protection and the need for 
greater mobility?
    General Chiarelli. Soldier survivability is a function of mobility, 
protection, lethality and leadership. Within this context, commanders 
must weigh the trade-offs between mobility and protection based on 
factors such as mission, enemy, troops, time, and terrain. In 
recognition of this fact, the Army must provide commanders with the 
tools necessary to make those decisions such as armored vehicles and 
personal protection equipment.
    In the case of the MBAV with Enhanced Small Arms Protective Insert 
(ESAPI) plates, the Army responded to commander requests for lighter 
body armor in Afghanistan so that soldier survivability could be 
enhanced though greater mobility and lethality with minimal, if any, 
reduction in protection in the face of extreme mountainous terrain and 
a lightly equipped and unencumbered enemy.

    43. Senator Burr. General Chiarelli, are you concerned that a one-
size-fits-all approach to equipping our soldiers doesn't take into 
account the drastically different environments our soldiers face in a 
country like Afghanistan?
    General Chiarelli. We recognize varying environments our soldiers 
experience requires that we relook how we are equipping our soldiers. 
Specifically, we are focusing on two main efforts to reduce the 
soldier's load: reducing body armor weight and reducing equipment 
weight. These two efforts will inform the Army as to the optimum body 
armor configuration for use in Afghanistan.
    In May, the Maneuver Battle Lab conducted a Soldier Plate Carrier 
Demonstration at Yuma Proving Ground, AZ, to test the performance of 
lighter ballistic plate carrier vests against the current IOTV. The 
plate carrier candidates are currently undergoing ballistic and burn 
testing by the Army Test and Evaluation Command. The results of the 
assessment will be used to recommend the best commercial off-the-shelf 
or Government off-the-shelf lightweight plate carrier for fielding to 
soldiers.
    In addition, the Army's Rapid Equipping Force is teaming with the 
Asymmetric Warfare Group to conduct a soldier load assessment in 
Afghanistan. This assessment will evaluate 14 lighter items of 
equipment including the MBAV (plate carrier). The Army seeks to achieve 
significant weight savings with the continued acquisition of lighter 
weapons, night vision devices and soldier clothing items.

    44. Senator Burr. General Chiarelli, please provide an update on 
the Army's body armor testing and acquisition program.
    General Chiarelli.
Body Armor Testing:
    All body armor passes stringent First Article Testing (FAT) and Lot 
Acceptance Testing (LAT) before being issued to soldiers. Along with 
those two levels of testing, there is a third level of evaluation, 
Soldier Preventative Maintenance Checks and Services (PMCS) and a 
fourth level, Non-Destructive Test Equipment (NDTE). NDTE utilizes 
digital X-ray to determine the serviceability of fielded hard armor 
plate inserts. All of these evaluations (FAT & LAT Testing, PMCS and 
NDTE) ensure that the Army's body armor meets or exceeds performance 
standards.
Body Armor Acquisition:
    (1) X-Small Arms Protective Inserts (XSAPI):
    The current Army requirement for XSAPI is 120,000 sets, designated 
as a Theater contingency stock. XSAPI is designed to meet current and 
emerging small arms ballistic threats. As a result of the increased 
ballistic protection provided by XSAPI as compared to ESAPI, an XSAPI 
plate is 6-11 ounces heavier than ESAPI depending on plate size. 
120,000 sets of XSAPI were ordered in March 2009.
    (2) Improved Outer Tactical Vest (IOTV):
    In May 2007, the Army introduced the IOTV to replace the 966,000 
fielded Outer Tactical Vests (OTVs). The IOTV is 3lbs. lighter, 
provides increased coverage and offers improved performance and 
comfort. The IOTV also offers a one stage quick release and a medical 
access system not previously available on the OTV. To date, the Army 
has procured 455,000 IOTVs. The procurement of the balance of IOTVs is 
scheduled for award in July 2009.
    (3) Long Term Strategy for Body Armor Improvements:
    The long-term strategy for body armor is to continue the research 
and development of materials at the Army Soldier Systems Center, 
Natick, MA, with support from the Army Research Laboratory and the 
Massachusetts Institute of Technology's Institute for Soldier 
Nanotechnologies, which will reduce the overall weight of the system 
while achieving the same or better ballistic protection. As improved 
material technologies become available, the Army will rapidly 
transition the technology into body armor production.

    45. Senator Burr. General Chiarelli, with a possible delay in the 
acquisition of the next generation of body armor, do you foresee any 
risk or the possibility of an inability of the Army to provide adequate 
body armor to deploying forces?
    General Chiarelli. No, the Army will provide adequate body armor to 
deploying forces. The currently fielded ESAPI worn with the IOTV 
protects against the current Theater threat and provides an increased 
area of coverage over the OTV with a weight reduction of greater than 
three pounds. We have fielded 966,000 OTVs, 268,000 IOTVs, and 891,000 
ESAPI sets. We are now procuring additional IOTVs to replace OTVs on a 
one for one basis. The long term acquisition strategy for body armor is 
to continue the research and development of materials that will achieve 
better ballistic protection while reducing the overall weight of the 
system. As improved material technologies become available, the U.S. 
Army will rapidly transition the technology into body armor production. 
At this time, current materials technology is challenged to achieve 
significant weight savings for the same or better level of performance.

                  transition from iraq to afghanistan
    46. Senator Burr. General Chiarelli, a recent press report (USA 
Today, April 17, 2009 titled ``Battalion Shifted to Afghanistan'') 
described how the Army's 4th Engineering Battalion that had just 
arrived in Iraq, was now being redeployed to Afghanistan to perform 
their vital mission of clearing roads of bombs and other obstacles. The 
article went on to assert that ``the decision underscores how military 
commanders are scrambling to meet President Obama's orders.'' What is 
the extent to which Army units currently deployed to Iraq, or in 
training for deployment to Iraq, will now be redirected to Afghanistan?
    General Chiarelli. The Army continues to meet Secretary of Defense 
requirements with trained and ready forces. Given the OIF drawdown and 
the continued need for enabler forces there, and the burgeoning 
requirements in Afghanistan, the Army has re-missioned some units to 
maintain the flexible and adaptive capacity to meet Commander, CENTCOM 
requirements. CENTCOM has currently re-missioned 3,990 Army Combat 
Support/Combat Service Support Soldiers deploying to or in Iraq to 
Afghanistan. The Combat Support/Combat Service Support enablers include 
Engineers (1,557), Military Police (837), Transportation (501), Signal 
(332), Ordnance (302), Quartermaster (268), Civil Affairs (102), 
Command and Control (89), Fire Support (6), and Medical (1). The need 
for additional forces in Afghanistan combined with shortfalls in 
external sourcing solutions requires internal sourcing of specific 
Combat Support and Combat Service Support enablers. This enabler 
repositioning is to support increased presence of U.S. forces in 
Afghanistan and CENTCOM's force requirements. The Army cannot clearly 
state the extent to which this re-missioning effort may continue given 
the dynamic nature of the counter-insurgency fight in both Iraq and 
Afghanistan. The Army will continue providing trained and ready forces 
to meet the challenges faced by ground commanders in both combined 
Joint Operational Areas.

    47. Senator Burr. General Chiarelli, how has the Army modified 
training for units being diverted from Iraq to Afghanistan?
    General Chiarelli. The Army prepares units to conduct missions 
based on established conditions and standards and then adapts to a 
given environment as required. If a unit is given a new mission then 
training will shift to focus on that new mission. For units executing 
the same mission, the differences encountered in executing these 
missions in Afghanistan instead of Iraq is the operational environment 
where they are being conducted. All soldiers receive a country 
orientation brief prior to deployment that includes a general overview 
of military, political, cultural, religious, and economic conditions; 
receive rules of engagement training/rules for use of force training 
specific to that area of operations; and complete basic language and 
culture training specific to the area they are being deployed. 
Additionally, though high-altitude oxygen levels are difficult to 
replicate prior to arriving in theater, soldiers adjust their physical 
fitness training activities before deploying and upon arrival in 
theater to ensure they are in the best physical condition.

    48. Senator Burr. General Chiarelli, are you confident the training 
provided to these soldiers for the Iraq mission will be adequate for 
service in Afghanistan?
    General Chiarelli. Yes, U.S. Army Forces Command (FORSCOM) 
coordinates with U.S. CENTCOM to identify theater-specific training 
requirements. These are published in pre-deployment training guidance 
for units sourced to deploy to either Iraq or Afghanistan. However, 
important to note, the operational conditions in which units operate in 
Afghanistan are significantly different than those in Iraq. Therefore, 
regardless of whether a unit is deploying to Iraq or Afghanistan, it 
receives all theater-specific training prior to deployment. In all 
cases, FORSCOM validates units for deployment.

    49. Senator Burr. General Chiarelli, does the Army have the 
resources necessary to augment the forthcoming troop increases, 
particularly in the case of linguists, etc?
    General Chiarelli. INSCOM has existing linguist contracts in both 
theaters. Currently there are 9,445 linguists in OIF and the 
requirements will be adjusted downward as the force structure changes 
over time. In OEF, we have programmed future requirements based on 
approved additional forces. Currently there are 3,546 linguists on the 
ground and a plan is being implemented to increase the linguist force 
capacity in stages for a requirement of 5,133, in concert with the 
troop flow.

----------------------------------------------------------------------------------------------------------------
                                       Cat I--No        Cat II--Secret      Cat III--TS/SCI
                                   clearance  Req't/  Req't/Fill/Percent/ Req't/Fill/Percent/ Total  Req't/Fill/
                                   Fill/Percent/Fill         Fill                Fill            Percent/Fill
----------------------------------------------------------------------------------------------------------------
Total OEF Support \1\                    4,393/3044             574/550              166/66         5,133/3,660
                                       (69 percent)        (96 percent)        (40 percent)        (71 percent)
----------------------------------------------------------------------------------------------------------------
\1\ OEF has an ongoing revalidation which is expected to result in increased linguist requirements. These
  figures include backend support.


----------------------------------------------------------------------------------------------------------------
                                       Cat I--No        Cat II--Secret      Cat III--TS/SCI
                                   clearance  Req't/  Req't/Fill/Percent/ Req't/Fill/Percent/ Total  Req't/Fill/
                                   Fill/Percent/Fill         Fill                Fill            Percent/Fill
----------------------------------------------------------------------------------------------------------------
Total OIF Support \2\                   7,585/7,652         1,859/1,608             341/293         9,785/9,553
                                      (100 percent)        (86 percent)        (86 percent)        (98 percent)
----------------------------------------------------------------------------------------------------------------
\2\ Includes backend support.


    50. Senator Burr. General Amos, the increase in ground forces in 
Afghanistan announced last month by President Obama falls heavily on 
the Marine Corps. As I understand it, the Marine Corps will provide 
about 10,000 of the roughly 21,000 additional forces that will begin to 
arrive in Afghanistan in May. Last year at this hearing, your 
predecessor, General Magnus, described a much smaller increase of 
marines in Afghanistan as a difficult proposition, saying it was like 
``having a foot in two boats.'' I am particularly concerned about not 
only the combat forces that will flow to Afghanistan as part of the 2nd 
MEB, but also their critical enablers because those capabilities will 
also be in high demand as we drawdown in Iraq. What are the greatest 
challenges you see in accomplishing this transition?
    General Amos. Last year we were operating with different 
priorities. Secretary Gates stated ``In Iraq we do what we must, but in 
Afghanistan we do what we can.'' The Commandant has always maintained 
that increases in Afghanistan must come with commensurate reductions in 
Iraq. However, the President's strategy articulated this year clearly 
shifts our operational priorities; the timeline laid out for complete 
marine withdrawal from Iraq mitigates mid-term concerns over force 
tempo. Our greatest challenge currently is managing deployment to dwell 
of critical enablers (rotary wing assets and their pilots/crews and 
well as intelligence and explosive ordnance marines) during the 
transition from Iraq to Afghanistan.

    51. Senator Burr. General Amos, what sort of forces and 
capabilities will the Marine Corps bring to Afghanistan?
    General Amos. The Marine Corps is currently deploying a 10,000 
Marine MAGTF built around a Headquarters, Regimental Combat Team, 
Marine Air Group, and Combat Logistics Regiment complete with all the 
enabler augmentation learned from 6 years of combat in Iraq and three 
deployments of Marine units to Regional Command-South.

    52. Senator Burr. General Amos, what is the plan for sourcing the 
enabling capabilities in Afghanistan when those forces will also be 
needed in Iraq to support the drawdown of forces there?
    General Amos. Last year we were operating with different 
priorities. Secretary Gates stated ``In Iraq we do what we must, but in 
Afghanistan we do what we can.'' The Commandant has always maintained 
that increases in Afghanistan must come with commensurate reductions in 
Iraq. However, the President's strategy articulated this year clearly 
shifts our operational priorities; the timeline laid out for complete 
marine withdrawal from Iraq mitigates mid-term concerns over force 
tempo. Our greatest challenge currently is managing deployment to dwell 
of critical enablers (rotary wing assets and their pilots/crews and 
well as intelligence and explosive ordnance marines) during the 
transition from Iraq to Afghanistan.

               support for marine corps units in theater
    53. Senator Burr. General Amos, the plan for deploying Marine Corps 
forces calls for them to be highly decentralized, meaning that the 
integrated Marine Corps unit structure will be stretched to cover more 
ground with smaller units. This presents special challenges in terms of 
supporting those combat forces with logistics, intelligence, and 
supporting arms. What special demands do you foresee to support this 
decentralized deployment plan?
    General Amos. The terrain and relative lack of infrastructure 
development in Afghanistan compared to Iraq calls for the ability of 
operational units to operate with relative autonomy in the near to mid-
term, particularly in Regional Command-South. This was highlighted by 
the demand for rotary wing assets in the last year but less visible is 
the density of communications and intelligence resources (both 
personnel and equipment) to be sourced down to the company and platoon 
level that were previously at the battalion and regimental level. Part 
of the solution is manpower (special skills) enablers and the other 
part is rapid procurement of these assets. Both are being addressed 
from a service perspective. Additionally, skills such as air delivery, 
expeditionary airfield construction and management, contingency 
contracting, and heavy engineering capability resident in other 
services (USN Construction Battalion and USAF Red Horse) are critical 
to our near term success in Regional Command-South. All of these are 
part of the planning, execution, and enabling of the current MEB 
deployment. None of these are foreign to the Marine Corps and all were 
part of success in Anbar but they are more acute in Afghanistan because 
it is a landlocked country complicating logistics support and because 
Iraq was far more developed in 2003 than Regional Command-South is 
today.

    54. Senator Burr. General Amos, how are Marine Corps units adapting 
their training, tactics, and command and control in order to address 
this employment plan?
    General Amos. Adaptation of training, tactics, and command and 
control has been focused in two basic areas:

         The first focus area has been the increase in command and 
        control capabilities of lower echelon units (i.e., companies 
        and platoons) required to execute decentralized operations. 
        This training revolves around command and control systems 
        training and staff training. Under the Enhanced Company 
        Operations concept, specific training has been developed to 
        provide lower echelon units with the capabilities that 
        previously resided at the battalion and above.
         The second focus area revolves around the preparation of unit 
        leaders to execute decentralized operations. The Marine Corps 
        is currently developing a plan to improve their intuitive 
        ability to assess, decide, and act while operating in a more 
        decentralized manner across the MAGTF. This plan will address 
        virtual and physical methods for developing unfamiliar training 
        environments, physical and virtual, which expose junior leaders 
        to uncertainty, fog, and friction. In addition, the Marine 
        Corps is developing training devices and systems that enhance 
        our ability to immerse marines in time-constrained scenarios 
        that closely replicate combat situations as well as 
        professional military education initiatives that will enhance 
        the junior leader's ability to more effectively operate and 
        lead in complex environments with hybrid threats.

                          equipment in theater
    55. Senator Burr. General Amos and General Chiarelli, the 
mountainous terrain, poor road infrastructure, and size of Afghanistan 
in comparison to Iraq require equipment that is unique from Iraq. Do 
you have the right types of equipment and in sufficient quantities to 
fully equip our forces for success in Afghanistan? If not, what 
shortfalls exist?
    General Amos. Yes. We have upgraded our MTVRs (7 ton trucks). We 
possess all categories of MRAPs and have provided our requirements for 
the MRAP All Terrain Vehicle (MATV). These assets enable us to 
compensate for the poor road conditions in Afghanistan. Communications 
are very difficult in mountainous terrain and we require more 
sophisticated radios to enable our forces to communicate. We can field 
more radios, but at the expense of radios needed by CONUS Operating 
Force units. This also applies to increased requirements for vehicles 
and weapon systems. Due to the enormous weight of armor and stress on 
equipment frames, we cannot readily move from location to location 
unless it's on a tractor trailer. As you know, there is no mature 
infrastructure in Afghanistan, so the communications, expeditionary 
airfield, tent camps, camp protection, and all that goes with these 
things must be brought in and/or built. MILCON will play a large role 
in how quickly our tent camp support (ablution plants, bottled water 
plants), maintenance facilities for aviation (props) and ground 
equipment, communications infrastructure, etc. are built and placed in 
service. Sir, you asked if we can fully equip our forces for success in 
Afghanistan and the answer remains ``yes,'' but at a cost to CONUS 
units and with congressional support for MILCON projects.
    General Chiarelli. Yes, we have the right type equipment or actions 
in place to address units' equipment requirements for Afghanistan. We 
conduct weekly video teleconferences with Theater to set conditions for 
success in support of equipping our forces in Afghanistan. Efforts have 
resulted in a significantly reduced amount of last minute equipment 
sourcing issues. The Army equips units based on their theater assigned 
mission--Mission Essential Equipment List. Commanders can also request 
additional equipment based on unit-specific needs in an Operational 
Needs Statement. Finally, the Army is building an Afghanistan Theater 
Provided Equipment set to resource unit equipment requirements in 
Afghanistan. These collective efforts will ensure that units have the 
best available equipment, in sufficient quantities, for success in 
Afghanistan.
    Because of the rugged and mountainous terrain in Afghanistan, we 
will place a greater reliance on aviation to conduct combat operations. 
Based on the current Improvised Explosive Device threat, we will 
continue to use Mine Resistant Ambush Protective vehicles (MRAPs) to 
protect soldiers as they travel around the country. However, the areas 
in which these vehicles operate are limited by their size and weight. 
In an effort to overcome these challenges, the Army is pursuing the 
MRAP-All Terrain Vehicles to provide the off-road capability necessary 
for combat operations in the rugged Afghanistan terrain. The unique and 
austere environment will also require a greater quantity of select 
equipment (mortars, precision fire artillery, blue force tracking, and 
machine guns) for specific combat and support forces. The Army has the 
necessary equipment to sustain the higher quantities in select units.
    The short-term impact will be on the readiness of nondeployed 
units. This redistribution of equipment from nondeployed units will 
reflect in the readiness reporting of those units until replacement 
equipment arrives in conjunction with a responsible draw down of 
equipment from Iraq.

    56. Senator Burr. General Amos and General Chiarelli, have you 
identified any additional equipment requirements that would better 
serve our forces in Afghanistan that are currently unfunded?
    General Amos. We have noted several specific items on our Unfunded 
Programs List that can help us in the future. That includes engineering 
equipment, reliability and maintainability and equipment upgrade 
funding for the MV-22, and more intelligence, surveillance, and 
reconnaissance equipment. We'll continue to monitor the urgent need 
requests of our operating forces as we executed fiscal year 2009 and 
fiscal year 2010 to adjust for emerging requirements.
    General Chiarelli. As mentioned previously, we have the right type 
equipment or actions in place to address units' equipment requirements 
for Afghanistan. We conduct weekly video teleconferences with Theater 
to set conditions for success in support of equipping our forces in 
Afghanistan. Efforts have resulted in a significantly reduced amount of 
last minute equipment sourcing issues. The Army equips units based on 
their theater assigned mission--Mission Essential Equipment List. 
Commanders can also request additional equipment based on unit-specific 
needs in an Operational Needs Statement. Finally, the Army is building 
an Afghanistan Theater Provided Equipment set to resource unit 
equipment requirements in Afghanistan. These collective efforts will 
ensure that units have the best available equipment, in sufficient 
quantities, for success in Afghanistan.

                   marine corps air assets in theater
    57. Senator Burr. General Amos, in view of the limitations on the 
legacy Marine Corps helicopter assets such as the CH-46 and CH-53, will 
the MV-22 be deployed to Afghanistan?
    General Amos. The answer is yes. However, the deployment of the V-
22 is not related to the limitations of legacy platforms. MV-22 is the 
most capable platform for an austere, widely dispersed theater of 
operations, and its speed, range and altitude capabilities mean our 
Marine commanders will be able to maximize the MAGTF.

    58. Senator Burr. General Amos, what other aviation assets do you 
believe will be in high demand?
    General Amos. We believe all our assets will continue to be in high 
demand, as they have been over the last several years. Communities in 
the highest demand categories will likely be H-1s, V-22, VMU, and EA-
6B. That said, all of our platforms are deploying at a significantly 
increased tempo than that of prior to September 11.

    59. Senator Burr. General Amos, do you have adequate aviation 
resources considering the challenging environment and the plan to 
spread the forces out to cover large amounts of territory?
    General Amos. In the short term, we rely on our commanders in the 
field to determine the aviation requirement. The Marine commanders in 
both Iraq and Afghanistan believe we have adequate aviation resources 
to accomplish the mission. We also maintain the ability to surge more 
assets to those commanders if required. A ``surge'' would likely result 
in the further degradation of readiness and operational flexibility 
among the units left behind.
    In the long term, our acquisition programs must remain intact in 
order to reset the force and fulfill our anticipated global 
commitments.

    60. Senator Burr. General Amos, Congress just approved a 
reprogramming request to add a long-duration ISR and close air support 
(CAS) capability to a limited number of KC-130J tankers to support 
operations in Afghanistan. What is the plan for employing that 
capability?
    General Amos. Mission kit-configured aircraft will address the 
urgent requirement to provide extended-duration ISR and aviation fires 
as an added measure of force protection for ground forces. Their 
ability to provide suppressive area fires and low-magnitude precision 
fires affords the MAGTF commander with additional means to counter 
enemy ambush operations and provide covering fires in mountainous 
terrain. In the ISR role these airframes can provide counter-IED 
support with persistent surveillance coverage and reactive fire 
support. Mission kit-configured KC-130Js have the potential to fill a 
number of other roles for the MAGTF; however, the intent of the mission 
kit is to provide a tertiary mission-set capability for the KC-130J, 
which also supports the MAGTF with aerial refueling (primary) and 
assault support (secondary).
    The KC-130J with mission kit was conceived as a means to provide 
support to ground forces in two specific scenarios--operations in 
mountainous terrain and operations which required extended periods of 
continuous over-watch support.
    The extreme elevations in Afghanistan preclude the use of rotary-
wing platforms in support of ground operations. Specifically, rotary-
wing attack aircraft that normally provide fire support and aerial 
reconnaissance for ground forces are unable to conduct these missions 
at altitudes in excess of 10,000 feet above mean sea level (MSL). 
However, the KC-130J can operate easily in these elevated areas but 
does not have the requisite tools to provide ISR and fire support to 
ground forces. The ISR/Weapons mission kit provides an efficient and 
quick resolution to this shortfall. Kit-configured aircraft can provide 
reactive fire support to forces operating at these elevations, while 
on-station in over-watch as an ISR platform.
    Operations in Afghanistan require aviation support that rotary-wing 
assets have difficulty fulfilling in terms of capacity. Traditional 
fixed-wing aircraft are helpful in fulfilling some of these 
requirements, but they are also incapable of satisfying the MAGTFs 
requirements for persistent ISR and fire support. The KC-130Js inherent 
capability to fly for extended periods enables it to support ground 
operations at extended ranges and for extended periods of time, a 
desired attribute for aviation support in both AOs.
    The integration of armed KC-130Js into the MAGTF's arsenal of 
aviation weapons will require deliberate thought, but not great effort. 
Mission kit-configured aircraft will be tasked and employed in the same 
manner as other aviation platforms that have multiple mission sets. 
Assignment of ISR/CAS missions to the KC-130J will be weighed carefully 
against use of the platform as a force multiplier for the ACE in the 
aerial refueler role or as an intratheater lift asset.
    The MAGTF commander will provide clear guidance for tasking of 
these limited assets. In sourcing joint tactical airstrike requests, 
both preplanned and immediate, mission kit-configured KC-130Js would be 
used as an alternative, not a primary option. Most requests for fire 
support can be met with the use of traditional fire support assets such 
as Marine TACAIR and H-1 helicopters--assets specifically designed for 
those missions. For preplanned missions, KC-130J aircraft would only be 
employed to support the niche requirements for long-duration over watch 
and/or fire support when it cannot be met by primary ISR and CAS 
platforms. Similarly, fulfillment of immediate requests would use the 
normal MACCS processes for diverting aircraft that are best suited to 
provide the support required; kit-configured KC-130J will normally be a 
last resort in these scenarios as well.

      reset costs and the shift of war funding to the base budget
    61. Senator Burr. General Amos, the President has made clear that 
he intends this to be the last supplemental budget request to support 
the wars in Iraq and Afghanistan outside the normal DOD budget. Your 
written statement indicates that the Marine Corps will need 
approximately $20 billion for replacing, repairing, or rebuilding 
equipment to reset the Marine Corps equipment stocks to acceptable 
readiness levels. Your statement also says that the Marine Corps will 
need depot-level maintenance on airframes, engines, weapons, and 
support equipment well beyond the conclusion of hostilities in both 
Iraq and Afghanistan. Do you believe that we know what our reset costs 
actually are at this point, or will that depend on how quickly we are 
able to draw down in Iraq and the extent and length of combat in 
Afghanistan?
    General Amos. It is hard to predict what the Marine Corps reset 
costs are going to be because it is unknown how long the Marine Corps 
will be fighting in Afghanistan and it is difficult to estimate the 
cost of reset for our gear returning from Iraq until that evolution is 
complete. The most important thing is that or marines are equipped with 
the best gear that the Marine Corps can provide. To do this, additional 
funding will be required as new threats arise on the battlefield. We 
know in the near term that we need an additional $8 billion in Reset 
funding. This includes the elements of Reset in our fiscal year 2009 
and fiscal year 2010 OCO requests. However, as long as the war 
continues, our costs will continue to grow.

    62. Senator Burr. General Amos, how will the Marine Corps be able 
to meet these extensive and costly war-related funding needs within the 
normal DOD budget which is only projected to grow about 4 percent in 
fiscal year 2010?
    General Amos. The Marine Corps would not be able to meet its all 
its war-related funding requirements within the normal baseline budget. 
Our fiscal year 2009 OCO request was 32 percent of our total fiscal 
year 2009 baseline budget and is a critical to supporting the 
operational needs of our marines in Iraq and Afghanistan. Without the 
OCO the Marine Corps would be hardpressed to continue its mission in 
Iraq and Afghanistan.

    63. Senator Burr. General Chiarelli, what steps is the Army taking 
to ensure its true budgeting requirements for contingency operations 
and reset are adequately addressed in the base budget?
    General Chiarelli. In the fiscal year 2010 President's budget 
request, the Army realigned enduring missions to the base budget that 
were previously executed in the OCO. Those missions include the family 
support programs (with the exception of the Yellow Ribbon Program which 
remains in OCO for the USAR and is split between base and OCO for the 
National Guard) and transportation costs for Combat Training Center 
rotations. The extent to which reset will be funded in the base budget 
will be determined through future administration and congressional 
guidance. Contingency operations and reset will continue to be 
accounted for in the OCO budget until that time.

                    marine corps readiness standards
    64. Senator Burr. General Amos, Marine Corps unit readiness has 
normally been rated in terms of the ability of units to perform full-
spectrum combat operations in a high intensity conflict. For the last 7 
years, we have been engaged in a counterterrorism and COIN fight. As 
discussed in last year's hearing, the Marine Corps rates the readiness 
of its deployed units against the missions they are assigned, but rates 
its nondeployed units against their ability to execute their 
traditional full-spectrum missions. Explain this difference in 
evaluating readiness.
    General Amos. The Marine Corps assesses the readiness of all of its 
units for both their designed missions (full spectrum operations) and 
assigned missions (upon receipt of a mission). This is an effective 
approach for our deployed forces that enables us to analyze their 
readiness and resource levels for any potential reassignment. Our 
nondeployed forces are the primary units that will be called upon to 
respond to contingencies, hence the emphasis on reporting their 
designed readiness for full-spectrum missions.

    65. Senator Burr. General Amos, do the different ways of expressing 
unit readiness adequately convey the true readiness of our forces?
    General Amos. Yes. In coordination, we believe they do. This is a 
primary reason why the Marine Corps has supported the implementation of 
the DRRS, but insisted on retaining the readiness resource ratings 
provided by the Global Status of Resources and Training System 
(GSORTS). This combination of readiness information, in conjunction 
with the commander comments that quantify and clarify their readiness 
report, will be included in the implementation of DRRS-MC, scheduled 
for initial operational capability by fall of this year.

    66. Senator Burr. General Amos, how much risk are we taking in the 
full-spectrum mission?
    General Amos. The risk is significant. We have not had sufficient 
time, equipment, and continuity of personnel to fully train to some of 
our critical Marine Corps core competencies. We have not trained to the 
full extent of our doctrinal amphibious capabilities in years, nor have 
we conducted the type of large-scale integrated combined arms exercises 
we used to do before 2002. Certain low-supply, high demand units and 
personnel are routinely deployed to support OCOs which preclude them 
from being available for other contingencies. Additionally, the 
requirement to assign combat and combat support units to provisional/
in-lieu-of missions has also degraded designed training proficiencies. 
Our end strength growth coupled with the retrograde from OIF will help 
to minimize this challenge.

    67. Senator Burr. General Amos, as highlighted in your written 
statement, I am concerned that the Marine Corps has now, through 
necessity rather than by choice, developed a generation of mid-grade 
officer and enlisted leaders who have had to sacrifice training in 
combat specialties such as artillery, air defense, amphibious 
operations, and mechanized maneuver in order to provide other 
capabilities in high demand in a COIN war, such as security, civil 
affairs, and military police. I believe you share this concern. How do 
we rebuild 7 years of lost training and experience in our mid-career 
leaders?
    General Amos. The Marine Corps has continued to provide our leaders 
with core competency training in our schoolhouses during the post-
September 11 era. While we have added emphasis on irregular warfare, at 
the same time we have maintained a balanced emphasis on conventional 
warfare. The 202,000 end strength increase that was authorized by 
Congress will allow the Marine Corps to reduce the number of personnel 
that are applied to operational requirements which are outside of their 
combat specialties. For example, the addition of civil affairs 
personnel to the structure of some artillery units will allow the 
Marine Corps to retain the civil affairs capability in the Active 
Force, while not compromising the training of the unit in its core 
competencies. As dwell time increases to a ratio of 2:1, units will 
have a greater ability to conduct sustainment training in both core 
competency skills as well as those mission specific skills which may be 
outside of their core competencies.

                            future of mraps
    68. Senator Burr. General Amos, in order to provide the maximum 
protection for our forces, the Marine Corps requested and Congress 
provided extensive funding for Mine Resistant Ambush Protected (MRAP) 
vehicles to defeat the threat of Improved Explosive Devices in Iraq. 
Such a heavy vehicle is not as well-suited for the poor infrastructure 
and more rugged, mountainous terrain in Afghanistan. What is the future 
of the MRAP within the Marine Corps?
    General Amos. The Marine Corps currently plans to use a number of 
MRAPs in AFG to the greatest extent possible and practical, to maximize 
upon the protected mobility they provide. MRAP vehicles are already 
integrated into the equipment density list that will be used in the 
theater. Current planning figures for the MEB and Regimental Combat 
Team (RCT) being introduced during early 2009 is 473 MRAPs of all 
categories, and an additional 273, likewise representing all 
categories, upon the addition of a second RCT planned during early 
2010. A recent upgrade to the suspension of the Cougar Category I is 
expected to significantly improve the vehicles off road performance and 
durability, and in doing so the usefulness of these vehicles in the 
demanding Afghan terrain. Likewise a number of MAXXPRO Dash variant 
vehicles (category I) have been allocated to the Marine Corps by recent 
Joint Allocation and Distribution Board actions. These vehicles have 
proven to handle the Afghan terrain well.
    A number of MRAP vehicles will remain in Iraq to support Marine 
Units throughout the duration of their presence in that theater. This 
number will be drawn down appropriately based on threat and on site 
commanders desires as units depart. As these vehicles are drawn down, 
each will be assessed and repaired as required in existing facilities 
in Kuwait. Once completed these vehicles will either be deployed to AFG 
to meet the requirement there, maintained in a theater Reserve most 
likely located in Kuwait for the near term, or returned to CONUS and 
other locations in accordance with the Marine Corps Enduring 
Requirement plan for MRAP vehicles which will be presented to the 
senior leadership of the Marine Corps during June 2009 for approval.
    The recommended Course of Action that will be presented to the 
senior leadership of the Marine Corps for approval in June 2009, 
proposes that all MRAPs presently allocated to the Marine Corps and 
determined to in an appropriate operational condition, will be retained 
and designated for one of three locations. (It is assumed for planning 
purposes that approximately 2000 MRAPs will remain in serviceable 
condition upon the completion of hostilities.)

         A small portion, 745 vehicles, will be maintained in the 
        operating forces to support home station training (145), 
        vehicles for the Route Clearance Sets (140), Explosive 
        Ordnance Disposal vehicles (86), and the Combat Engineer 
        Vehicle (374) missions.
         An addition number of the remaining MRAPs (733) equal to a 
        MEBs requirement will be placed in prepositioned short-term 
        storage (accessible within 30 days worldwide). This would 
        potentially place MRAP vehicles on Maritime Preposition 
        Shipping (48), as well as War Reserve, Albany, GA, (642) and 
        Depot Maintenance Float Allowance (27), and Norway (16).
         The remaining MRAP vehicles (710) will be placed in long-
        term storage (accessible within 90 days worldwide) at existing 
        Marine Corps Depot locations, most likely Barstow, CA, based on 
        cost and climate.

    The final distribution and location for these vehicles is presently 
being examined and a recommendation will be presented to the senior 
leadership in June 2009, in conjunction with the recommendation to 
retain the entire Marine Corps fleet of MRAP vehicles.
    Though Foreign Military Sales is always a consideration and 
possibility, the current Marine Corps plan (pending approval) has all 
serviceable MRAP vehicles being retained for at least the near-term 
years.

    69. Senator Burr. General Amos, what alternatives are being sought 
to provide a lighter vehicle and how well-protected would such a 
vehicle be?
    General Amos. In the near-term MATV is being procured in support of 
an approved Joint Urgent Operational Needs Statement from CENTCOM. The 
MATV requires effective force protection (MRAP level protection) and 
mobility performance (comparable to the HMMWV) for off-road missions. 
The lack of established roads in the OEF AOR requires the MATV be 
moderately lighter than current MRAP vehicles. The vehicle will include 
integral and/or removable kits for both EFP and RPG protection. There 
are currently five vendors competing in a selection process. Under this 
best value MATV acquisition, vendors are expected to maximize both 
protection levels and off-road mobility attributes and balance the 
effects of size and weight in support of stated requirements.
    In the longer term, the Joint Light Tactical Vehicle (JLTV), which 
is currently in the technology development phase of the acquisition 
cycle, is a key component of the Marine Corps' ground combat tactical 
vehicle strategy. The program is driven by the need to reduce weight of 
our tactical vehicle fleet in order to regain expeditionary 
capabilities, particularly shipboard compatibility and rotary wing 
transportability. Another goal of the JLTV program is to regain payload 
capacity lost in our current HMMWV fleet due to the installation of 
heavy armor kits that have taken the HMMWV past its gross vehicle 
weight rating. At the same time, the JLTV program will capitalize on 
lessons learned during OIF and OEF and by our experience with the MRAP 
vehicles to incorporate armor and other protective features into the 
vehicle design. The JLTV will include integral and/or removable kits 
for both EFP and RPG protection. The JLTV will provide marines with a 
very high degree of protection on all aspects of the vehicle against 
many of the most prevalent mines and improvised explosive devices.

                          end strength growth
    70. Senator Burr. General Amos and General Chiarelli, Secretary 
Gates strongly endorsed increasing the Army and Marine Corps end 
strength during his discussion of priorities for the fiscal year 2010 
budget. Some view this as too expensive, and others are concerned that 
large ground forces will not be needed once we withdraw from Iraq and 
Afghanistan. Does the Army and the Marine Corps need the additional 
forces regardless of the duration of our commitments in Iraq and 
Afghanistan?
    General Amos. While force reductions in Iraq and Afghanistan may 
occur in the future, no decisions have yet been solidified. After we 
reduce our presence in Iraq and Afghanistan, it is clear that the 
realities of the Long War will continue to keep marines and soldiers 
deployed around the globe at an increased level. The Nation is 
currently accepting risk through our inability to meet the other 
combatant commander's theater engagements and shaping requirements 
outside of CENTCOM. To build security cooperation relationships across 
all theaters and prepare for contingencies outside of CENTCOM, the 
increased endstrength is critical to accomplishing Combatant Commander 
Theater Security Cooperation activities.
    As America's expeditionary ``force in readiness'' the Marine Corps 
must remain fast, austere, and lethal, capable of responding with 
extraordinary speed and versatility to contingencies across the range 
of military operations, against a variety of threats, and in diverse 
operational environments. This ability requires a forward presence in 
peacetime and in times of conflict. Our 202,000 force provides the 
capacity to deploy forces for operations, broadens the engagement 
options available to national leadership, and improves overall 
readiness.
    General Chiarelli. While operations in Iraq and Afghanistan will 
continue at a significant level for the foreseeable future, the Army 
will need to reach and maintain its projected end strength regardless 
of the duration of our OIF/OEF commitments. Currently, the global 
demand for Army forces exceeds the supply. This demand includes 
combatant commander requirements to conduct security cooperation 
activities and SFA missions that have consistently gone unfulfilled due 
to current operations in Iraq and Afghanistan. As we draw down forces 
in OIF/OEF, these manpower-intensive requirements will gain in 
importance, supporting the Secretary of Defense's objective of building 
ally and partner capacity. Therefore, regardless of our commitment in 
Iraq and Afghanistan, demand for forces will remain high for the 
foreseeable future as the U.S. remains persistently engaged around the 
globe.

    71. Senator Burr. General Amos and General Chiarelli, what do your 
Services gain from this increase in terms of skills and capabilities, 
units, and increased dwell time between deployments?
    General Amos. See attached slide for 202,000 build.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    General Chiarelli. Increasing the Army end strength improves our 
strategic depth. It enables the Army to rebalance by fiscal year 2011 
and achieve a BOG to dwell ratio goal of 1:2. Rebalancing the Army, 
coupled with a decrease in global demand will provide units and 
soldiers more dwell time to train for full spectrum operations while 
timely and consistent funding assists in resetting war worn equipment. 
Full Spectrum Readiness requires 18 months dwell for units to train 
beyond COIN mission requirements before their next deployment. The 
Chief of Staff of the Army's guidance is that units with less than 18 
months dwell before their next deployment will stay focused on the COIN 
mission. Units that have 18 months or longer before their next 
deployment are to focus on conventional skills training for 90 days.

    72. Senator Burr. General Amos and General Chiarelli, do you see a 
reduction in demand over the near-to-long term for Individual Augment 
assignments, training teams, and other joint requirements for mid-grade 
officer and enlisted leaders?
    General Amos. Since 2007 the Marine Corps equity in ordered JMD 
requirements has increased by 81 requirements. Growth for majors and 
lieutenant colonels has increased by 15 percent with 28 new 
requirements. For SSgts and Gunnery Sgts it has increased by 22 percent 
with 19 requirements. These figures are based upon snap shots taken 
from May of each year (2007, 2008, 2009). Demand is anticipated to grow 
with the USMC contribution to the Regional Command-South JMD and the 
AF/Pak strategy. There is a reconciliation plan with Iraq but the 
savings is still to be determined with the formation of the USFI JMD. 
The four pay grades represented above make up 55 percent of JMD 
requirements for each calendar year.
    General Chiarelli. Army sees a potential reduction in Training Team 
requirements beginning in the October/November 2009 timeframe for Iraq 
Transition Teams as we convert to the Advise and Assist BCT concept. 
The Advise and Assist BCT concept yields a reduction in NCO 
requirements in support of OIF but field grade officer requirements 
will remain about the same. For Afghanistan, we do not see the 
transition team requirements decreasing. Given the change in priorities 
to OEF, it is anticipated transition team requirement there will 
increase as we build Government of Afghanistan capacity to provide for 
their internal and external security. Army will see a 17 percent 
reduction in individual augmentee requirements in Iraq. However, this 
savings will not be a reduction in CENTCOM manpower requirements for 
the Army as it is anticipated the reduction will be applied to the 
currently identified additional requirements in Afghanistan. US Forces-
Afghanistan and its subordinate commands currently require 556 
individual augmentees of which 354 are mid-grade officers and enlisted 
leaders. Again, it is anticipated individual augmentee requirements 
will increase during fiscal year 2010.

                 preposition stock replenishment status
    73. Senator Burr. General Amos, the Marine Corps has had to draw 
heavily from its afloat preposition equipment in the three Maritime 
Prepositioning Ship (MPS) Squadrons and the Marine Corps Preposition 
Program-Norway to meet its equipment needs in Iraq and Afghanistan. 
This has increased the strategic risk if a major commitment of Marine 
Corps forces were required elsewhere. What is the status of 
replenishing our strategic stores of equipment on our MPS ships and in 
Norway?
    General Amos. Withdrawal of equipment from our strategic programs 
has been a key element in supporting combat operations, growth of the 
Marine Corps, and other operational priorities. Generous support from 
Congress has enabled long-term equipment solutions, and as a result, 
shortfalls within our strategic programs will be reset as equipment 
becomes available from industry.
Maritime Prepositioning Squadrons (MPSRON)
    Our MPSRONs will be reset with the most capable equipment possible, 
and we have begun loading them with capabilities that support lower 
spectrum operations while still maintaining the ability to generate 
MEBs capable of conducting major combat operations. The MPSRONs are 
currently rotating through Maritime Prepositioning Force (MPF) 
Maintenance Cycle-9. MPSRON-1 completed MPF Maintenance Cycle-9 in 
September 2008 and is currently at 86 percent of its full equipment 
set. As I addressed in my 2008 report, equipment from MPSRON-1 was 
required to outfit new units standing up in fiscal year 2007 and fiscal 
year 2008 as part of our end strength increase to 202,000. MPSRON-1 is 
expected to be fully reset at the completion of its next maintenance 
cycle in 2011.
    MPSRON-2 is currently undergoing its rotation through MPF 
Maintenance Cycle-9. Equipment from MPSRON-2 was offloaded to support 
OIF and much of that equipment still remains committed to forward 
operations today. With projected deliveries from industry, MPSRON-2 
will complete MPF Maintenance Cycle-9 in June 2009 with approximately 
90 percent of its planned equipment set. Our intent is to fully reset 
MPSRON-2 when it completes MPF Maintenance Cycle-10 in fiscal year 
2012. MPSRON-3 was reset to 100 percent of its equipment set during MPF 
Maintenance Cycle-8 in March 2007 and remains fully capable.
    We are currently in the process of replacing the aging, leased 
vessels in the MPF with newer, larger, and more flexible government 
owned ships from the Military Sealift Command fleet. Two decades of 
equipment growth and recent armor initiatives have strained the 
capability and capacity of our present fleet--that was designed to lift 
a Naval Force developed in the early 1980s. As we reset MPF, these 
changes are necessary to ensure we incorporate hard fought lessons from 
recent combat operations.
Marine Corps Prepositioning Program-Norway
    The Marine Corps Prepositioning Program-Norway (MCPP-N) was also 
used to source equipment in support of current operations in both OIF 
and OEF and to provide humanitarian assistance in Georgia. The Marine 
Corps continues to reset MCPP-N in accordance with our operational 
priorities while also exploring other locations for geographic 
prepositioning that will enable combat and theater security cooperation 
operations in support of forward deployed Naval Forces.

    74. Senator Burr. General Amos, does the Marine Corps have an 
investment strategy in the defense budget to fully restore these stores 
of equipment? If so, please provide a review of this investment 
strategy.
    General Amos. Our baseline budget is structured to support the 
stock replenishment plans outlined in answer #73. For the distribution 
of equipment however, our deployed warfighters still get first 
priority, so we may have situations where we're delayed in restocking. 
These costs will be covered by both our baseline budget and our 
supplemental requests. Over the long term, the Marine Corps will 
continue to incorporate our prepositioning equipment sets into our 
modernization plans and our acquisition objectives. As an element of 
the USMC Approved Acquisition Objective, MPF is modernized along with 
the rest of the force to ensure the equipment aboard MPF is as capable 
as possible given other operational priorities.

                movement of marines from okinawa to guam
    75. Senator Burr. General Amos, during one of her first 
international trips after being confirmed as Secretary of State, 
Secretary Clinton, signed an agreement with the Government of Japan 
regarding the relocation of about 8,000 marines from Okinawa to Guam. 
What is the status of crucial decisions, such as the environmental 
assessment needed to build an airfield for the marines to replace the 
existing runway at MCAS Futenma on Okinawa, and funding by Japan to 
support this move?
    General Amos. [Deleted.]

    76. Senator Burr. General Amos, what is your level of confidence 
that the move to Guam can be completed on schedule?
    General Amos. While we are committed to the relocation to Guam, we 
foresee significant challenges with meeting the completion timeline of 
2014. Of note, the original concept for the Guam buildup was a 7 year 
construction schedule to begin in 2007. We are currently on a 4-year 
construction schedule to begin in 2010. Issues that impact the 2014 
timeline include Japanese construction of the FRF, the Guam 
Environmental Impact Statement, the physical movement of 8,000 marines, 
and programming. However, perhaps the key issue with the 2014 timeline 
is construction capacity on Guam. A completion timeline of 2017 or 
beyond is more realistic based on an assessment of equipment, material, 
workforce, infrastructure, and transportation requirements available on 
Guam.

    77. Senator Burr. General Amos, what is being done to ensure that 
Guam has adequate resources to make the necessary infrastructure 
improvements to its port and roads to support the buildup of marines 
and other U.S. forces?
    General Amos. [Deleted.]

    78. Senator Burr. General Amos, given the current plan, do you 
believe the marines stationed on Guam will be able to fulfill the full 
range of training requirements? If not, what shortfalls exist and what 
arrangements will need to be implemented to satisfy training 
requirements?
    General Amos. Without CNMI ranges and training areas, Marine Corps 
units stationed on Guam will not be able to maintain operational 
readiness along their core competencies without extensive travel to 
other Marine Corps, DOD or allied nation ranges.
    Current NEPA efforts and other key elements such as funding do not 
include all Marine Corps training-range requirements for units to be 
relocated to Guam. Specifically absent are the facilities to support 
enhanced unit-level, live-fire training.
    Training facilities on Guam and the Commonwealth of Northern 
Mariana Islands would reduce our dependency on foreign training 
facilities, which is often complicated by status-of-forces agreements, 
quarantine procedures, and political sensitivities
    The Marine Corps continues to work with the Secretary of the Navy 
and DOD to address our training requirements.

            changes to the marine corps' tables of equipment
    79. Senator Burr. General Amos, what has the Marine Corps learned 
about needed changes to its unit Tables of Equipment over the course of 
the last 7 years?
    General Amos. We have rigorously reviewed our tables of equipment, 
using feedback received from our Urgent Universal Need Statements, our 
Marine Corps Lessons Learned System, and the results of a Corps-wide 
evaluation of all Tables of Equipment by our own subject matter experts 
who have operated in Iraq and Afghanistan. As a result of this review, 
we have revised our tables of equipment to reflect the capabilities 
required for success in the missions we are assigned today, as well as 
the full range of missions we anticipate in the future.
    While our new tables of equipment provide for increased 
capabilities in many areas today--particularly protected mobility, 
tactical level communications, and crew-served weapons--they also serve 
as the basis for future force development. We continually refine our 
requirements to exploit new technology and to continue to adopt new 
lessons. As a result, we see trends reflective of irregular warfare, 
such as requirements for increased capabilities in command and control 
and persistent ISR, as well as requirements to further enhance the 
organic ability of small units to perform a wide array of missions 
traditionally associated with higher echelon headquarters.
    The Marine Corps recently completed an initial review of its 
Operating Forces' ground tables of equipment (T/E) requirements, which 
took into account the changing security environment and hard lessons 
learned from 7 years of combat. This review was synchronized with our 
modernization plans and programs, and addressed for enhanced mobility, 
lethality, sustainment and command and control needed across the MAGTF. 
The MAGTF T/E review was also an integral part of the critical work 
being done to reset, reconstitute and revitalize the Marine Corps. The 
resultant T/Es reflect the capabilities required not only for the 
Corps' current mission, but for its future employment across the range 
of military operations, against a variety of threats, and in diverse 
terrain and conditions.

    80. Senator Burr. General Amos, how are these changes being 
implemented and funded?
    General Amos. We are in the process of conducting a detailed 
comparison of our new tables of equipment with our equipment stocks 
currently on hand or contracted and the equipment that is currently 
programmed for procurement in future years. This will provide us a 
complete picture of our equipment shortfalls in all categories, 
including our actual unit table of equipment requirements, as well as 
our requirements for prepositioned stocks, training, war reserve, and 
rotational stocks to support our depot level maintenance programs. At 
the same time, we continually assess our procurement priorities to 
ensure that our resources are being applied wisely.
    When our detailed review is complete, we will apply the results to 
our planning processes for near-term reset and reconstitution, as well 
as our far-term force development planning processes. This will enable 
informed decision-making with regard to future programming, 
prioritization, and acceptance of risk.

                        training range adequacy
    81. Senator Burr. General Amos, do the existing Marine Corps' 
training ranges provide sufficient land area and capability to conduct 
realistic predeployment training for the proposed increased end 
strength of Marine Corps units?
    General Amos. The Marine Corps has identified Service-level 
deficits in its ability to train to the many missions that it faces. 
Continued analysis and the fielding of new systems may cause other 
requirements to surface in the future, but today the projected 
operational range requirements at the Service level focus on the 
following critical deficiencies.

         The inability of Marine Corps ranges to fully exercise a 
        large MAGTF in a realistic, doctrinally appropriate training 
        scenario.
         Inadequate training opportunities for the Marine units 
        stationed in the western Pacific and Hawaii.
         Inadequate aviation training facilities on the east coast of 
        the United States with range capabilities such as those 
        provided by MCAS Yuma on the west coast.

    As noted, increasing demands on training ranges and risks of 
constrained access to the existing range inventory from encroachment 
pressures present complex challenges. In the future, the Marine Corps 
expects these challenges to increase, resulting in additional 
deficiencies to the three critical shortfalls identified above.

    82. Senator Burr. General Amos, are you seeking to make any changes 
or expansions to training ranges?
    General Amos. As noted, the Marine Corps has identified three 
critical deficiencies in available land area to support required 
training.

         To address the inability of Marine Corps ranges to fully 
        exercise a large MAGTF in a realistic, doctrinally appropriate 
        training scenario, the Marine Corps is evaluating the potential 
        expansion of Marine Corps Air Ground Combat Center (MCAGCC) at 
        Twentynine Palms. MCAGCC is the center of excellence for 
        developing and executing combine-arms live-fire training of the 
        MAGTF; however, MCAGCC cannot accommodate a full-scale, live-
        fire MEB exercise. Expansion of MCAGCC would significantly 
        enhance the ability of the Marine Corps to continue to provide 
        trained marines, Marine units, and MAGTFs in furtherance of 
        national security objectives. Having obtained necessary 
        authorizations from DOD, the Marine Corps is proceeding with 
        analysis and assessments in support of land expansion.
         To address inadequate training opportunities for the Marine 
        units stationed in the western Pacific and Hawaii, the Marine 
        Corps is engaged in the planning initiative to relocate units 
        from Okinawa to Guam, in order to influence that initiative to 
        include development of training ranges and infrastructure on 
        Guam and selected islands of the Commonwealth of the Northern 
        Mariana Islands. Development of adequate range facilities for 
        the conduct of enhanced small-unit live-fire training will help 
        alleviate training-related deficits experienced by marines 
        stationed in Okinawa and Hawaii.
         To address the need for an aviation training range on the 
        east coast of the United States with range capabilities such as 
        those provided by MCAS Yuma on the west coast, a preliminary 
        study of the Marines Corps' Townsend Range in Georgia is 
        underway. This study is assessing the feasibility of expanding 
        Townsend to support aviation training utilizing current and 
        emerging weapons, systems and platforms in a doctrinally 
        appropriate training environment.

    In addition to these focused initiatives, at the direction of the 
Commandant, an initiative is underway to establish an overarching land 
acquisition strategy addressing current, emerging, and future training 
requirements and associated land and airspace needs (through 2060) to 
ensure the Marine Corps remains fully mission-capable.

    83. Senator Burr. General Amos, what additional investments are 
required to improve training for Marine Corps forces?
    General Amos. The Marine Corps has made unprecedented investments 
in its training infrastructure during the past 5 years. The primary 
focus of this modernization effort to date has been to meet the 
training requirements emerging from the theaters of operation, 
particularly those relating to urban and counter-IED tactics. As we 
look to the future, the Range Modernization Program will shift some of 
its emphasis to increase investment in providing realistic, immersive 
training environments for our marines using integrated systems for 
tactical engagement, range instrumentation, inter-active targetry, 
threat simulators, and after-action review. The program is funded 
through the Future Years Defense Program in a manner that will allow us 
to address many of our deficiencies and improve training at all of our 
home stations.

                    adequacy of amphibious shipping
    84. Senator Burr. General Amos, during his discussion of the fiscal 
year 2010 budget, Secretary Gates indicated that the issue of 
amphibious shipping and sea-basing programs, such as the 11th Landing 
Platform Dock (LPD) ship and the Mobile Landing Platform (MLP) ship, 
will be delayed until fiscal year 2011 in order to assess the costs and 
analyze the amount of these capabilities the Nation needs. What are 
your views on the steady-state requirements for amphibious shipping?
    General Amos. The MPF (Future) (MPF(F)) program is a critically 
essential element of the Marine Corps warfighting capability, and the 
Corps cannot withstand any additional shipbuilding programmatic delays.
    The Marine Corps requires three MEB's worth of expeditionary 
warfighting capability and lift. We have already accepted risk in our 
amphibious lift capacity by agreeing to fiscally constrain shipping 
availability for each of our 2 MEB assault echelons from 17 to 15 
ships. And, the fiscal year 2009 30-year shipbuilding plan does not 
provide the exact mix of required LHA/LHDs, LPD-17s, and LSD-41/49 
equivalents, which further amplifies the risk we're taking in our 
amphibious forcible entry capabilities.
    The Marine Corps intends to fight any major contingency operation 
as a Marine Expeditionary Force (MEF), which consists of three 
Regimental Landing Team (RLT)-size operational maneuver elements. The 
first two of those RLTs are intended to be employed from the amphibious 
Assault Echelon shipping described above, and the third RLT maneuver 
unit will operate from MPF(F) to reinforce and support the amphibious 
Assault Echelon units.
    The 30 operationally available amphibious ships required for 2.0 
MEB Assault Echelon, coupled with MPF(F)s 1.0 MEB-level reinforcing and 
support echelon, and the Assault Follow-On Echelon (lifted by Military 
Sealift Command black-bottom shipping) provide the 3.0 MEB necessary to 
enable a sea based, MEF-level warfighting capability.

                      family readiness initiatives
    85. Senator Burr. General Amos and General Chiarelli, in your 
opinion, how are military families handling the extremely intense 
deployment schedule in support of overseas contingencies?
    General Amos. There can be little doubt that nearly 8 years of high 
OPTEMPO have put stress not only on our forces but on our families as 
well. The Commandant and all Marine Corps leadership remain concerned 
about the impact on our families, and we have committed unprecedented 
resources to putting our family readiness programs on a wartime 
footing. In fiscal year 2010, many of the initiatives and improvements 
that were funded in supplemental budgets are now sustained in our 
baseline funding. We continue to carefully monitor our family health 
indicators.
    To mitigate the stress on military families and children facing the 
multiple challenges of having a loved one at war, the Marine Corps is 
partnering with the U.S. Navy Bureau of Medicine and Surgery (BUMED) 
and UCLA's Center for Community Health and the National Center for 
Child Traumatic Stress to sponsor a program called Project FOCUS, 
``Families OverComing Under Stress,'' at our major deploying bases. The 
family-oriented program is designed to work with marines, spouses and 
children to improve family communications post deployment through 
specialized resiliency training. Working with the existing teams of 
dedicated military family services personnel, FOCUS staff will assist 
families to better understand how combat operational stress affects 
them and their service family member, how to manage it, and how to 
strengthen themselves and their children in readiness for tomorrow. 
FOCUS is currently being provided at Camp Pendleton, Twentynine Palms, 
Camp Lejeune, MCB Hawaii, and MCB Okinawa. Next year, it will be 
expanded to include MCB Quantico, the Wounded Warrior Regiment and 
Battalions, and Marine Corps Reserve units in the Los Angeles Basin.
    We also know from our last Quality of Life Study (2007) that 
despite the global war on terror and the high OPTEMPO, marines and 
their families are generally pleased with the program services and 
support they are receiving from the Marine Corps. The study also found 
that there was an increase in overall and specific satisfaction across 
the board for spouses when compared with the results from the pre-OIF/
OEF 2002 study. In fact, the overall Quality of Life score for the 
spouses was the highest seen for any of the respondent groups (marines 
assigned to an installation, independent marines, and recruiters) 
considered in this study. Spouses greatly appreciate the health care 
benefits provided by the Marine Corps, the quality of professional 
child care they receive, and the educational opportunities for their 
children. These factors and others had a positive impact on the family 
decision to remain part of the Marine Corps.
    General Chiarelli. Army families are feeling the impacts of 
persistent conflict, but remain resilient in the midst of extraordinary 
sacrifices as their loved ones advance the cause of freedom around the 
world. Family members have set aside careers, interrupted their 
education, and when living far from a military base, struggled to 
locate child care equal to the price and quality available at military 
installations. Quality of life programs continue to contribute to 
soldiers' and families'sense of belonging to a caring military 
community, mitigate stress, and assist geographically dispersed 
soldiers and families which all reinforce their desire to remain in the 
Army as a way of life despite the serious military stressors and 
strains they experience.

    86. Senator Burr. General Amos and General Chiarelli, are you 
seeing any trends that would point to changes in the overall health and 
support of our Marine Corps families?
    General Amos. There were year-on-year increases for 2008 in suicide 
incidents, sexual assault incidents, substantiated child maltreatment 
incidents, and domestic abuse incidents. We also know that divorce 
rates have increased. When we did a ``Financial Health Quick Poll'' 
last summer to determine the level of financial stress among marines 
and their families as a result of recent economic changes, we learned 
that our Marine Corps families, like families in the civilian world, 
were experiencing some financial stress.
    The survey indicated that of those who responded to the Quick Poll, 
15 percent of enlisted marines and 5 percent of Marine officers were 
classified as being in ``financial distress.'' Respondents reported 
that the most frequent financial problems experienced within the past 
year were utility rate increases, rent increases, and property tax 
increases. Over half of enlisted marines respondents stated they have 
borrowed money from family or friends, and 38 percent have skipped 
payment on their bills.
    To alleviate stress on marines and their families facing financial 
difficulties and help them develop financial management skills, we are 
providing personal financial management (PFM) counseling services and 
workshops. To date, 7,228 marines and 2,077 family members have 
received one-on-one financial counseling, while 115,993 marines and 
5,055 family members have attended our PFM workshops/classes.
    General Chiarelli. Never before in the history of our Army have we 
asked so much of our families, who make incredible sacrifices and 
remain steadfast while enduring the stress of almost 8 years at war. In 
response, the Army continues to enhance programs and services to enable 
soldiers and families to become resilient and ready to address the 
challenges of deployment and separation.
    From 2001 to 2008, overall soldier satisfaction with the quality of 
Army life rose from 63 percent to 79 percent for officers and from 52 
percent to 65 percent for enlisted (fall 2008 Sample Survey of Military 
Personnel). We measure the effectiveness of Army support programs by 
surveying soldiers and families on a regular basis to seek their 
opinions, assess their satisfaction, and most importantly, monitor 
their adaptation to the unique challenges of Army life. These trends 
help us match the capabilities of Army programs to the expectations of 
our soldiers and families--keeping the Army strong, ready, and 
resilient.
    In 2007, the Army unveiled the Army Family Covenant, a commitment 
to provide soldiers and families a quality of life commensurate with 
their level of service and sacrifice to the Nation. In the 2 years 
since the Covenant was unveiled, the Army has moved out with aggressive 
improvement strategies that have reaped significant improvements in 
soldier and family quality of life including family programs and 
services, increased accessibility to health care, improved housing, 
excellence in schools, youth and child services, and expanded education 
and employment opportunities for family members. We believe the Army 
Family Covenant is making a difference, and while we are moving in the 
right direction, there is still much work to do.

    87. Senator Burr. General Amos and General Chiarelli, what has the 
Marine Corps done to improve and invest in family readiness programs 
given the enormous strain the force has been under?
    General Amos. Over the past year, the Marine Corps initiated a 
multi-year strategy to transition family support programs to a wartime 
footing, per the Commandant's directive. To achieve this, we conducted 
a series of assessments and received feedback from our marines, their 
families, and our commanders to measure the effectiveness of our 
services and family support programs.
    As a result, we implemented key reforms at every level of command 
and aboard each installation. Central to our transformation efforts, we 
expanded the depth and breadth of our family readiness training and 
support programs and established the Unit Personal and Family Readiness 
Program to educate our marines and their families and to empower them 
to achieve and maintain a high state of personal readiness and 
resiliency. Specific program enhancements:
Unit Personal and Family Readiness Program
         Authorized full-time civilian Family Readiness Officer 
        billets in more than 400 units, who serve as the focal point 
        for families of our marines;
         Redesigned Marine Corps Family Team Building to focus on the 
        development and promulgation of high-quality training that 
        supports the life cycle of marines and their families through 
        mission, career and life events in support of the Unit Personal 
        and Family Readiness Program;
         Developed comprehensive training for pre, during, and post-
        deployment to address the increased demands and potential 
        impact of multiple, sustained deployments on marines and their 
        families;
         Developed an inventory of Lifeskills training courses that 
        address the specific challenges of military life, as well as 
        those of personal and family life;
         Expanded family readiness support to include parents of 
        single marines as we acknowledge the role extended family 
        members play in fostering personal and family readiness;
         Utilized the Mass Communication Tool to enable Family 
        Readiness Officers to expand communications between marines and 
        their families through simultaneous broadcast of communication 
        via email, text messaging, or telephone;
         Initiated the Family Readiness Assessment Tool to provide 
        unit commanders with the ability to assess the resiliency of 
        their marines and families;
         Conducted research and analysis to assess the effectiveness 
        of current communication methods, to identify communication 
        needs of marines and their families, and to develop a formal 
        organizational communications system that will facilitate 
        three-way communication: commands to marines and families; 
        marines and families to commands; and marines and families to 
        each other;
         Initiated substantial infrastructure and quality of life 
        programming improvements at remote and isolated commands to 
        promote the sense of community required to form strong bonds 
        among our marine families; and
         Installed wireless networks and access points at over 230 
        facilities across the Marine Corps to better connect marines 
        and their families, as well as enhance morale and recreation 
        capabilities on installations. We are also testing a Morale-
        Portable Satellite Communications Suite that provides an 
        internet and web-cam capability to FOBs in Afghanistan where 
        traditional ``Internet Cafes'' are unavailable.

Exceptional Family Member Program
    Restructured the program and established a continuum of care for 
our Exceptional Family Member Program families. Specifics:

         This program, which is fully staffed at both the installation 
        and headquarters levels, is helping nearly 6,500 families gain 
        access to medical, educational, and financial services that may 
        be limited or restricted at certain duty stations.
         A Marine Corps-funded Respite Care Program provides up to 40 
        hours of care per month to all enrolled families, and can be 
        used in conjunction with the TRICARE Extended Care Health 
        Option benefit.
         We are working with the Bureau of Medicine and Surgery and 
        TRICARE to resolve health care access and availability issues 
        at several bases.
         Legal counsel is now on staff to advise our exceptional 
        family members on State and Federal entitlements and processes.
School Liaison Program
    Established a school liaison capability at every Marine Corps 
installation to help parents and commanders mitigate education 
transition issues by interacting with local schools and advocating for 
school-age children to insure access and availability to quality 
education and special needs services. In addition, the Marine Corps 
supports the DOD effort to develop an ``Interstate Compact on 
Educational Opportunity for Military Children'' with states to enable 
reciprocal acceptance of entrance, subjects, testing, and graduation 
requirements. To date, 18 States have passed the Interstate Compact, 
which accounts for 62 percent of all military children. Other states 
are moving toward passing the compact as well.
Children, Youth and Teen Programs
    Adopted multiple strategies to increase our child care capability:

         Expanded hours to address increased OPTEMPO;
         Developed partnerships with organizations on and off base, 
        such as the National Association of Child Care Resource & 
        Referral Agencies, to provide long and short-term support for 
        marines and their families who are geographically dispersed, 
        deployed, and severely injured; and
         Started providing 16 hours of reimbursed respite care per 
        month for families with a deployed marine.
         Currently, we are providing 11,757 child care spaces and 
        meeting 63.6 percent of the calculated total need. It is 
        important to note that the Marine Corps has initiated rigorous 
        data collection and analysis improvements. As a result, it will 
        be necessary to correct the 2007 annual summary due to 
        identified reporting errors. Our reported rate of 71 percent of 
        calculated total need last year is more accurately stated as 
        59.1 percent.
         To meet the DOD standard of 80 percent of potential need, we 
        would require slightly over 3000 additional spaces. To address 
        this requirement, Congress has funded 915 additional spaces in 
        fiscal year 2008/2009. The ARRA and 2009 Overseas Contingency 
        request would provide an additional 1,700 spaces. We are also 
        considering additional modular Child Development Centers, 
        subject to more detailed planning and availability of funds. As 
        the needs of our families change, our program is committed to 
        grow and adapt to meet these needs.

    These initiatives and others not only demonstrate the commitment of 
the Marine Corps to our marines and their families, but also underscore 
the significance of Marine and family support to mission readiness.
    General Chiarelli. Under the Army Family Covenant, the Army began 
to implement aggressive improvements to a broad range of family-
oriented quality of life programs and services to standardize and fund 
existing family programs and services; increase accessibility to health 
care; improve soldier and family housing; ensure excellence in schools, 
youth, and child services; and expand education and employment 
opportunities for family members.
    Since the Covenant's inception, the Army has made significant 
progress and improvements in quality of life programs including 
implementation of the Yellow Ribbon Reintegration Program to minimize 
the stress of military service, deployed 200,000 training products to 
strengthen resilience in military children; increased staff for the New 
Parent Support Home Visit Program; added additional respite care 
funding for Families with Exceptional Family Members and those with a 
deployed sponsor; established soldier and Family Assistance Centers; 
and placed thousands of spouses in jobs--just to name a few.
    While we are moving in the right direction with the Army Family 
Covenant, there is still much work to be done. The Army remains 
determined to provide a strong and supportive environment where 
soldiers and their families can thrive.

                            recruit quality
    88. Senator Burr. General Amos and General Chiarelli, both the Army 
and the Marine Corps have surpassed all expectations by achieving its 
growth targets as it expands respective end strengths. How has this 
expansion impacted recruit quality?
    General Amos. The quality of our recruits is at a historical high. 
The Marine Corps has been and remains committed to recruiting only the 
most highly qualified young men and women into our Corps. We continue 
to believe, and the evidence bears out, that recruiting high quality 
applicants results in decreased attrition from recruit training during 
the marine's first term. High quality applicants become high quality 
marines, who perform well during all aspects of their military careers 
and maintain the high standards our Nation expects from her marines. 
Because of this commitment to quality, the Marine Corps has not, and 
will not, reduce our quality standards or enlistment criteria.
    General Chiarelli. The performance of young soldiers in combat and 
reports of their performance from leaders in the field attest to the 
fact that the quality of the young men and women volunteering to serve 
in America's Army remains of the highest caliber. The recruiting 
environment--which in previous years yielded recruiting cohorts that 
significantly exceeded the Army's and the DOD's recruiting quality 
standards--has impacted our ability to meet DOD quality mark goals for 
the past 5 years. However, despite these shortfalls, we are now 
experiencing a return to favorable conditions and the result is a 
marked increase in fiscal years 2008 and 2009 recruit quality. The 
Army's percentage of new enlisted soldiers considered ``high quality'' 
with a Tier 1 education (high school diploma) increased by 2.1 percent 
in 2008. Additionally, recruits who scored highly (50 percent to 99 
percent) on the Armed Forces Qualification Test (AFQT) increased 1.6 
percent; and recruits who scored poorly (30 percent and below) on the 
AFQT decreased 1.2 percent. The Army is expected to meet every DOD 
quality mark goal in all components for fiscal year 2009 and remains 
committed to recruiting the best qualified volunteers who desire to 
serve our Nation as soldiers.

      army noncommissioned officer and mid-level officer shortfall
    89. Senator Burr. General Chiarelli, as a result of nearly 7 years 
of war, multiple deployments, and increasing strain on military 
families, the Army is experiencing a shortfall of young officers and 
NCOs--positions that many consider the backbone of the operational 
military. In an attempt to address this shortfall, the Army began in 
2005 automatically promoting enlisted personnel in the rank of E-4 to 
E-5 without requiring them to appear before a promotion board. In April 
2008, the Army extended this policy to include automatic promotions 
from E-5 to E-6. While a soldier's name can be removed from the 
promotion list by his or her commander, it will be automatically 
returned to the pending promotions list the following month. This 
change in policy reduced the NCO shortfall by nearly 70 percent; 
however, it also led to an influx of unqualified and untested soldiers 
filling leadership roles in Iraq and Afghanistan. What is the current 
rate of promotion from E-4 to E-5? From E-5 to E-6?
    General Chiarelli. Soldiers previously denied Department of the 
Army directed promotion list integration are automatically re-
integrated quarterly, not monthly, in support of Army quarterly leader/ 
professional developmental counseling requirements. In fiscal year 2009 
(year to date), on average, the monthly Army selection rate for 
promotion to sergeant is 5.55 percent with a selection rate for 
Soldiers automatically integrated to sergeant at 0.34 percent. The 
monthly selection rate for promotion to staff sergeant is 4.22 percent 
with a selection rate for Soldiers automatically integrated to staff 
sergeant at 0.16 percent.

    90. Senator Burr. General Chiarelli, are you concerned that 
soldiers are being promoted based on numerical requirements rather than 
on their qualifications and service record?
    General Chiarelli. Commanders, Command Sergeants Major, and First 
Sergeants throughout our Army are upholding their inherent 
responsibility to ensure only highly qualified soldiers remain 
integrated onto the recommended list for promotion to sergeant and 
staff sergeant. I believe our leaders are taking this responsibility 
with the highest regard.
    The promotion system, as an administrative process, is designed to 
ensure promotion of sufficient numbers of qualified soldiers to satisfy 
requirements and it works very well. I trust that commanders are not 
allowing integration to promotion lists of any unqualified soldier.

    91. Senator Burr. General Chiarelli, are there any plans pending to 
eliminate the automatic promotion of sergeants and staff sergeants 
without requiring them to appear before a promotion board?
    General Chiarelli. There are no automatic promotions and there are 
no plans to terminate the provisions of the program. We are considering 
renaming the program ``Commander's List Integration'' so the term 
``automatic'' is not mistakenly applied to a promotion. While the Army 
automatically integrates qualified soldiers, they remain on the list 
only if the commander approves integration. Soldiers integrated to the 
promotion list based on this policy receive the minimum number of 
promotion points and they must compete for promotion with those who are 
integrated through normal promotion board processes. Consequently, the 
likelyhood of a soldier automatically integrated onto the promotion 
list is much smaller. Army standards are retained and enforced by 
commanders. Automatic list integration does not guarantee automatic 
promotion. There is no provision or intent for automatic list 
integration to result in automatic promotion.

    92. Senator Burr. General Chiarelli, these shortfalls extend to the 
junior and mid-level officer corps, as well. In recent testimony before 
the Senate Armed Services Committee, military analyst Andrew 
Krepinevich noted that the Army is projected to experience a shortfall 
of approximately 3,000 captains and majors until at least 2013 as the 
Army increases its Active-Duty end strength by 65,000. Do you believe 
this projected shortfall is accurate?
    General Chiarelli. No. The Army currently projects to be at full 
strength for captains by fiscal year 2013, but will have a shortfall of 
1,355 majors that year. The Army's company grade retention continues to 
improve, but our growth in structure and capabilities requires the Army 
to retain captains and majors at rates well above historical averages.

    93. Senator Burr. General Chiarelli, can you elaborate what 
consequences this shortfall will have on the Army's ability to meet its 
requirements?
    General Chiarelli. Our aggressive focus on shortages over the past 
several years will allow us to be at or over strength slightly for 
captains by fiscal year 2011, but we are likely continue to be short 
for majors through fiscal year 2015, barring any subsequent drop in 
required force structure.

    94. Senator Burr. General Chiarelli, can you describe what steps 
the Army is taking to address this shortfall through the Captain's 
Incentive Program, as well as any other relevant efforts?
    General Chiarelli. Beginning in fiscal year 2006, we implemented a 
pre-commissioning program, which allows cadets to select a branch, post 
of choice, or graduate school for an additional service obligation of 3 
years. This program has proved successful over the past 3 years with 
over 4,500 participating cadets to date. The Army expects this program 
to reduce loss rates among U.S. Military Academy (USMA) and Reserve 
Officer Training Corps (ROTC) scholarship commissioned officers 
beginning in fiscal year 2010 when officers from the earliest year 
group will have completed their normal active duty service obligation 
(5 years for USMA and four for ROTC officers). As a result of this 
program, the participating officers will be retained for 8 and 7 years, 
respectively.

    95. Senator Burr. General Chiarelli, how do you gauge the 
effectiveness of these programs?
    General Chiarelli. The Army's Captains Retention Menu of Incentives 
program began in September 2007. This program targeted Army Competitive 
Category and selected Medical Service and Army Nurse Captains, and 
offered officers from year groups 1999 through 2005 the opportunity to 
select a branch of choice, post of choice, military school, graduate 
level education, or Critical Skills Retention Bonus in exchange for an 
agreement to serve 3 additional years past any existing service 
obligations. This program closed in November 2008, and has guaranteed 
obligations through the beginning of fiscal year 2011 for over 15,300 
captains. In 2006, at the beginning of our most significant modular 
growth, the Army was projected to be short almost 7,000 captains and 
majors in the summer of 2009. The projected shortage for the end of 
summer 2009 is now less than 3,000 at these grades. We are confident 
that our Menu of Incentives played a significant part in reducing our 
shortages.
    For the future, The Army is developing nonmonetary retention tools 
for commanders at all levels that provide direct comparisons between 
the benefits of service careers and careers in the civilian sector, as 
well as web based interactive information sites, and personal outreach 
tools that enable the direct interaction between senior leaders and 
their junior officers to maximize the potential to retain our best and 
brightest young officers.

                   readiness rates of support forces
    96. Senator Burr. General Chiarelli, much attention has been given 
to the current readiness of our combat units. However, can you briefly 
comment on the difference between the current readiness rates of combat 
units, combat support units, and combat service support units for both 
Active and Reserve component forces?
    General Chiarelli. FM 3-0, Operations, establishes the Army's six 
``warfighting functions'' and no longer uses combat, combat support or 
combat service support to categorize forces. There is, however, no 
doubt that the readiness of the entire Army has been stretched and the 
implications of that stress are available through classified responses 
or from the Chairman's Risk Assessment.
    The Army closely monitors the readiness of all its forces--movement 
and maneuver units as well as intelligence, fires, sustainment, command 
and control and protection units. All forces have experienced degraded 
readiness ratings due to prolonged rotations resulting from more than 8 
years of armed conflict. For units other than movement and maneuver 
units, this strain has been more pronounced, particularly in the 
Reserve component, where the majority of these units are included in 
the force structure.
    To remedy this decline and to meet the combatant commander's demand 
for forces, the Army has developed the ARFORGEN process. The purpose of 
the process is to synchronize resourcing of units to meet routine and 
predictable periods of availability and deployment. A major objective 
of the process is to accurately track and resource the readiness of all 
Army units across all three components (Active Army, Army National 
Guard, and Army Reserve). This approach ensures that the Army is 
capable of providing the best trained and led formations to meet 
current and future demands.
    The Army remains committed to providing detailed, accurate, and 
commander-centric assessment of unit capabilities. Our readiness 
reporting procedures will continue to measure the core functions of 
Army units to meet wartime requirements. Additionally, Army units will 
report readiness assessments to complete assigned missions when 
directed by combatant commanders.

    97. Senator Burr. General Chiarelli, does the Army's plan to 
restore a balance to the force by 2011 include sustaining, preparing, 
resetting, and transforming all Army units, or is the Army just 
concentrating on major combat units?
    General Chiarelli. The Army is committed to providing every 
deploying soldier and unit regardless of component, with the best 
training, equipment, and formations and ensuring these deployed units 
are reset to restore all deployed units to a level of personnel and 
equipment readiness to permit resumption of training for future 
missions. The Army transformation plan includes all units in all 
components-Active, Guard, and Reserve, and is scheduled to be 97 
percent complete by the end of 2011.

    98. Senator Burr. General Chiarelli, is the Army differentiating 
between the Active and Reserve components in your rebalancing plans?
    General Chiarelli. The rebalance plan is predicated on the assured 
access to units and the different ARFORGEN Model deployment rates 
utilized by the Active component and the Reserve component. The Army 
focuses rebalance plans on ensuring the required forces are available 
to the combatant commanders and Governors in a timely manner. The 
rebalance plan considers capability placement within components based 
on these factors.
    Since 2003, the Army has adjusted the mix in combat, combat 
support, and combat service support force structure by over 88,000 
across all three components, to include reductions in field artillery 
and armor units and growth in military police, engineers, civil 
affairs, and psychological operations. During the latest Army force 
sizing analysis in 2008, no major rebalancing efforts occurred between 
components to allow the Reserve component the time needed to build 
readiness.
    The Army continuously makes adjustments to the balance of 
capabilities between components as new requirements emerge. The Army 
remains committed to ensuring the interoperability of these units 
through standardized design and uniformed fielding regardless of 
component.

                        modular redesign of army
    99. Senator Burr. General Chiarelli, the Army has undertaken a 
restructuring of its combat and support forces to a more flexible, 
brigade-centric force thought to be better suited for the 21st century 
security environment. At the same time, the Army underwent a revision 
to Army FM 3.0 Operations, to reflect an increased emphasis on 
stability and civil support operations. However, some critics have 
raised concerns that these smaller, modular brigades with diverse 
mission sets are inadequately designed and ill-equipped to execute the 
full range of missions they have been assigned (from testimony from 
March 26, 2009, Airland Subcommittee hearing on the Future of U.S. 
Ground forces). Please discuss the progress of this restructuring and 
describe what changes, if any, you would recommend.
    General Chiarelli. Operations today require versatile, well-trained 
units and tough, adaptive commanders. There is no set formula for 
applying landpower. Each campaign and major operation requires an 
original design and flexible execution. Army forces must be able to 
operate as part of a joint or multinational force anywhere on the 
spectrum of conflict. Army modular elements have the ability to be 
organized and scaled to build a task force uniquely tailored to a 
specific operation. These modular formations, though some may be 
smaller, far outstrip the capabilities from previous organizations. 
These capability increases are a direct result of applying lessons 
learned from combat operations. The Army will continue to incorporate 
these combat insights as well as listening to the concerns and desires 
of commanders in the field to ensure future formations are even more 
capable.
    By the end of fiscal year 2009, the Army will have completed 87 
percent of its transformation from a division-centric force to a 
brigade-centric modular force. The Army will have transformed 70 of 73 
BCTs, 192 of 227 modular support brigades, and increased Special 
Operations Forces force structure from 26,000 to 37,000.

    100. Senator Burr. General Chiarelli, have combat assessments of 
modular brigades returning from overseas deployments revealed any 
concerns with the structure and effectiveness of these units?
    General Chiarelli. The Army assesses force sufficiency based on 
lessons learned, requests for forces to meet current operational 
requirements, and the analysis of projected strategic demands. The 
Army's concept of full spectrum capability requires Army forces to be 
prepared to meet the demands of offensive, defensive, and stability 
operations. The existing operational environment sets the emphasis for 
which capability is needed to meet those demands and refocus Army 
design efforts. Employing lessons learned from combat experience and 
addresses strategic, operational, and tactical realities has allowed 
the Army to better protect and care for soldiers and guarantee mission 
success through changes in doctrine, organization, training, and 
equipment.

                               dwell time
    101. Senator Burr. General Chiarelli, during testimony in February, 
Secretary Gates stated the Department's goal for the Army to increase 
dwell time to approximately 1 year deployed and 15 months at home by 
the end of 2009, 1 year deployed and 2 years at home by fiscal year 
2010, and by fiscal year 2011, 1 year deployed and 30 months at home. 
Given the current plans for a drawdown of brigades in Iraq and 
sustained force in Afghanistan, do you believe this is an achievable 
goal?
    General Chiarelli. BOG to dwell ratio is driven by global demand 
vs. the supply of available forces. The Army's goals for soldier dwell 
are consistent with the Secretary of Defense's January 27, 2009, 
testimony, but demand and available forces will ultimately drive the 
dwell. In fiscal year 2011, the Army will achieve 45 Active component 
BCTs. As long as demand does not exceed 11 Active component BCTs, we 
will achieve a BOG to dwell of 1:2.5.
    The Army's long-term sustainable goal is to allow Active component 
units and soldiers three times the amount of time home as they are 
deployed (1:3 ratio). The Army's long-term goal for the Reserve 
component is 12 months mobilized for every 5 years not mobilized (1:5 
ratio). Improving the deployed dwell ratio depends on reducing the 
global demand for BCTs which is currently at 27 BCT equivalents. The 
Army's current Active component BOG to dwell is 1:1.3.

    102. Senator Burr. General Chiarelli, besides the current OPTEMPO 
and the potential for other contingencies, what factors will affect the 
Army's ability to meet this dwell time plan?
    General Chiarelli. Demand for Active component BCTs in Iraq and 
Afghanistan will continue at a significant level for the foreseeable 
future. Additionally, the high global demand for forces also includes 
combatant commander requirements to conduct Security Cooperation 
activities and SFA missions outside of the USCENTCOM area of 
responsibility that have consistently gone unfulfilled due to lower 
prioritization compared to current operations in Iraq and Afghanistan. 
As we draw down forces in OIF/OEF, these manpower-intensive 
requirements will gain in importance, supporting the Secretary of 
Defense's objective of building ally and partner capacity. Therefore, 
regardless of our commitment in Iraq and Afghanistan, demand for forces 
will remain high for the foreseeable future as the U.S. remains 
persistently engaged around the globe.

                medical evacuation policy in afghanistan
    103. Senator Burr. General Amos and General Chiarelli, Secretary 
Gates testified on January 27, 2009, that in Afghanistan the time 
required to move a wounded soldier or marine to a hospital for 
definitive care is closer to 2 hours than the ``golden 1 hour'' 
standard in Iraq.
    In a recent interview with CNN, General James Conway, Commandant of 
the Marine Corps, predicted that as a result of increasing the number 
of marines in Afghanistan, coupled with the increasingly aggressive 
actions of the Taliban, ``we are likely to see our casualties rise over 
what they have been,'' and went on to express serious concerns on 
whether there will be enough helicopters to evacuate wounded marines 
quickly off the battlefield. Are you concerned that there will be 
insufficient airlift resources to quickly evacuate wounded soldiers and 
marines from the battlefield?
    General Amos. ISAF/USFOR-A hosted a U.S. Medical Evacuation 
(MEDEVAC) bed-down strategy in February 2009 in response to the 
testimony referenced above. MEDEVAC is not a Marine Corps capability so 
the projected offset was met with U.S. Army and U.S. Air Force assets 
that will work in Regional Command-South with no command relationship 
to the MEB. However, a COMUSCENTCOM FRAGO immediately transferred 
assets from Iraq in conjunction with the SECDEF authorization for a 
U.S. Army CAB and the MEB Marine Air Group as part of RFF920. These 
assets increase U.S. MEDEVAC and USMC CASEVAC capacity in our assigned 
battlespace. The allocation of these resources in conjunction with the 
streamlining of request processes and directive from CENTCOM and 
COMUSFOR-A for reporting procedures improves the current status from 
the January testimony. How much improvement remains to be seen; data 
will be taken throughout the early employment of the MEB and other US 
Forces operating specifically in Regional Command-South as well as 
Afghanistan as a whole.
    General Chiarelli. The Army's analysis has not identified any 
remaining shortages or inabilities to evacuate wounded soldiers and 
marines with current MEDEVAC assets in Afghanistan. Although 
survivability rates of Afghanistan are higher than those of Iraq, the 
Army is implementing several initiatives to improve MEDEVAC 
performance. These initiatives include increasing additional assets, 
fielding improved aircraft capabilities, improving procedures, and 
establishing new data collection and reporting requirements. Additional 
Army assets have already been employed in Regional Command-South in 
order to support the U.S. troop buildup. These assets include one 
forward surgical team, four additional MEDEVAC aircraft and crews from 
Iraq, and one 12-ship MEDEVAC company. From the Army's perspective, the 
marines deploy with organic capabilities which include Forward 
Resuscitate Surgical Systems and rotary wing casualty evacuation 
aircraft as an acceptable ``in lieu of'' solution for additional 
MEDEVAC aircraft requirements.

    104. Senator Burr. General Amos and General Chiarelli, what is 
being done to level the playing field between the Iraq and Afghanistan 
theaters with respect to medical evacuation and care of the wounded?
    General Amos. See answer to question 103.
    General Chiarelli. Since the two areas of operation pose different 
challenges and characteristics, Multi National Forces Iraq (MNF-I) and 
International Security Assistance Forces (ISAF) Afghanistan until 
recently applied different planning standards for acceptable risk. The 
differing factors were based on terrain, mission assessment, medical 
assets, and maturity of the infrastructure. Additionally, in 
Afghanistan, the participating NATO countries operate using their own 
country's rules which differ from those in the U.S. military. The Army 
is implementing several initiatives to achieve medical evacuation 
parity between Iraq and Afghanistan. These initiatives include 
increasing medical evacuation assets, fielding improved aircraft 
capabilities, improving procedures, and establishing new data 
collection, and reporting requirements. The Army's additional assets 
include two Army forward surgical teams, a medical brigade command and 
control headquarters, four additional MEDEVAC aircraft and crews from 
Iraq, and one 12-ship MEDEVAC company, which have already arrived. 
These Army assets are part of a joint effort to increase overall 
MEDEVAC capability in Afghanistan.

    105. Senator Burr. General Amos and General Chiarelli, are members 
who serve in Afghanistan at greater risk of dying from their wounds 
than those who serve in Iraq, because of insufficient airlift 
resources?
    General Amos. See answer to question 103.
    General Chiarelli. Using the Joint Theater Trauma Registry, Army 
analysis indicates that survivability rates in Afghanistan and Iraq are 
95 percent and 94 percent, respectively. This translates to cumulative 
``died of wounds'' rates of 5 percent in Afghanistan and 6 percent in 
Iraq. The Army has not identified a link between current MEDEVAC asset 
shortages and a greater risk of soldiers dying from their wounds in 
Afghanistan versus Iraq. From a medical perspective, our experiences in 
both Theaters suggest far-forward resuscitation and stabilization 
rendered during the platinum 10 minutes by combat lifesavers, medics, 
and corpsmen has contributed significantly to our survival rates. 
Although survivability rates in Afghanistan are higher than those in 
Iraq, the Army is implementing several initiatives to improve MEDEVAC 
performance. These initiatives include providing additional assets, 
fielding improved aircraft capabilities, improving procedures, and 
establishing new data collection and reporting requirements. These Army 
initiatives are part of a joint effort to increase overall MEDEVAC 
capability and reduce average MEDEVAC mission response times in 
Afghanistan to achieve parity between Theaters.

           medical and dental readiness of the ground forces
    106. Senator Burr. General Chiarelli, according to the DOD's 
Individual Medical Readiness data, overall medical readiness of the 
Armed forces has seen some recent improvement, but dental readiness of 
the ground forces, especially the Army Guard and Reserve, remains low. 
In the first quarter of fiscal year 2009, nearly 52 percent of the Army 
Guard and Reserve were in dental readiness class III or IV, and thus 
technically nondeployable. This situation remains relatively unchanged, 
in spite of efforts by Congress and the Department to improve dental 
readiness. What is the problem in achieving dental readiness, 
especially in the Guard and Reserve?
    General Chiarelli.
Army Active Component
    The Army Dental Command (DENCOM) provides dental services to the 
Army Active component through direct and referred private sector care 
options, resulting in a current dental readiness of 88 percent 
(percentage of Soldiers in Dental Fitness Classification (DFC) 1 or 2 
who are deployable). Our dental readiness goal is 95 percent; however, 
the dynamic OPTEMPO across the force, combined with the challenge of 
filling contracted dental provider positions at some locations, has 
impacted DENCOM's ability to generate higher percentages. In general, 
installation dental commanders work closely with unit commanders to 
ensure priority of effort and resourcing to support mobilizations/
demobilizations. Two DENCOM initiatives significantly assist in 
achieving and maintaining dental readiness in the Active component. The 
First Term Dental Readiness (FTDR) program provides Initial Entry 
Training (IET) soldiers with dental care to establish baseline DFC 1 or 
2 for soldiers before they leave Basic or Advanced Individual Training 
(AIT) sites, so they arrive at their first duty station in a deployable 
status. The goal of FTDR is 95 percent. Second, private sector care 
funding through the Oral Health Initiative leverages the private sector 
dental market to expand capabilities to deliver dental treatment as a 
supplement to direct care.
    The DENCOM is positively affecting the readiness of the Reserve 
component through both the Demobilization Dental Reset (DDR) mission 
and the FTDR program, which is conducted for all IET soldiers, 
regardless of component. In accordance with the Department of the Army 
Execution Order for DDR, demobilizing Reserve component soldiers are 
reset to DFC 1 or 2 by DENCOM providers at redeployment platforms. 
Approximately 35,000 Reserve component soldiers have demobilized 
through DENCOM facilities and been reset to deployable standards in 
fiscal year 2009, achieving a reset rate of 89.1 percent and assisting 
in the overall rise in dental readiness in the Reserve component from 
52 percent to 58 percent. Additionally, Reserve component soldiers who 
are not on active duty can achieve and maintain dental readiness 
through the new Army Selected Reserve Dental Readiness System (ASDRS) 
program, which the Assistant Secretary of the Army for Manpower and 
Reserve Affairs established in September of 2008. ASDRS is the 
strategic policy guidance that allows Selected Reserve soldiers to seek 
dental readiness care at their ``home station''. Dental Readiness 
encompasses a dental examination and the treatment of indentified DFC 3 
conditions.
United States Army Reserve (USAR)
    The USAR is very concerned about the dental readiness of USAR 
soldiers. The USAR is aware that dental readiness is a commander's and 
individual soldier's responsibility. The USAR has worked extensively 
with USAR commanders in order to communicate recent initiatives that 
will increase overall dental readiness. The ASDRS was a positive step 
forward. The USAR is currently working to fund 2 medical/dental 
readiness days that were recently authorized. It is expected that these 
additional days, in conjunction with ASDRS, FTDR and DDR, will result 
in increases in dental readiness as all of the initiatives mature. The 
most recent data shows that the USAR has a comprehensive dental 
readiness of 55.7 percent, a steady improvement since the inception of 
the dental readiness initiatives.
Army National Guard (ARNG)
    Currently 57 percent of the ARNG are in DFC 1 or 2, and 43 percent 
are DFC 3 (not ready) and 4 (dental status unknown). This is an 
improvement from the 45 percent dental readiness rate in May 2008, 
which was prior to the approval of the ASDRS. The ASDRS program enables 
states to provide dental treatment to guardsmen throughout the ARFORGEN 
cycle, and it leverages DENCOM's DDR and FTDR programs. FTDR places 
citizen-soldiers in their units at DFC 2 after completing AIT. DDR is 
returning 90 percent of our citizen-soldiers to their states as DFC 2 
after deployment. ARNG dental readiness will continue to improve with 
the ongoing support of the ASDRS program and the other dental readiness 
initiatives.

    107. Senator Burr. General Chiarelli, from a readiness perspective, 
are individuals still being found nondeployable for medical and dental 
reasons, and if so, why?
    General Chiarelli. Soldiers are still being found nondeployable for 
medical and dental reasons. Some of the reasons for this include lack 
of education on the behalf of commanders and leaders regarding health 
and medical issues; the fact that some Soldiers choose not to disclose 
health-related issues or attempt to conceal them, so that they can 
deploy with their units; late cross leveling of required personnel; and 
professional disparities between pre-deployment readiness checks and 
the professional interpretation of readiness standards at the Soldier 
Readiness Processing (SRP) site. The medical standards for retention 
are not the same as the medical standards for deployment. A soldier may 
be fit for retention with a certain medical condition, but not 
deployable. We increase the likelihood of this scenario by selectively 
retaining wounded warriors who do not meet retention standards or 
deployment medical standards. When Theater-specific medical deployment 
standards change, commanders are often not aware that a retainable 
soldier may not be deployable until he is screened at the CONUS 
Replacement Center or SRP site.
    Based on statistics compiled by Army Medical Command from October 
2008 through February 2009, for all components and other military 
service personnel undergoing SRP supported by Regional Medical Centers, 
approximately 3 percent of service members undergoing SRP for 
deployment are found nondeployable for medical reasons. Although 
soldiers are deemed nondeployable for various medical and dental 
reasons, many issues are corrected at the SRP site, to include drawing 
DNA samples, administering immunizations, providing dental treatment, 
issuing glasses, etc. Only a small percentage of soldiers are unable to 
resolve medical/dental issues identified during the SRP process and, as 
a result, are unable to deploy.

                   mental health concerns in the army
    108. Senator Burr. General Chiarelli, you mentioned in your opening 
statement your concern about trends in mental and behavioral health 
issues for our soldiers. A DOD Task Force on Mental Health Report in 
2006 asserted the following: ``Every military leader bears 
responsibility for addressing (the stigma associated with seeking 
mental health care); leaders who fail to do so reduce the effectiveness 
of the servicemembers they lead.''
    Two years later we still see evidence that military commanders 
sometime discourage members from seeking needed care. The Personnel 
Subcommittee recently received testimony that in 2008, 780 callers to a 
non-DOD suicide prevention hotline identified themselves as Active Duty 
military. Thus far this year, nearly three callers a day identify 
themselves as being on Active Duty.
    This tells me that there is still significant stigma--and fear--
associated with seeking needed mental health care by members of the 
Armed forces. What efforts have you initiated within your Service to 
address this problem?
    General Chiarelli. The Army's approaches to stigma include Senior 
Leader messages encouraging help-seeking behavior and assurances that 
seeking behavioral health treatment will not interfere with security 
clearances, promotions or ratings. We are working to inform soldiers 
that seeking care often improves work performance and therefore may 
actually help with promotions and ratings. I have sent a message to all 
Army activities strongly encouraging all NCOs and officers to address 
in their initial and subsequent performance counseling how effectively 
the rated soldier addresses behavioral health issues and its impact on 
the overall command climate of the unit. I have issued guidance 
directly to the field emphasizing the importance of not allowing 
soldiers to belittle other soldiers for seeking behavioral health care. 
In addition, a council of senior leaders, convened by me, is working to 
more fully integrate behavioral health providers into our units. The 
goal is to increase informal contacts between the care providers and 
soldiers to enhance their communication and emphasize the performance 
enhancement aspects of our behavioral health team members.

    109. Senator Burr. General Chiarelli, how are you measuring your 
success?
    General Chiarelli. We are vigorously developing outcome measures 
for existing and new programs to ensure the adoption and expansion of 
best practices and evidence based treatments. Surveys will be done to 
assess changes in attitudes and programs will be modified as needed to 
achieve the desired outcomes. Of course, the rate of suicide is a key 
indicator and we will need to carefully watch that number recognizing 
that the contributors to an individual's decision to end his or her 
life are many and that we as an organization cannot impact all of them.
    We recognize that many of the changes we are making will take some 
time to show progress. We are determined to stay the course and work in 
a holistic fashion to promote health and reduce risk knowing the rates 
of suicide will drop as the overall health of our Force improves. The 
goal is to improve our soldiers' ability to cope with life stressors 
whether those stressors are related to mission, other work stress, 
relationships, family, money, health concerns or other areas, by 
optimizing current policies and procedures and setting the conditions 
for future changes.

                     contractor support in theater
    110. Senator Burr. General Amos and General Chiarelli, I have a 
question about the impact to military readiness and operations of 
support provided by contractors in Iraq and Afghanistan. A few of my 
colleagues have pressed the current Administration to curtail the use 
by the military of service contracts for base operating services, 
security, supply, and other mission-support requirements. Can you 
briefly describe the impact of service support contracts on readiness 
and mission capability for the Army and the Marine Corps?
    General Amos. Success in Afghanistan is dependent upon service 
contracts--whether provided by U.S. or local contractors/personnel. 
These personnel bring enduring capabilities that are not resident in 
the Services in any significant numbers. Their abilities to build base 
camps and provide associated services free the operating forces to 
focus on their assigned mission. Equipment Field Service 
Representatives assist in removing and/or maintaining specialized 
equipment. If we lose these services, our readiness will decline. We 
will need to deploy and increase the number of military personnel in 
harms way to support these missions.
    General Chiarelli. The use of contractors for mission support 
services is not only a proven force enabler, but also provides a 
significant surge capability during contingency operations. Contractors 
at our Forward Repair Activities help to maintain the readiness of 
important combat systems. In addition, by leveraging the private sector 
for certain activities such as the operation of dining facilities or 
laundry services, our soldiers can focus on their core mission--
defending our Nation and its interests. In context, contractor-provided 
support services improve readiness because the military can respond 
rapidly to insurgencies and in greater numbers with equipment they can 
trust. In terms of mission capability, hot meals, a clean uniform, and 
other contractor-provided, quality of life services helps to maintain 
the strong morale of our Nation's sons and daughters who proudly serve 
extended and/or multiple deployments. While difficult to measure, 
morale is a fundamental element of military culture, leadership, and 
the overall willingness of our All-Volunteer Force to defend their 
Country. The military could still perform their core mission without 
contractors, though I believe degradation of morale over time could 
pose a significant risk to mission capability.

    111. Senator Burr. General Amos and General Chiarelli, to what 
extent will you be relying on service contracts to carry out the 
drawdown of forces from Iraq?
    General Amos. We will use service contracts to assist in base 
closure and provide long haul drivers thereby eliminating the 
requirement for marines to perform these missions. These same service 
contracts (LOGCAP 3 and soon LOGCAP 4), currently feed our marines and 
perform base support duties. Along with LOGCAP 3 and 4, we also use 
Equipment Field Service Representatives on select equipment such as 
MRAPs. They will assist in removing or maintaining these items during 
retrograde and/or redirection of equipment to Afghanistan. We also have 
service contracts at our ports to perform equipment wash down and 
clean-up to meet Customs and Agricultural inspections and assist in 
loading and unloading trucks and vessels.
    General Chiarelli. The Army currently expects to use a combination 
of existing service contracts and organic support units to retrograde 
equipment and materiel from Iraq. Once we have completed our current 
assessment, leadership in theatre will determine if existing contracts 
will be augmented, or if additional enabling service contracts will be 
required to retrograde out equipment. Should a service contract be used 
as part of these efforts, the government will maintain oversight 
responsibilities.

    112. Senator Burr. General Amos and General Chiarelli, can you 
assess the impact to Army and Marine Corps operations in Iraq and 
Afghanistan if you were prohibited from using service support contracts 
such as the Army's Logistics Civil Augmentation Program (LOGCAP)?
    General Amos. Devastating. We would require a sizeable increase in 
forces and associated capabilities. Service support contract personnel 
perform a myriad of theater and base support functions from food 
service to equipment maintenance to line hall transportation. We would 
be hard pressed, if not impossible, to deploy and replicate the support 
provided by theater service support contracts.
    General Chiarelli. The Logistics Civil Augmentation Program 
(LOGCAP) has been an effective force enabler for our units in Iraq and 
Afghanistan and has provided excellent support to our soldiers. The use 
of Operational Contract Support effectively expands the capability of 
the deployed forces by reducing the additional work load placed upon 
our soldiers. The Army would certainly be able to accomplish its 
mission in Iraq and Afghanistan without LOGCAP. However, the loss of 
these service support contracts would cause our deployed forces to 
operate at a significantly reduced level of intensity, as they would 
now have to flex to meet these service support missions. By providing 
for the base operations support, trash pickup, laundry and bath 
services and other important but ancillary responsibilities, the 
soldiers are able to concentrate their efforts on the primary mission 
at hand.

    113. Senator Burr. General Amos and General Chiarelli, how would 
you compensate for the loss of the use of these service contracts?
    General Amos. We would have to increase the number of military 
personnel to perform these Service functions at a reduced level. As an 
example, rather than three hot meals a day served by LOGCAP personnel, 
we might go to one a day; rather than washing clothes weekly, it might 
be biweekly; and, rather than equipment maintenance at/or above 90 
percent, we would do the best we could since some of our overflow 
maintenance support is handled by LOGCAP. Nevertheless, the Marine 
Corps is still an expeditionary force, and we would adapt as required 
to meet theater needs and the needs of our forces to enable them to 
effectively carry out their missions.
    General Chiarelli. While the Army can accomplish its mission 
without LOGCAP contractors, the loss of these service contracts would 
place a greater demand on our soldiers, of whom much is already asked. 
The absence of these capabilities would require the Army to either 
place a greater demand on its organic capability or risk a reduction in 
the Quality of Life standards for our soldiers operating in an austere 
environment.

                   safety of expeditionary facilities
    114. Senator Burr. General Chiarelli, one area of concern I have 
with the performance of service contractors has to do with the safety 
of our military personnel living and working in expeditionary 
facilities provided by contractors in theater. The fact that we have 
lost military personnel to accidental electrocution is a tragic 
circumstance that must not be allowed to persist.
    Are you confident that current efforts to provide facilities for 
our forces in theater incorporate generally accepted industry standards 
for the safety of personnel, including standards for fire protection 
and structural integrity, and standards with respect to electrical 
systems, water treatment, and telecommunication networks?
    General Chiarelli. It is the Army's goal that each contract, task 
and delivery order contain all necessary requirements and clauses to 
protect the safety of all personnel as well as to ensure that the 
government receives the best value for our contract dollars. The Army 
works hard to ensure the safety of our personnel in all arenas by 
providing them with safe facilities as well as educating our personnel 
to observe safety practices on, as well as off, duty. Our people are 
our most valuable and important asset.
    The award of contracts and task and delivery orders for 
construction is a complex process in any environment, and more so in a 
warzone with contracts that are often awarded to indigenous contractors 
in accordance with the Iraqi First and Afghani First programs. Each 
project requires the development of a Statement of Work which must 
contain the appropriate safety and construction standards for the 
project. The contracting offices do not have construction or safety 
expertise and must rely on the project engineers/program managers to 
identify all necessary standards that must be met as well as the 
development and submission of a comprehensive and appropriate Quality 
Assurance Plan for construction oversight. As you know, the contract 
award is only the first step. The Army has also been working hard to 
develop and deploy qualified Contracting Officer Representatives (CORs) 
who are responsible for providing the oversight of the contractor 
during the construction, installation, repair, maintenance, or 
operation of facilities. While extensive progress has been made in 
training and deploying qualified personnel as CORs, the Army is 
continuing to work this issue to ensure the safety of our troops.
    The U.S. Army Corps of Engineers (USACE) requires compliance to 
industry standards for the safety of personnel, including standards for 
fire protection, electrical, structural, water and telecommunication 
networks in all contracts awarded by USACE. Compliance is ensured by 
our quality assurance personnel at the project site. Currently, 
district commanders are responsible for ensuring compliance. For added 
assurance, USACE is in the process of standing up the Trans Atlantic 
Division in Winchester, VA, in September 2009 that will have the 
responsibility to ensure quality processes and adequate capability is 
available at the project sites to ensure compliance to national 
standards in the CENTCOM area of operation. This is USACE normal 
business model for all USACE operations. It should be noted that USACE 
is not the sole design/construction/facility management agent that has 
full responsibility for the entire life cycle of all facilities built 
in the theaters where our soldiers and Army Civilians live, work, and 
train. Other organizations such as the Air Force Center for 
Environmental Excellence, the Navy Sea Bees, Red Horse, and Army 
Materiel Command assets perform and occasionally NATO Maintenance and 
Supply Agency provide a variety of design/construction/facility 
management services as well for a variety of reasons.

    115. Senator Burr. General Chiarelli, can I get your assurance that 
each contract or task or delivery order carried out in the future for 
the construction, installation, repair, maintenance, or operation of 
expeditionary facilities for the Army incorporates generally accepted 
industry standards for the safety of personnel utilizing such 
facilities?
    General Chiarelli. It is the Army's goal that each contract, task 
and delivery order contain all necessary requirements and clauses to 
protect the safety of all personnel as well as to ensure that the 
government receives the best value for our contract dollars. The Army 
works hard to ensure the safety of our personnel in all arenas by 
providing them with safe facilities as well as educating our personnel 
to observe safety practices on, as well as off, duty. Our people are 
our most valuable and important asset.
    The award of contracts and task and delivery orders for 
construction is a complex process in any environment, and more so in a 
warzone with contracts that are often awarded to indigenous contractors 
in accordance with the Iraqi First and Afghani First programs. Each 
project requires the development of a Statement of Work which must 
contain the appropriate safety and construction standards for the 
project. The contracting offices do not have construction or safety 
expertise and must rely on the project engineers/program managers to 
identify all necessary standards that must be met as well as the 
development and submission of a comprehensive and appropriate Quality 
Assurance Plan for construction oversight. As you know, the contract 
award is only the first step. The Army has also been working hard to 
develop and deploy qualified Contracting Officer Representatives (CORs) 
who are responsible for providing the oversight of the contractor 
during the construction, installation, repair, maintenance or operation 
of facilities. While extensive progress has been made in training and 
deploying qualified personnel as CORs, the Army is continuing to work 
this issue to ensure the safety of our troops.

                 future force requirements for the army
    116. Senator Burr. General Chiarelli, in your written statement 
regarding efforts within the Army to restore balance to the force by 
2011, you state ``The challenge continues to be complicated by changing 
circumstances and increased demand on the force.'' You then state 
``Unfortunately, the Army cannot influence demand, and the current 
level does not appear likely to improve significantly for the 
foreseeable future.''
    Due to the success of a surge of Army Brigades and other U.S. 
forces into Iraq last year that resulted in a vastly improved security 
environment, the President announced on February 27 a plan to reduce 
forces in Iraq to commence immediately and be completed by September 
2010, with a residual force of 35,000 to 50,000 to remain through 2011. 
That equates to a redeployment of at least 115,000 troops in the next 
16 months.
    Since most of those returning forces will be Army combat brigades 
and a majority of the forces being deployed to Afghanistan currently 
are U.S. marines, do you foresee an overall increased demand on the 
Army force in the next 16 months? If so, where?
    General Chiarelli. The Army and the Marine Corps presence in 
Afghanistan are different in size. In Afghanistan, the Army currently 
has 33,563 deployed soldiers compared to 9,211 marines currently 
serving there. Growth in Afghanistan requirements will continue to be 
largely filled by the Army. In the near term, to include the next 16 
months, global demand will increase for the Army because the new surge 
of troops into Afghanistan occurs prior to major reductions in Iraq. 
Over the longer term, demand will begin to decrease as units are 
withdrawn from Iraq by the end of 2011.

    117. Senator Burr. General Chiarelli, how would you define a 
significant improvement in the current level of demand?
    General Chiarelli. A significant improvement in the current level 
of demand is a level which allows the Army to meet our long term goal 
of Active component soldiers at home station three times as much as 
they are deployed (BOG to dwell ration of 1:3). For Reserve component 
soldiers, the long term goal is 12 months mobilized for every 5 years 
not mobilized (BOG to dwell of 1:5). In terms of BCTs, this equates to 
a demand of 11 Active component BCTs and 4 Reserve component BCTs. This 
level of global demand will allow units to train for full spectrum 
operations to better meet the requirements of the Joint Force.

    118. Senator Burr. General Chiarelli, in your opinion, will the 
Army's share of a residual force of 35,000-50,000 in Iraq continue to 
be a significant strain on the Army's ability to restore their balance?
    General Chiarelli. OIF demand for BCTs will reduce to the six BCTs 
augmented for stability operations. Redeploying BCTs will be reset to 
meet global demands, including the expanded Afghanistan commitment and 
geographic combatant commander requirements that have previously been 
validated but were not sourced. Potentially, the greatest impact on the 
Army's share of residual forces in Iraq will be on enabler units which 
are currently in low density and in high demand. These units generally 
provide theater level support and MNF-I requirements may prevent us 
from reaching a favorable BOG to dwell ratio for those type units. The 
Army continues to conduct parallel planning with CENTCOM and its 
subordinate commands to synchronize drawdown plans with rebalancing the 
Army.

    119. Senator Burr. General Chiarelli, has the Department of the 
Army developed a withdrawal and reset plan based on a reduced presence 
in Iraq to raise the readiness levels over time for all combat 
brigades?
    General Chiarelli. Yes. The Army's planning to improve readiness 
and reset the force is guided by the ARFORGEN model and informed by 
CENTCOM's drawdown planning. However, readiness and BOG to dwell ratios 
are driven by the global demand for forces of which Iraq is just one 
component. It is important to realize that the global demand for Army 
forces is at 37 BCT equivalents while the current commitment of Army 
BCTs stands at 28 BCTs equivalents. The global demand for forces 
includes units for COIN, training teams, and security forces in OIF and 
OEF; Korea, Homeland Defense, consequence management response, global 
response force, rapid response force, Multinational Force Observers, 
Kosovo, and validated but unmet Global Force Management Board 
requirements, most of which are outside the CENTCOM area of 
responsibility. Rebuilding readiness in the Army will take time and 
resources. Units returning from combat operations will require 24 
months dwell and consistent and timely funding to realize full spectrum 
training and readiness.

    120. Senator Burr. General Chiarelli, how many BCTs need to be 
rated C-2 or above in order for the Army to declare a restoration of 
the desire rebalancing?
    General Chiarelli. Achieving an acceptable level of full spectrum 
readiness is a necessary part of restoring balance but it is not 
sufficient. The Army has accumulated a significant amount of 
institutional risk during the past 7 years while operating at a tempo 
that requires us to take extraordinary measures to man, equip, and 
train our units, usually just in time to deploy. This risk is a 
function of the stress on our soldiers and leaders and their families 
of multiple deployments. It is also a function of insufficient time for 
our units to train on other potential missions and for our soldiers and 
leaders to attend professional military education (PME) and gain other 
broadening experiences necessary to strengthen the integrity of the 
Army profession. To restore balance we need to address all these risks 
by balancing the demand for forces with the supply of forces so that we 
can operate at a sustainable tempo as measured by the ratio between 
time deployed and time not deployed (BOG:Dwell).
    The number of units that need to be C2 or above depends the number 
of units we are already providing to meet global demand, the number of 
units that are required by our high priority contingency plans 
(operational depth), and the degree of risk deemed to be acceptable. 
These numbers are always changing. For the past 7 years, the Army has 
operated at a tempo that required us to use our operational depth to 
meet and sustain OIF and OEF demand.
    Today the Army is operating at a BOG to dwell tempo of 1:1.3. At a 
BOG to dwell tempo of 1:2 for the Active component and 1:4 for the 
Reserve component, we believe we cross the threshold from preparing 
units just in time for deployment to beginning to be able to train for 
other potential missions and get our people to PME. At this tempo we 
could provide up to 20 BCTs to meet global demand and up to 20 BCTs 
could be prepared to meet contingencies with 90-180 days notice. We 
hope to achieve this BOG:Dwell tempo by the end of 2011.
    The Army's ultimate goal is to achieve a BOG:Dwell tempo of 1:3 for 
the Active component and 1:5 for the Reserve component. At this tempo, 
with a 73 BCT force (Active component and Reserve component), we 
project we can sustain the All-Volunteer Force, continuously strengthen 
the profession, and meet a global demand of up to 15 BCTs, with an 
additional 15 BCTs that could respond to contingencies in less than 90 
days. Additional strategic flexibility would be provided by another 15 
BCTs that could be available between 90 and 180 days with the remainder 
of our BCTs requiring greater than 180 days to prepare for commitment 
if required.

    121. Senator Burr. General Chiarelli, furthermore you state ``We 
simply cannot achieve desired BOG dwell ratios until demand is reduced 
to a sustainable level.'' What do you consider to be a sustainable 
level of demand in order to balance the force?
    General Chiarelli. A ratio of 1:3 for the Active component and 1:5 
for the Reserve component BOG to dwell ratio allows the Army to 
maintain full readiness to meet global demands and allows for the 
development and sustainment of the All-Volunteer Force. The fiscal year 
2010 President's budget request enables the Army to commit over 70,000 
enabler personnel at a sustainable BOG to dwell ratio. In fiscal year 
2011, when the Army has completed our growth to 45 Active component 
BCTs and 28 Reserve component BCTs, at 1:3 Active component/1:5 Reserve 
component cycles, we will be able to meet the demand for 11 Active 
component BCTs and 4 Reserve component BCTs.

    122. Senator Burr. General Chiarelli, what impact will the increase 
in the end strength of the Army have on dwell time?
    General Chiarelli. Increasing the Army end strength improves our 
strategic depth and enables the Army to rebalance by fiscal year 2011, 
a BOG to dwell ratio goal of 1:2. Rebalancing the Army, coupled with a 
decrease in global demand will provide units and soldiers more dwell 
time to train for full spectrum operations while timely and consistent 
funding assists in resetting war worn equipment. Full Spectrum 
Readiness requires 18 months dwell for units to train beyond the COIN 
mission before their next deployment. The Chief of Staff of the Army's 
guidance is that units with less than 18 months dwell before their next 
deployment to stay focused on the COIN mission. Units that have 18 
months or longer before their next deployment are to focus on 
conventional skills training for 90 days.

                       suicide prevention efforts
    123. Senator Burr. General Amos and General Chiarelli, you 
testified recently at a Personnel Subcommittee hearing along with the 
other vice chiefs about suicides among soldiers and marines and the 
preventative measures your Services were taking. The incidences of 
suicides, particularly in the Army, were increasing at an alarming 
rate. What are the current trends with respect to suicides in the Army 
and Marine Corps?
    General Amos. The loss of any marine through suicide is a tragedy 
for the marine's family and unit, and can never be accepted. Through 
April of this year, there have been 12 suspected or confirmed suicides 
and 54 reported suicide attempts. With 42 suicides recorded in 2008, 
the Marine Corps experienced its highest suicide rate since the start 
of OEF and OIF. Marine Corps leadership is taking proactive action, 
focusing on the important role of leaders of all ranks in addressing 
this issue. The number of confirmed marine suicides has increased from 
25 in 2006 to 33 in calendar year 2007 to 42 in calendar year 2008. Our 
suicide rate in 2008 of 19.5 suicides per 100,000 approaches the 
National civilian suicide rate for a demographic similar to the Marine 
Corps.
    General Chiarelli. The Army is continuing to experience an 
increasing rate of suicides across the Active, Reserve, and National 
Guard. It is expected that the calendar year 2009 numbers and rate per 
100,000 will exceed that of calendar year 2008. We are working 
diligently to investigate each suicide. I have convened a group of 
subject matter experts, which works in tandem with the G-1's Army 
Suicide Prevention Program as an integrated operation, to review each 
suicide, develop lessons learned and to distribute these lessons to 
leaders across the Army.

    124. Senator Burr. General Amos and General Chiarelli, please 
explain what steps you have taken to better understand how to prevent 
suicides among soldiers and marines.
    General Amos. Suicide prevention is a high priority. We are 
actively engaged in prevention and early identification of problems 
that may increase the risk of suicide. Marine Corps leadership is 
taking proactive action, focusing on the important role of leaders of 
all ranks in addressing this issue. Understanding that there is no 
single suicide prevention solution, we are committed to having an 
effect on the individual marine through leadership and command 
involvement at all levels and we recognize that we must reduce the 
stigma sometimes associated with seeking help.
    Suicides are monitored monthly and annually for deployment related 
trends such as the number of deployments and dwell time. Although it is 
not unreasonable to assume that one or more deployments may cause an 
increase in suicides, to date we have been unable to establish a direct 
relationship between the two. The Marine Corps Combat Development 
Command Studies and Analysis Division is conducting further analysis of 
the data on dwell time and deployments. Additionally, we will 
participate in the Army longitudinal study being conducted by the 
National Institute for Mental Health. Regardless of duty station, 
deployment, or duty status, the primary stressors associated with 
marine suicides are: problems in romantic relationships, physical 
health, work-related issues such as poor performance and job 
dissatisfaction, and pending legal or administrative action. This is 
consistent with other Services and civilian findings. Multiple 
stressors are almost always present in a suicide.
    The Commandant and Marine Corps leadership are taking proactive 
action to address this issue. The Sergeant Major of the Marine Corps 
selected a senior enlisted Marine leader to add unique insight to our 
efforts in suicide prevention and, through the Executive Safety Board, 
is directing a series of initiatives that are currently in accelerated 
development:

         Training: Since 90 percent of suicides have tended to occur 
        in the ranks of E1-E5 marines, a half-day, high impact, 
        relevant workshop has been designed to reach the NCO/FMF Sailor 
        community and facilitate their work with junior enlisted 
        marines. This training is expected to be ready by this summer. 
        In March, I directed that an all-hands training on suicide 
        prevention be conducted throughout the Corps.
         Leadership Suicide Prevention Video Messages: All O-6 and 
        higher commanding officers have been directed to produce videos 
        focusing on leadership and suicide prevention to set the tone 
        for stigma reduction and an imperative of prevention.
         Integration of Suicide Prevention and the Marine Corps 
        Martial Arts Program (MCMAP): A prevention message was 
        incorporated in the MCMAP program in a manner appropriate and 
        engaging to reach all marines.
         Relationship Distress Hotline: Relationship problems, both 
        romantic and marital, remain the number one associated stressor 
        related to suicidal behavior. Suicide is complex and while this 
        is not the only problem, it is the most common. A hotline by 
        phone, email and live internet chat that is marketed 
        specifically to assist with relationship distress and questions 
        may reduce risk of suicide related behaviors that result from 
        this type of stress. In the interim, we have partnered with The 
        Outreach Call Center of the Defense Center of Excellence on 
        Psychological Health and Traumatic Brain Injury, and Military 
        OneSource to strategically market their relationship building 
        resources to marines and family members.

    The Marine Corps will continue to aggressively pursue suicide 
prevention initiatives; reevaluate existing programs designed to reduce 
the stressors most correlated with suicidal behavior; develop and 
distribute new prevention programs; and refresh and expand training 
materials.
    General Chiarelli. I have taken several steps to improve my 
understanding of how to prevent the tragedy of suicides within our 
ranks. In March and April 2009, I conducted an 8-day, six-installation 
factfinding visit in order to listen to the voices from the field. I 
learned first-hand from discussions with soldiers, mental health 
professionals, commanders, and other personnel in the installations and 
garrisons that the problem of suicide cannot be addressed solely in 
terms of preventing suicides. The Army must address the problem in 
terms of mitigating the risk factors contributing to suicidal behavior. 
The Army must also foster the mental and spiritual health and 
resiliency of soldiers and their families. I decided to enlarge the 
aperture of the Army's view of the problem and take a holistic approach 
to combating it.
    Subsequently, I stood up a multi-disciplinary team of experts in 
April 2009 to review my findings and develop a holistic approach. The 
team reviewed not only my trip findings, but also Army programs and 
policies relating to suicide, behavioral health, and suicide risk 
factors. The team developed approximately 250 actions to be taken to 
improve existing systems and programs. I reviewed those actions and the 
recommendations of my team. The tasks they recommended form the nucleus 
of the Army's strategic approach to the suicide issue: the Army 
Campaign Plan for Health Promotion, Risk Reduction, and Suicide 
Prevention. I signed the Plan in mid-April. A senior level council 
meets every 2 weeks to review and refine the plans to implement the 
action tasks. My understanding of suicide prevention continues to 
develop and refine based on what I learn from the council.
    I receive daily briefings from my multidisciplinary team and hold 
frequent, periodic briefings with commanders and a Senior Review Group 
on Army suicides. I have met with the commanders of soldiers who have 
died from suicide in an effort to ascertain--to the extent possible--
what went wrong in each case. I am briefed on every soldier suicide.
    For the long-term, in October 2008, the Army entered into an 
agreement with the National Institute of Mental Health for a 5-year 
longitudinal study of suicides, designed to assess factors contributing 
to suicide and identify training to reduce suicides and other 
mitigation techniques. My team and council inform the intermediate 
goals and milestones of that study.

                     effects of stop-loss cessation
    125. Senator Burr. General Chiarelli, last month, Secretary Gates 
announced that the practice of stop-loss, or involuntarily keeping 
soldiers on Active Duty beyond the end of their obligated active 
service, would come to an end by March 2011. He based this change on 
planned reductions of troops in Iraq and the Army's ability to 
accelerate its growth to 547,000 troops. The practice of stop-loss was 
used during the first Persian Gulf War and has been a critical element 
in being able to achieve unit manning. As of January 2009, according to 
Secretary Gates, over 13,000 soldiers were in a stop-loss status. Does 
the Army intend to modify its unit manning practices with individual 
replacements or cross leveling in order to achieve the goal of ending 
stop-loss?
    General Chiarelli. Each Army component has a comprehensive plan to 
achieve the goal of ending the use of Stop Loss, taking into 
consideration the circumstances unique to each component. The intent is 
to cut the number of Stop Lossed soldiers in half by June 2010, and to 
discontinue the use of Stop Loss by March 2011.
    The Active component will begin deploying units without Stop Loss 
in January 2010. Some of the manning practices that will be adjusted 
include increasing the level of fill for deploying units, adjusting 
deployment policies, and adjusting the individual replacement process. 
BCT manning will increase from 102 percent to 105 percent. Deployment 
policies will be adjusted to permit certain soldiers to deploy for 
portions of the unit deployment. Army Human Resources Command will 
provide replacements prior to deployment for soldiers who will not 
deploy due to insufficient time remaining in service and in-theater 
replacements for losses, dependent on unit strengths, available 
inventory, and projected redeployment dates. Additionally, the Active 
component will implement an incentive program to encourage soldiers to 
extend to complete the deployment.
    The Army Reserve will begin mobilizing deploying units without Stop 
Loss in August 2009. The Army Reserve will increase their use of 
voluntary cross-leveling and implement special pay for mobilizing units 
to assist in stabilizing units for deployment. Soldiers in units 
identified for mobilization who have insufficient time to complete the 
deployment will be encouraged to extend. Soldiers who do not commit to 
complete the mobilization will be transferred to another unit until 
separation, and the Army Reserve will seek volunteers in other units to 
replace these soldiers.
    The Army National Guard will begin mobilizing deploying units 
without Stop Loss in September 2009. The Army National Guard will 
adjust mobilization and deployment policies, utilize voluntary cross-
leveling, and implement an incentive program to encourage soldiers to 
extend to complete the deployment. For those not extending, soldiers 
with an Expiration of Term of Service (ETS) prior to the projected 
demobilization date will not be mobilized. Soldiers with an ETS after 
demobilization but prior to the post-mobilization stabilization period 
(90 days post-mobilization) will be mobilized and deployed, but will be 
returned to home station 90 days prior to separation for transition. 
Additionally, the Army National Guard will seek volunteers in other 
units to replace soldiers not mobilizing; volunteers will also be able 
to take advantage of the incentive program.

    126. Senator Burr. General Chiarelli, the Army Reserve has decided 
to give extra pay to all soldiers in one of its deploying units rather 
than just to those Reserve soldiers who have been stop-lossed. Could 
you explain the rationale for this decision and whether the Army will 
take this approach in the future in order to avoid disparity of 
treatment among soldiers?
    General Chiarelli. Each Army component has developed a 
comprehensive plan to achieve the goal of ending the use of Stop Loss 
that best promotes stability in their deploying formations. 
Compensation programs are managed separately by each component, and 
they differ to the extent that desired outcomes differ. Each component 
must leverage its program to achieve desired effects appropriate to its 
circumstances. Perceived disparity of treatment can be attributed to a 
lack of understanding of the differences among the programs for each 
component.
    As part of its program to stabilize deploying units, the Army 
Reserve will offer Designated Unit Stabilization Pay (DUSP) under High 
Priority Unit Pay authority. This program is a special pay program; it 
utilizes existing authority to compensate soldiers in units alerted for 
mobilization. Soldiers must commit to complete the mobilization, to 
include reenlistment or extension for those soldiers with insufficient 
time remaining in service and resolution of any other issues which 
would prevent the soldier from being mobilized. Then, all soldiers in 
designated deploying units receive DUSP pay at the rate of $50 per 
drill period from mobilization minus 6 months to mobilization date. 
Soldiers are paid during the pre-mobilization period in order to 
stabilize units preparing for mobilization.
    The Army National Guard will offer Deployment Extension 
Stabilization Pay as part of its plan to man units alerted for 
mobilization. This is an incentive program; it utilizes Assignment 
Incentive Pay (AIP) authority to incentivize soldiers to extend to 
complete a mobilization and deployment. Soldiers with an ETS between 
180 days prior to Mobilization Day and Demobilization are eligible to 
voluntarily extend their service obligation to complete mobilization 
and post-mobilization reintegration requirements. Soldiers receive $500 
per month for each month of mobilization if they commit 180-365 days 
prior to mobilization and $350 per month if they commit 90-179 days 
prior to mobilization. Soldiers must extend their service obligation 
for at least 12 months to be eligible. Soldiers are paid during the 
mobilization period in order to incentivize soldiers to extend for at 
least 12 months and complete a deployment.
    As part of its plan to reduce Stop Loss, The Active Army will offer 
Deployment Extension Incentive Pay (DEIP). This is an incentive 
program; it utilizes AIP authority to incentive soldiers who do not 
intend to reenlist to extend in order to complete a deployment with 
their unit. DEIP will be offered to units deploying without Stop Loss 
beginning 9 months prior to Latest Arrival Date (LAD) at a rate of $350 
to $500 per month. Soldiers with an ETS between LAD and return plus 60 
days are eligible. Soldiers who commit between LAD-9 months and LAD-6 
months receive $500 per month. Soldiers who commit after LAD-6 months 
but before ETS-90 days receive $350 per month. Soldiers must extend 
their service obligation for the duration of the deployment plus 60 
days. Soldiers are paid during the period of extension (original ETS 
through separation) in order to incentivize soldiers to extend for the 
duration of the deployment.

                     active-duty army end strength
    127. Senator Burr. General Chiarelli, the Secretary of Defense 
announced on April 6 that the total number of Active-Duty BCTs that the 
Army would grow to would be 45 instead of 48, while maintaining the 
planned increase in end strength of 547,000. He stated that this was 
necessary to ``ensure that we have better-manned units ready to deploy, 
and help put an end to the routine use of stop loss. This step will 
also lower the risk of hollowing the force.'' In view of the demand for 
combat units, do you think that 547,000 is the right end strength 
number, or should it be higher?
    General Chiarelli. The right size and appropriate structure of the 
Army depends on what our Nation's leaders want the Army to do (the 
demand) and what they consider an acceptable level of deployment (BOG/
dwell) while maintaining a quality, All-Volunteer Force. We understand 
our Nation's resources are finite, and we are seeking to strike the 
right balance between the size of the Army and what the Nation can 
afford.
    If operational demand on the Army remains at, or near, current 
levels (27 BCTs with enablers) and the desired rotation rate was 1:2 
for the Active component (1 year deployed to 2 years at home) and 1:4 
for the Reserve component (1 year mobilized, 9 months deployed, to 4 
years at home), the force would have to grow in order to resolve 
existing critical capability shortfalls and increase rotational 
capability while achieving strategic depth.

    128. Senator Burr. General Chiarelli, what effect will this 
decision regarding the number of BCTs have on deployment length and 
dwell time, i.e., the number of months spent at home station following 
a deployment?
    General Chiarelli. With the total supply of Active component BCTs 
going from 48 to 45, the Army will reach its Active component BCT 
growth in fiscal year 2011. At an OIF/OEF demand for 11 Active 
component BCTs, Army dwell will be approximately 30 months. Additional 
BCT growth would not have been accomplished by this point, so it would 
have had little impact on near-term dwell. Our rotational force 
generation readiness model, ARFORGEN, effectively and efficiently 
generates trained and ready forces for combatant commanders at 
sustainable rotational levels. ARFORGEN also provides ready forces for 
unforeseen contingencies. At the Army's long term goal of a BOG to 
dwell ratio of 1:3 Active component and 1:5 Reserve component, ARFORGEN 
would meet a demand for 11 Active component BCTs and 4 Reserve 
component BCTs. BCTs now deploy for 12 months, although there is one 
BCT remaining in theater under an extended deployment.

    [Whereupon, at 11:42 a.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
